<html>
<title> - CONNOR, ROBINSON, AND BINZ NOMINATIONS</title>
<body><pre>[Senate Hearing 113-100]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-100

 
                 CONNOR, ROBINSON, AND BINZ NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   TO

  THE NOMINATIONS OF MR. MICHAEL L. CONNOR TO BE DEPUTY SECRETARY OF 
 INTERIOR, MS. ELIZABETH M. ROBINSON TO BE UNDER SECRETARY OF ENERGY, 
   AND MR. RONALD J. BINZ TO BE A COMMISSIONER OF THE FEDERAL ENERGY 
                         REGULATORY COMMISSION

                               __________

                           SEPTEMBER 17, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
85-348                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7116011e311204020519141d015f121e1c5f">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

9Bennet, Hon. Michael, U.S. Senator from Colorado................     9
Bingaman, Hon. Jeff, Former U.S. Senator.........................     5
Binz, Ronald J., Nominee to be a Member of the Federal Energy 
  Regulatory Commission..........................................    18
Connor, Michael L., Nominee to be Deputy Secretary of the 
  Department of the Interior.....................................    11
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     3
Robinson, Elizabeth (Beth) M., Nominee to be Under Secretary for 
  Management and Performance, Department of Energy...............    16
Udall, Hon. Mark, U.S. Senator From Colorado.....................     7
Udall, Hon. Tom, U.S. Senator From New Mexico....................     6
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                                APPENDIX

Responses to additional questions................................    57


                 CONNOR, ROBINSON, AND BINZ NOMINATIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 17, 2013

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    The Chairman. The committee will come to order.
    Today's business is, of course, to consider the views of 3 
very well-qualified nominees. Also when we have a quorum, we 
will do a short business meeting that Senator Murkowski and I 
anticipate can be dealt with in a manner of minutes.
    With respect to the 3 nominees.
    Mike Connor, the President's choice to be Deputy Secretary 
of the Interior, is well known to many of us on the committee. 
He ably staffed the committee on water issues for 8 years from 
2001 to 2009. Before joining our staff, Mike got his start in 
the Solicitor's Honors program at the Department of the 
Interior.
    After 5 years in the Solicitor's Office, he was appointed 
Director of the Secretary of the Interior's Indian Water Rights 
Office where he served for 3 more years until Senator Bingaman 
hired him away to serve our committee.
    For the past 4 years since leaving the committee, Mike has 
been Commissioner of Reclamation, a position to which he was 
confirmed by the Senate in 2009. The Bureau of Reclamation is 
the largest wholesaler of water in the country bringing water 
to more than 31 million people in 17 Western States. It is the 
second largest producer of hydroelectric power, operating 58 
hydroelectric power plants and generating more than 40 billion 
kilowatt hours of power per year. Leading the Bureau is an 
enormous responsibility and one that Mike has discharged with 
great distinction and acclaim.
    Both on the staff of the committee and as Commissioner of 
Reclamation, Mike has demonstrated his integrity, his 
knowledge, his commitment to public service, and his ability to 
bring people together and to solve problems.
    Our next nominee is Beth Robinson. She's the President's 
choice to be the Under Secretary of Energy. She, too, is very 
well qualified.
    She currently serves as the Chief Financial Officer of the 
National Aeronautics and Space Administration, a position she 
was confirmed by the Senate for in 2009. As the Chief Financial 
Officer at NASA, Dr. Robinson has managed the budget of major 
Federal agencies which like the Department of Energy, is on the 
forefront of scientific research and technological development.
    Before joining NASA she was the Assistant Director of 
Budget at the Office of Management and Budget where she was the 
most senior career official.
    Before that she was the Deputy Director of the 
Congressional Budget Office from 2003 to 2005.
    Still earlier in her career she was at the Office of 
Technology Assessment where she was a Project Examiner and 
Branch Chief.
    That background should serve Dr. Robinson well.
    This summer Secretary Moniz reorganized the Department of 
Energy to consolidate its support offices with its 
environmental cleanup and legacy management functions under the 
Under Secretary, who is responsible for project management and 
performance across the Department. The Under Secretary for 
Management and Performance is being given an enormously 
important and challenging portfolio. Dr. Robinson brings a 
quarter century of experience with Federal budget and science 
and technology issues to the job.
    Ron Binz, who the President has chosen to fill Jon 
Wellinghoff's seat on the Federal Energy Regulatory Commission, 
is no stranger to public utility issues. In 2007 to 2011, Mr. 
Binz chaired Colorado's Public Utility Commission where he led 
the effort to implement Colorado's new energy economy. He has 
also been a member of the National Association of Regulatory 
Utility Commissioners, the Secretary of Energy State Energy 
Advisory Board, the Electric Power Research Institute's 
Advisory Council and the Harvard Electricity Policy Group.
    Before chairing the Public Utility Commission in Colorado, 
he was the consumer counsel there for a decade, served as the 
President of a nonprofit organization that promoted competition 
in telecommunications and energy, and ran his own policy 
consulting firm. Since leaving the Public Utility Commission he 
has returned to his public policy consulting practice. Like our 
other 2 nominees, he brings enormous experience gained over the 
course of a professional lifetime to the position for which he 
has been nominated.
    In considering the Binz nomination I'll briefly describe 
the authorities of the Federal Energy Regulatory Commission.
    FERC's primary tasks have been overseeing the orderly 
development of the nation's water power resources and 
protecting electric rate payers and natural gas consumers from 
unjust and unreasonable electric and gas prices.
    More recently it has been handed the task of protecting 
electric and gas markets from manipulation and ensuring the 
reliability of the electric grid.
    FERC has no authority to regulate coal. That means no 
authority over the leasing of Federal coal fields, the issuance 
of coal mining permits or mine safety. That means it has no 
authority to regulate or license coal burning electric 
generating plants or authorities to tell utilities which fuels 
to use to generate electricity.
    Most importantly, it has no authority to impose unjust or 
unreasonable rates or impose discriminatory or preferential 
charges on coal or coal-generated electricity. That means no 
back door taxes on coal or coal-generated electricity. Now 
having just gotten back from the natural gas fields in the 
Bakken with Senator Hoeven, I do want to note that FERC 
actually does have the authority to permit interstate natural 
gas pipelines and to ensure competitive gas rates.
    I'm especially interested in Mr. Binz's views of this 
authority because natural gas, with 50 percent less carbon than 
other fossil fuels, is giving American consumers and American 
businesses a pricing advantage in a tough, global economy. As I 
saw in North Dakota, the key to keeping that gas affordable and 
accessible is getting it to market. That brings us to the 
pipeline issue.
    Pipelines are key to the infrastructure that gets the gas 
to market. My hope for future, new pipelines is that America 
gets a win/win situation. Not just more pipelines, but better, 
new pipelines that save consumers and businesses money as they 
save energy and offer an added boost by emitting less methane.
    I intend this morning to ask Mr. Binz for his ideas about 
potential win/win solutions on natural gas.
    So we have 3 nominees who are highly qualified for the 
positions they've been nominated for. I know that Senators have 
a number of questions that they wish to pursue. We've got a 
long bipartisan tradition of making sure that nominees, who are 
asked questions and all Senators who ask them, are treated 
fairly. We're going to maintain that today.
    Now I note we have a quorum. We can do this 1 of 2 ways.
    We can have Senator Murkowski make her opening statement, 
or we can go right to the short business meeting and then we'll 
have Senator Murkowski.
    Senator Murkowski. Business meeting.
    The Chairman. Alright.
    [RECESS]
    The Chairman. We now turn to the 3 pending nominations. We 
will have Senator Murkowski's opening statement and then we're 
very pleased to have our colleagues and also Chairman Bingaman, 
who returns. It's become almost mandatory for Chairman Bingaman 
to introduce a nominee if we have a nominee's hearing. But 
we're glad that he's here.
    Let us now have Senator Murkowski's opening remarks.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    I, too, would like to welcome our friend and colleague and 
distinguished former chairman back to the committee. It's 
always good to see you here.
    Mr. Connor, I kind of feel like you are still a part of the 
committee. You've been a familiar face around here for so many 
years. So welcome back to this room as well.
    You clearly know the significance of the--that the 
Department of the Interior has to Western States. In 
particular, you know firsthand the impact that it can have on 
our lives, our lands. I'm pleased to say that on the basis of 
your prior service, the opportunity that I have had to observe 
your work for a period of time, I'm pleased to be able to 
support your nomination today.
    I'll look forward to the questions that my colleagues will 
have of you. But pleased that you have agreed to step forward 
in this capacity.
    Dr. Robinson, I'd like to welcome you before our committee. 
I appreciate the time that you took to meet with my staff last 
week so that we could ask some questions. I do look forward to 
learning a little bit more about your work as the Chief 
Financial Officer there at NASA, as well as hearing your ideas 
for improving contracting and environmental management within 
DOE.
    Finally to Mr. Binz, welcome also to the committee. I 
appreciated meeting with you last week. We had an opportunity 
to discuss at that time that there has been a fair amount of 
attention, I think it's fair to say, about your nomination. Not 
only coming on as a member of the Commission, but as the Chair 
of the Commission, so a little extra added scrutiny there and I 
think appropriately so.
    I would suggest, Mr. Chairman, that most of these people in 
the room and that were waiting outside were not here for the 
business meeting.
    The Chairman. You think?
    Senator Murkowski. So I think it speaks to the significance 
of the nomination that we have here today to be chairman of the 
FERC.
    We recognize that FERC is independent by law and by design. 
It is clearly, clearly distinct from executive agencies that 
carry out policy directives from the White House. According to 
the Organic Act governing FERC commissioners and this is their 
quote, ``shall be individuals who by demonstrated ability, 
background, training or experience are specifically qualified 
to assess fairly the needs and concerns of all interests 
affected by Federal energy policy.'' So again, emphasis on the 
true independence that the FERC as an entity should have.
    Mr. Binz, this committee clearly has a role there for to 
ensure FERC's continued independence. It's against this 
standard that is provided in the Organic Act that I will 
express my concerns about your nomination to the committee.
    Specifically I'm concerned about your role, your view of 
the role, of regulators and how you would lead the Commission, 
if confirmed. You've written and spoken extensively about that 
role. At this point I am not convinced that your views are 
compatible with FERC's mission.
    It is critically, and I will emphasize that, critically 
important for us to enable the agency and its professional, non 
partisan employees, who report to the chairman as their CEO, to 
maintain its strong culture as an expert agency, free of undo 
political influence.
    There's a lot at stake with FERC, probably more so than 
most people would realize. By one rough measure of economic 
impact the energy transmitted over FERC related pipes and wires 
is worth well over $400 billion per year. Most Americans 
actually feel that impact to FERC's decision in hundreds of 
individual cases and controversies. So ultimately what we're 
talking about here is money from their pockets and the quality 
of their energy service.
    I will also raise my concerns about the coordination that 
we have seen between FERC professional staff, White House 
staff, a public relations firm that by its own admission has 
been retained for the benefit of your nomination by an interest 
group and lobbyists, at least one of whom I understood you to 
say you thought might be being paid by the same interest group 
to advance your nomination.
    We may not have seen an effort like this before. I think 
for good reason.
    Again, FERC is an independent agency. It must remain an 
independent agency.
    So this kind of paid effort for and with the cooperation of 
the nominee should not become the new normal.
    So I will look forward to hearing your response, Mr. Binz 
to the concerns that I have raised. I know others will raise 
issues as well. This is an important part of the process for 
any nominee to gather information, not only directly from you 
in the venue of the committee, but also from the questions that 
will be submitted to the record afterwards which I would also 
look forward to reviewing as well.
    But I thought it only appropriate at this time to be able 
to raise my concerns so that we could have more fulsome 
conversation throughout the hearing.
    With that, Mr. Chairman, I'm ready to go.
    The Chairman. Thank you, Senator Murkowski.
    Chairman Bingaman, you have once again been the recipient 
of bipartisan bouquet tossing. We are very glad that you're 
here. You're going to introduce Mike Connor.
    Senator Domenici, who also chaired the committee before 
Chairman Bingaman had also wanted to introduce Mike Connor, 
he's unable to be here today because of a scheduling conflict. 
Senator Domenici submitted a written statement in support of 
Mike Connor's nomination.
    Without objection it will be included in the record.
    The Chairman. In addition, I note our friends and 
colleagues, Senator Udall of Colorado and Senator Bennet, have 
asked to introduce Mr. Binz. We welcome them.
    So let us proceed to Chairman Bingaman to introduce Mike 
Connor. Then we'll call on Senator Udall and Senator Bennet to 
introduce Mr. Binz.
    Tom Udall has just arrived and he is going to make some 
introductory remarks of Mike Connor as well.
    So, Chairman Bingaman, we'll make your prepared remarks a 
part of the record. You just proceed.

      STATEMENT OF HON. JEFF BINGAMAN, FORMER U.S. SENATOR

    Senator Bingaman. Mr. Chairman and Senator Murkowski, thank 
you very much for your kind words. Thank you for allowing me 
to, once again, address the committee and all committee 
members.
    I'm honored to be here with Senator Udall to strongly 
support the nomination of Mike Connor for the position of 
Deputy Secretary of the Department of the Interior.
    I think as everyone in this committee knows the Deputy 
Secretary position in the Department of the Interior is a very 
important position. It's a position which Senators, 
particularly Senators on this committee, have occasion to 
interact with on a pretty regular basis. So it's important that 
the President have a good person in that job and that the 
Congress have someone in that job that they can relate to.
    The President, in my view, could not have chosen a better 
nominee for the position than Mike. Mike is eminently 
qualified, as pointed out by Chairman Wyden in his remarks and 
Senator Murkowski as well.
    He graduated from New Mexico State University. Has a degree 
there in chemical engineering which Senator Heinrich, I know 
has a degree in engineering and as I recall there are not too 
many in the Congress that have that qualification. So it's 
great that Mike has that training.
    Following that he graduated from the University of Colorado 
Law School. From 1993 until 2001 he was in the Solicitor's 
Office in the Department of the Interior and also the Director 
of the Secretary's Indian Water Rights Office.
    Beginning in 2001 he did come to work with our own 
committee here, the Energy Committee. During his years on the 
Energy Committee staff he demonstrated, on numerous occasions, 
he was here on the staff for 8 years. He demonstrated on 
numerous occasions his ability to find solutions to very 
difficult problems and to find solutions that could gain the 
support of Democrats, Republicans and Independents alike.
    His current position as Commissioner of the Bureau of 
Reclamation is a position in which he has also distinguished 
himself. He has demonstrated the ability to effectively manage 
and lead one of the most important agencies in our government.
    Mike knows and understands the laws that the Department of 
the Interior is tasked with administering. He also, very much, 
for the interest of people from the West, such as myself and 
Senator Udall, he understands and knows the water laws that 
affect us in this country. He knows the on the ground 
challenges that come with managing our public lands.
    He knows the crucial role that Congress plays in setting 
policy and in overseeing how that policy is carried out. He is 
a first rate manager. That's a skill which is essential in a 
large department such as the Department of the Interior.
    As I indicated at the beginning, in my view, the President 
could not have chosen a better nominee for this position. I 
hope all Senators will support his nomination and quickly 
report that nomination to the Full Senate for consideration.
    Thank you, Mr. Chairman for allowing me to speak. I know 
Senator Udall also has comments to make.
    The Chairman. Senator Udall, welcome.

           STATEMENT OF HON. TOM UDALL, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Wyden and Ranking Member 
Murkowski and to the very distinguished Energy Committee here 
that does such good work on the Hill.
    It's an honor to speak after Senator Bingaman. I think when 
Senator Bingaman expresses an opinion about an employee who 
worked for him for 8 years, it's very important to take that 
into consideration because Mike Connor is somebody who has 
incredible integrity. He has the capacity, I think, to work 
across the aisle.
    You all have seen, many of you that are on this committee, 
have seen that when Chairman Bingaman was in place. So it's an 
important thing to have somebody like that who understands the 
Hill. Who understands how things work in the Congress to be in 
these administrative positions.
    I would just say that in this job at BOR that Mike Connor 
has held, water is an absolutely critical issue to the Nation 
and to the West. He is focused like a laser beam on the water 
issues. Many of the water issues we have in the West, as some 
of the Western Senators know, revolve around disputes, tribal 
disputes, State and Federal.
    Mike Connor has been someone who has brought to the table 
the idea that you can resolve these disputes. You can implement 
settlements. I've seen, in our home State of New Mexico, 
Senator Bingaman, him do that on a regular basis. We've had 
some very, very good tribal settlements. They've mediated some 
very tough environmental disputes.
    We all know, in terms of water, we're going to have this 
overlay of climate. You look at the big basins in the West and 
there's going to be less water. Mike is on top of that. He 
understands the issue. I think he will work with us to find 
common sense solutions.
    I couldn't agree more with Senator Bingaman. I complement 
Secretary Jewell for her choice. I think he's an ideal person 
in order to carry out the duties of Deputy Secretary of the 
Interior. I would recommend him most highly.
    Thank you. I yield back.
    The Chairman. Thank you, Senator Udall. I very much 
appreciate you and Chairman Bingaman being here.
    Just apropos of that water point that you were making 
Senator Udall. I listened carefully to the excellent speech 
that you gave on water conservation during the course of the 
Energy Efficiency debate. We very much appreciate your 
leadership and highlighting Mike's work on this as well.
    Senator Udall.
    Another Udall.

          STATEMENT OF HON. MARK UDALL, U.S. SENATOR 
                         FROM COLORADO

    Senator Mark Udall. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman.
    Good morning, Ranking Member Murkowski.
    As you mentioned, Senator Bennet and I are here. We're very 
pleased to be able to introduce Ron Binz, who is the 
President's nominee to serve on the Federal Energy Regulatory 
Commission, which we fondly call the FERC. Through his 
commitment to promoting a fair and competitive business 
environment in Colorado, Ron has demonstrated that he's well 
qualified to help oversee the regulatory framework of America's 
energy infrastructure.
    Mr. Chairman, I want to emphasize that Senator Bennet and I 
speak from long experience observing Mr. Binz in Colorado. He 
was known as a fair and impartial professional during these 
years of public service in Colorado. I want to quote Lola 
Spradley, who is a prominent Republican and a former Speaker of 
our Colorado House of Representatives. She has said, ``Binz is 
an experienced, balanced expert with more than 30 years of 
experience. During this time he's been able to offer bipartisan 
solutions on several issues.''
    Lola is one of the many people I've heard from across the 
political spectrum who support Ron; from utilities, consumer 
organizations, fuel suppliers, former FERC Commissioners and 
many other stakeholders. In Colorado, Ron was known as a 
consensus builder. He was a pragmatist. He was a go-to person 
when difficult problems demanded solutions. Our country needs 
more consensus builders like Ron.
    He understands the vast array, and that we all know in this 
committee, it is a vast array of different stakeholders across 
all the many energy debates that we have. But more than that, 
he knows how to bring them to the table for constructive 
dialog. That's exactly what I saw him do in Colorado.
    Let me give you an example.
    He headed, Mr. Chairman as you mentioned, the Office of 
Consumer Council. He earned this reputation as a problem solver 
by bringing a thoughtful and a common sense average guy way of 
thinking to many, many tough debates. A specific example, he 
helped lead the negotiations on the settlement of several 
lawsuits surrounding what was then the troubled Fort St. Vrain 
nuclear power plant. That power plant was operational less than 
15 percent of its 10 year life span, and it was a major problem 
in our State in the late 1980s.
    But Ron got into the mix. He worked with the utilities 
involved, with stakeholders. They all found a compromise that 
resulted in that plant being decommissioned and then resolving 
in the process the issue of the rates for the consumers who 
were being delivered that power.
    Here's the important part. The major stakeholders-the 
utilities, the regulators and the consumer advocates-all 
approved that final consensus driven deal. That deal led to 
$102,000,000 in refunds and electrical rate reductions for 
consumers.
    Today that power plant, the Fort St. Vrain power plant, is 
again generating power, though now it's powered by natural gas. 
It's a very interesting case study.
    In addition, Ron understands and he's worked to implement a 
balanced energy strategy for the State of Colorado. By that I 
mean from natural gas to renewables, to coal. He's been at the 
helm of Colorado's pursuit of an economical, sustainable energy 
portfolio.
    His efforts have helped create jobs and cement--and I guess 
I'm a little bit of a homer here-but our leadership in the new 
energy economy. I believe and I know he can do the same on a 
national scale.
    Many of you have met with Ron already. Those of you who 
haven't I can tell you he's willing and ready to sit down with 
you at a minutes? notice. You will learn very quickly he's a 
good listener. That's a skill that will be critical for an 
incoming FERC Commissioner.
    Now what a lot of people don't know about Ron is that he's 
quite a chef. He makes his own pickles, beer, wine, cheese. You 
name it. He even won a blue ribbon at the Colorado State Fair 
for his bread and butter pickles.
    But I guess I digress.
    [Laughter.]
    Senator Mark Udall: Between addressing our transmission 
challenges, expanding our natural gas pipeline infrastructure 
and working with energy stakeholders to ensure our cyber 
security, FERC faces immense challenges over the next 5 years. 
I believe Ron Binz is exceptionally qualified to ensure that 
our energy infrastructure is up to the challenge of the next 
decade.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Udall. We look forward to 
seeing you on this side of the dais here in a couple minutes.
    Senator Bennet, welcome.

        STATEMENT OF HON. MICHAEL BENNET, U.S. SENATOR 
                         FROM COLORADO

    Senator Bennet. Thank you, Mr. Chairman. I want to thank 
you very much for holding this hearing and for the Ranking 
Member Senator Murkowski as well. Thank you for your 
consideration of these nominees.
    I'm very pleased to be here with my senior Senator today, 
Senator Udall. He and I spent the weekend together, a lot of 
it, traveling our State surveying the damage from the floods. 
Even as we meet here today we have first responders who are 
rescuing people still in Colorado today.
    We're going to need the help of the members of this 
committee to rebuild. We look forward to working with you on 
that.
    I'm here also with Senator Udall to introduce someone who I 
know always has Colorado on his mind as well. That's Ron Binz. 
I think Senator Udall did a great job of outlining Ron's past 
experience and credentials. Simply put, Ron has a long history 
of building consensus and finding solutions when presented with 
difficult problems.
    In a recent letter to the Wall Street Journal an impressive 
bipartisan group of 12 former FERC Commissioners expressed 
their support for Ron. I think on the standard that the ranking 
member mentioned earlier actually.
    As I read it, they said, ``Mr. Binz has an impressive 34 
year career in energy policy. If the Senate confirms him we 
think he will be a fair and impartial judge and further the 
public interest within the FERC's authority.''
    They went on to say. ``Over Republican and Democratic 
administrations FERC has judiciously exercised the dual 
authority Congress has given it. FERC has a long nonpartisan 
tradition. Ron Binz fits squarely within that tradition.''
    I'd ask the chair to have the entirety of the letter in the 
record.
    The Chairman. Without objection, so ordered.
    Senator Bennet. Thank you.
    Senator Bennet. It isn't just fellow regulators who support 
Ron, but it's also leaders of industries that FERC regulates.
    For instance the CEO of Excel Energy, our utility in 
Colorado, said ``our industry faces many challenges that 
require a careful balancing of interests and thoughtful 
solutions. Constructive approaches that benefit both customers 
and the environment should be applauded rather than chastised. 
Regulators such as Mr. Binz can play a key role in crafting 
such forward looking approaches and should be encouraged to do 
so.''
    As Senator Udall mentioned Ron has a long career in public 
service in Colorado. He has built, he has earned a reputation 
as a good listener who can broker difficult compromises among 
stakeholders who might not necessarily see eye to eye on a 
given issue. Ron's long experience combined with his very 
pragmatic temperament make him well suited to serve as the next 
Chairman of FERC.
    With that, Mr. Chairman I say thank you for having this 
hearing. Thanks for letting Senator Udall and I come by.
    The Chairman. Thank you, Senator Bennet.
    I don't believe any Senators have questions of these 4. Is 
that correct?
    Alright, we'll excuse all 4 of you at this time.
    If our nominees will come forward? We have some business 
matters to address first.
    Welcome to each of you.
    The rules of the committee, which apply to all nominees, 
require that they be sworn in connection with their testimony.
    Please stand and raise your right hand.
    Do you solemnly swear the testimony you're about to give is 
the truth, the whole truth and nothing but the truth, so help 
you God?
    [Witnesses respond. I do.]
    The Chairman. Before you begin your statement. I will ask 3 
questions addressed to each nominee who comes before the 
committee.
    Will you be available to appear before the committee and 
other Congressional Committees to represent departmental 
positions and respond to issues of concern to the Congress?
    [Witnesses respond. I will.]
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict of 
interest or create the appearance of such a conflict should you 
be confirmed and assume the office to which you've been 
nominated by the President?
    Mr. Binz. I do not, no.
    Are you involved or do you have any assets held in a blind 
trust?
    [Witnesses respond. No.]
    The Chairman. Alright.
    We always allow the nominees to introduce their family 
members. This is something we want to give each of you the 
opportunity to do.
    Mr. Binz. I'll go first.
    Senator, thank you very much, Senator Wyden and Ranking 
Member Murkowski.
    The Chairman. Mr. Binz, this is just for introducing family 
members.
    Mr. Binz. Yes, I'm about to do that.
    The Chairman. Oh, good. Alright.
    [Laughter.]
    Mr. Binz. I'm pleased to be joined by a contingent from 
Little Rock, Arkansas.
    First my father, Walter Binz and my mother, Elizabeth Ann 
Binz, who will next week celebrate their 65th wedding 
anniversary, next month I should say.
    [Applause.]
    The Chairman. Very good.
    Mr. Binz. With my parents is my baby sister, Shirley Binz 
Scott. I have 6 younger sisters and Shirley is the youngest of 
the 6. She came with them.
    My fourth guest is my partner in life for 42 years, Mary 
Donahue from Denver, Colorado. She's my best friend and my 
biggest supporter.
    So I'm very pleased that they are here with me today.
    The Chairman. Very good.
    Dr. Robinson.
    Mr. Robinson. I have one guest, my fiance Douglas Holtz-
Eakin.
    The Chairman. We welcome him. Note that I have availed 
myself to his counsel over the years on a variety of issues.
    Welcome.
    Anyone else that you'd like to introduce?
    Mr. Robinson. Nope, that's it.
    The Chairman. Alright.
    Mr. Connor.
    Mr. Connor. Mr. Chairman, my wife and children have school 
and work commitments today. Quite frankly when I did this 4 
years ago Senator Barrasso complimented my daughter on how well 
she was behaving. She was then 8 years old.
    The Chairman. You didn't want to break the record.
    Mr. Connor. Exactly. We didn't think it would get any 
better than that.
    [Laughter.]
    The Chairman. As the parent of 3 under 6, I got the drift.
    [Laughter.]
    Mr. Connor. With all due efforts they are hoping for the 
swearing in ceremony.
    The Chairman. Very good.
    Alright. We will then proceed to hear the opening remarks 
of each of you. I know the Senators have plenty of questions.
    Let's begin with you, Mr. Connor.

TESTIMONY OF MICHAEL L. CONNOR, NOMINEE TO BE DEPUTY SECRETARY 
               OF THE DEPARTMENT OF THE INTERIOR

    Mr. Connor. Thank you.
    Mr. Chairman, Ranking Member Murkowski and members of the 
Committee, I'm honored to be appear before you today as 
President Obama's nominee to be the Deputy Secretary of the 
Interior. As I mentioned my family was unable to be here with 
me today, but none the less having served in the Obama 
Administration for over 4 years now I want to acknowledge the 
reality that most of the sacrifices of public service are made 
by our families. I remain grateful for their continuing 
support.
    Of course, I am very appreciative that Senator Bingaman was 
gracious enough to return to the Capitol to make a statement on 
my behalf. I can't do justice in explaining how much it means 
to me to have his ongoing support other than to say I wouldn't 
be here without it. That he remains the model for how I try and 
conduct myself during my time in public service.
    As a New Mexican I'm also proud and appreciative that 
Senator Udall, given all of his responsibilities, joined us 
today to make a statement on my behalf. I certainly have 
enjoyed working with the Senator when he was--as his 
representation of New Mexico during my time on the committee 
and now as the Commissioner of the Bureau of Reclamation.
    I'm also proud and appreciative that Senator Domenici has 
offered a statement on my behalf. He would have liked to have 
been here except for his annual public policy conference at New 
Mexico State University is taking place this week.
    My service as the Commissioner of the Bureau of Reclamation 
at the Department of the Interior has been a tremendously 
rewarding experience. Through the commitment of Reclamation's 
employees, support from the Administration and Congress and the 
strong relationship that we have built with an array of 
stakeholders, we have accomplished a great deal during the last 
4 and a half years. Something outlined in greater detail in my 
written statement.
    I'm proud of this record. Not just for the needs that are 
addressed, but also because of the cooperation and 
collaboration necessary to achieve these results. I have 
directed the efforts of a team of over 5,000 Federal employees 
who epitomize the definition of public service demonstrating on 
a daily basis an ongoing commitment to develop and implement 
creative solutions to challenging water resource issues that 
further the interest of Reclamation's partners and the public. 
I have also worked closely and developed water management 
strategies with a diverse group of stakeholders including those 
in State and local governments, Indian tribes, agriculture and 
municipal water users, power users and environmental interests.
    I am now afforded an incredible opportunity to serve at the 
Department in a new capacity as Deputy Secretary. I am honored 
that President Obama and Secretary Jewell have seen fit to 
nominate me for this important position. Of course, this 
opportunity would not exist but for the confidence placed in me 
by Secretary Salazar, who in 2009 recommended me for my present 
position. His support and leadership have been invaluable in 
preparing me for this new and significant challenge.
    The Deputy Secretary position was most recently held by my 
friend and colleague David J. Hayes. His shoes are very large 
ones to fill. None the less I'm excited at the prospect and 
believe that my background provides me the experience needed to 
effectively carry out the important responsibilities of Deputy 
Secretary, the second highest ranking official in the 
Department and its Chief Operating Officer.
    My background is set forth in greater detail in my written 
statement.
    Without a doubt the best experience for the job I hope to 
assume is the job I presently have. Water sustains both the 
lives of our citizens and the economic activity that is the 
foundation of our communities. Its availability and clean and 
reliable quantities is critical to the use, management and 
enjoyment of other natural resources.
    This relationship requires the Bureau of Reclamation to 
work across agency lines at Interior and closely with the 
States in carrying out its mission and serving the interests of 
the American people. Our facilities provide water and power for 
a large percentage of the population, but they have also 
impacted public resources and property interests that fall 
within the responsibility of other Interior bureaus. As a 
result in running the Bureau of Reclamation I've also gained 
significant insight and understanding into the missions of the 
U.S. Fish and Wildlife Service, National Park Service, Bureau 
of Indian Affairs, U.S. Geological Survey, even the office of 
Surface Mining.
    Obviously effectively managing a department with the 
breadth of Interior's responsibilities requires an even deeper 
understanding of the programs and activities of its individual 
bureaus. I am absolutely committed to that task, particularly 
given the fact that Interior's mission affects the lives of all 
Americans. Our public lands make significant economic 
contributions to this country through recreation activities, 
production of renewable and fossil fuel based energy resources, 
hard rock mineral production, forging and grazing activities, 
timber production and the delivery of water for agricultural, 
municipal and industrial purposes.
    In Fiscal Year 2012 the activities contributed $371 billion 
to the economy and supported 2.3 million jobs.
    Interior is also entrusted with sacred trust 
responsibilities to Indian tribes and Alaska natives, the 
preservation of our history in those special places, the 
empowerment of insular communities and the protection and 
conservation of our wildlife resources. The changes taking 
place, not only in this country, but worldwide including 
climate change, population growth, shifts in the global economy 
and new technological developments present challenges and 
opportunities to all sectors of Interior's responsibilities.
    I look forward to working closely with Secretary Jewell, 
our leadership team and Interior's dedicated career employees 
to continue a collaborative process informed by the best 
science to refine existing strategies and develop new 
initiatives to address ongoing changes and ensure continued 
success in carrying out Interior's critical missions.
    At the end of the day I'm convinced that the vast majority 
of the American public simply wants their leaders in 
Washington, DC to work together and collaborate on solutions to 
the problems and challenges the country faces. I share this 
goal. If confirmed, will commit to this task with a sense of 
humility and a keen understanding of the need to work with the 
public, affected stakeholders and Congress to most effectively 
carry out the department's mission.
    With just over 3 years left in this Administration, I'm 
well aware that progress on seemingly tractable issues will 
best come through cooperative efforts that are oriented toward 
achieving certainty and clarity on resource management issues. 
The Secretary has chartered the right course with her 
substantive engagement on the issues of the day and her clear 
commitment to ensure the department will be guided by 
transparency and integrity in carrying out its mission. I am 
equally committed to these principles and believe we can make 
great progress in working on much needed solutions by adhering 
to this approach.
    Thank you for the opportunity to address my nomination. I 
look forward to answering questions.
    [The prepared statement of Mr. Connor follows:]

   Prepared Statement of Michael Connor, Nominee for the Position of 
           Deputy Secretary of the Department of the Interior

    Chairman Wyden, Ranking Member Murkowski, and members of the 
committee, I am honored to appear before you today as President Obama's 
nominee to be the Deputy Secretary of the Interior. Unfortunately, 
given work and school commitments, my family could not join me today. 
Nonetheless, having served in the Obama Administration for over 4 years 
now, I want to acknowledge the reality that most of the sacrifices of 
public service are made by our families and I remain grateful for the 
continuing support of my wife Shari and our children Matthew and 
Gabriela.
    Of course, I greatly appreciate that Senator Bingaman was gracious 
enough to return to the Capital to make a statement on my behalf. I 
can't do justice in explaining how much it means to me to have his 
ongoing support - other than to say that I wouldn't be here without it 
and that he remains the model for how I conduct myself during my time 
in public service. As a New Mexican, I am also proud and appreciative 
that Senator Domenici has offered a statement on my behalf. He also 
would have been here today were it not for a conflict with this annual 
public policy conference at NMSU.
    My service as the Commissioner of the Bureau of Reclamation at the 
Department of the Interior has been a tremendously rewarding 
experience. Through the commitment of Reclamation's employees, support 
from the Administration and Congress, and the strong relationship we 
have built with an array of stakeholders, we have accomplished a great 
deal during the last four and a half years. We have completed historic 
binational agreements with Mexico on the Colorado River; negotiated and 
begun implementation on five new Indian water rights settlements; and 
stood up a WaterSMART program that has increased water supply across 
the West by over 700,000 acre-feet per year on average. We completed 
several aquatic restoration projects that improve environmental 
conditions in a number of western rivers. In support of the President's 
commitment to renewable energy, we installed over 100 megawatts of new 
hydropower generating capacity on Reclamation facilities while also 
identifying opportunities for developing several hundred more.
    I am proud of this record, not just for the needs that are being 
addressed but also because of the cooperation and collaboration 
necessary to achieve these results. I have directed the efforts of a 
team of over 5,000 federal employees who epitomize the definition of 
public service, demonstrating on a daily basis an ongoing commitment to 
develop and implement creative solutions to challenging water resource 
issues that further the interests of Reclamation's partners and the 
public. I have also worked closely and developed water management 
strategies with a diverse group of stakeholders, including those in 
state and local government, Indian tribes, agricultural and municipal 
water users, power users, and environmental interests.
    I am now afforded an incredible opportunity to serve the Department 
in a new capacity, as Deputy Secretary. I am honored and appreciative 
that President Obama and Secretary Jewell have seen fit to nominate me 
for this important position. Of course, this opportunity would not 
exist but for the confidence placed in me by Secretary Salazar who in 
2009 recommended me for my present position. His support and leadership 
have been invaluable in preparing me for this new and significant 
challenge.
    The Deputy Secretary position was most recently held by my friend 
and colleague David J. Hayes and his shoes are very large ones to fill. 
Nonetheless, I am excited at the prospect and believe that my 
background provides me the experience needed to effectively carry out 
the important responsibilities of Deputy Secretary-the second highest 
ranking official in the Department and its Chief Operating Officer.
    As I noted to this Committee during my 2009 confirmation hearing, I 
grew up in New Mexico, a state rich in natural resources (with the 
exception of water) and which has a land base that is slightly over 
one-third in federal ownership. It is a state where approximately ten 
percent of the population is Native-American and I am proud that my 
maternal grandfather was a leader within the Taos Pueblo. My childhood 
home, where my parents still live, is located across the street from a 
major irrigation canal that serves agricultural land within the 
Elephant Butte Irrigation District. It has been said that if you don't 
know where you are, you don't know who you are. I would like to think 
that knowing and understanding where I am from has helped me better 
understand the responsibilities of the Department of the Interior and 
the people we serve.
    I am also confident that my background as an engineer and lawyer 
has helped prepare me well for this position. As an engineer, I worked 
in the private sector for GE in its Power Generation Services business 
before going back to school to obtain my law degree. Upon graduation, I 
began my federal career at Interior in the Solicitor's Honors Program 
which afforded me an opportunity to serve as counsel for all of 
Interior's bureaus. I also ran the Secretary's Indian water rights 
office before moving to the United States Senate as Counsel to this 
Committee. As I said in 2009, my 8 years on the Energy and Natural 
Resources Committee staff were incredibly rewarding, productive, and 
educational, the highlight of my professional career at the time.
    Without a doubt, however, the best experience for the job I hope to 
assume is the job I presently have. Water is a thread that runs through 
all our public and private lands and its availability in clean and 
reliable quantities is critical to the use, management, and enjoyment 
of other natural resources. Water sustains both the lives of our 
citizens and the economic activity that is the foundation for our 
communities. This relationship requires that the Bureau of Reclamation 
work across agency lines at Interior and closely with the states in 
carrying out its mission and serving the interests of the American 
people. Moreover, our facilities provide water and power for a large 
percentage of the population but they have also impacted public 
resources and property interests that are managed or fall within the 
responsibility of other Interior bureaus. As a result, in running the 
Bureau of Reclamation, I have also gained significant insight and 
understanding into the missions of the U.S. Fish and Wildlife Service, 
National Park Service, Bureau of Indian Affairs, U.S. Geological 
Survey, and even the Office of Surface Mining.
    Obviously, effectively managing a Department with the breadth of 
Interior's responsibilities requires an even deeper understanding of 
the programs and activities of its individual bureaus. I am absolutely 
committed to that task-particularly given the fact that Interior's 
mission affects the lives of all Americans. Our public lands make 
significant economic contributions to this country through recreation 
activities, the production of renewable and fossil fuel based energy 
resources, hard rock mineral production, forage and grazing activities, 
timber production, and the delivery of water for agricultural, 
municipal, and industrial purposes. In fiscal year 2012, these 
activities contributed $371 billion to the economy and supported 2.3 
million jobs.
    Interior is also entrusted with sacred trust responsibilities to 
Indian tribes and Alaska Natives, the preservation of our history and 
most special places, the empowerment of insular communities, and the 
protection and conservation of our wildlife resources. The changes 
taking place not only in this country but worldwide, including climate 
change, population growth, shifts in the global economy, and new 
technological developments, present challenges and opportunities to all 
sectors of Interior's responsibilities. I look forward to working 
closely with Secretary Jewell, our leadership team, and Interior's 
dedicated career employees to continue a collaborative process, 
informed by the best science, to refine existing strategies and develop 
new initiatives to address ongoing changes and ensure continued success 
in carrying out Interior's critical missions.
    At the end of the day, I am convinced that the vast majority of the 
American public simply wants their leaders in Washington D.C. to work 
together and collaborate on solutions to the problems and challenges 
this country faces. I am absolutely committed to this goal and, if 
confirmed, will commit to this task with a sense of humility and a keen 
understanding of the need to work with the public, affected 
stakeholders, and Congress to most effectively carry out the 
Department's mission.
    With just over 3 years left in this Administration, I am well aware 
that progress on seemingly intractable issues will best come through 
cooperative efforts grounded in a fundamental recognition of the 
legitimate interests of affected stakeholders and an unwavering 
commitment to achieving certainty and clarity on resource management 
issues. The Secretary has charted the right course with her substantive 
engagement on the issues of the day and her clear commitment to ensure 
the Department will be guided by transparency and integrity in carrying 
out its mission. I am equally committed to these principles and believe 
we can make great progress in working on much needed solutions by 
adhering to this approach.
    Thank you for the opportunity to address my nomination. I look 
forward to continuing to work with you and will be happy to respond to 
questions at the appropriate time.

    The Chairman. Mr. Connor, thank you. You'll have questions 
in a moment.
    Dr. Robinson.

  TESTIMONY OF ELIZABETH (BETH) ROBINSON, NOMINEE TO BE UNDER 
 SECRETARY FOR MANAGEMENT AND PERFORMANCE, DEPARTMENT OF ENERGY

    Ms. Robinson. Thank you.
    I have a longer written statement which----
    The Chairman. It will be put into the record without 
objection.
    Ms. Robinson. Thank you. I'll just summarize it here.
    The Chairman. Extra points for summarizing.
    [Laughter.]
    Ms. Robinson. Chairman Wyden, Ranking Member Murkowski and 
all the members of the committee, thank you for the opportunity 
to appear today. It is truly an honor. I also appreciate the 
time that members have already spent with me in meetings. I 
look forward to working with the committee to address the 
challenges that face the department's critical programs and 
missions.
    I've worked on energy issues at many points in my career. 
Most recently I've focused on strategic planning, performance 
and project management. If confirmed I would seek to undertake 
the very important DOE mission in the most effective and 
efficient manner possible, especially during a time when there 
are other competing demands for our Nation's resources.
    The position of Under Secretary for Management and 
Performance carries a tremendous responsibility as the pivotal 
point where operations, accountability, evaluation and sound 
management all reside. It also includes the environmental and 
legacy management programs which are responsible for cleaning 
up our World War II and cold war legacies and which are 
especially important to me and to many members of this 
committee.
    DOE has faced challenges in the performance of its project 
management functions which demand continuous and focused 
efforts. If confirmed I will build upon the progress that DOE 
has made to improve the results for the agency and would work 
closely with all stakeholders. I would also make it a priority 
to pursue agency and Congressional clean up requirements and 
work with affected constituencies to understand their concerns.
    I believe that public service is a duty, privilege and an 
honor. I have served as a career staff member and most recently 
as a political appointee for nearly 25 years in the Executive 
and Legislative branches of government. I believe in the 
importance of creative and tenacious leaders in Federal 
Government agencies. I'm enthusiastic about the opportunity, if 
confirmed, to serve as DOE's Under Secretary for Management and 
Performance.
    Mr. Chairman and members of the committee, I thank you 
again for your consideration on my nomination. I look forward 
to answering any questions.
    [The prepared statement of Ms. Robinson follows:]

 Prepared Statement of Elizabeth (Beth) Robinson, Nominee to be Under 
  Secretary for Management and Performance, U.S. Department of Energy

    Chairman Wyden, Ranking Member Murkowski, and Members of the 
Committee, thank you for the opportunity to appear before you today as 
you consider my nomination for the position of Under Secretary for 
Management and Performance at the Department of Energy (DOE). It is an 
honor to be here. I also appreciate the time Members of this Committee 
already have taken to meet with me, and, if confirmed, I look forward 
to working with the Committee to address the challenges of maintaining 
the Department's critical efforts to ensure America's security and 
prosperity by addressing its environmental, energy and nuclear issues 
through strong performance and management practices.
    I am privileged to have been nominated by the President to this 
post. I have worked on energy issues at many points in my career. After 
growing up in Seattle, Washington, studying at the University of 
Washington, graduating from Reed College, and earning a PhD from the 
Massachusetts Institute for Technology, I started my career as a 
geophysicist focused on fluid dynamics in Earth processes. I eventually 
joined the staff of the House Committee on Science, Space and 
Technology, where I worked for Chairman George E. Brown of California-a 
very wise man and someone that I am very glad I came to know well 
before his untimely death. For the Committee, I covered energy R&D; and 
I later took that experience with me to the Office of Management and 
Budget (OMB) where my first position was as a budget examiner for the 
DOE portfolio.
    More recently, I have focused my career--at OMB, then at the 
Congressional Budget Office and now the National Aeronautics and Space 
Administration (NASA)--on strategic planning, performance, and 
oversight of project management. Working with Secretary Moniz, Deputy 
Secretary Poneman, DOE's dedicated professionals, Congress, the White 
House, the private sector, and other key constituencies, I would strive 
to meet the President's and Nation's objectives for DOE. If confirmed I 
would also be keenly focused on undertaking the DOE mission in the most 
effective and efficient manner possible, especially during a time when 
there are other competing demands for our Nation's resources.
    The position of Under Secretary for Management and Performance 
carries a tremendous responsibility as the pivotal point where 
operations, accountability, evaluation, and sound management all 
reside. This position also includes the Environmental and Legacy 
Management programs, which are responsible for cleaning up our World 
War II and Cold War legacy, and which I know is important to many 
members of this Committee.
    I know that DOE has faced challenges in the performance of its 
project management functions, which demands continuous and focused 
efforts. If confirmed, I would build upon the progress that DOE has 
made and continue to improve the management, performance, and results 
for the agency.
    Over my career, I am fortunate to have gained broad experience with 
management and performance issues and challenges. At OMB, I enjoyed a 
unique perspective from which to learn about, and participate in, large 
and significant planning, cost-estimating, and evaluation processes. At 
the House Science Committee and congressional Office of Technology 
Assessment, I gained valuable expertise in project planning, execution, 
and oversight, and, more importantly, how to work with the Congress on 
those issues. My executive experience in several agencies has also 
provided direct experience in the leadership of complex organizations.
    If confirmed, I would make it a priority to work closely with DOE 
leadership, my staff, and each of the constituencies with which DOE's 
programs interface to understand the key management and performance 
issues that DOE and its component programs face. I would also make it a 
priority to pursue agency and congressional cleanup requirements, and 
work with affected constituencies to understand their concerns. I would 
work with my staff so that those issues receive the appropriate 
attention and resources to ensure agency success in meeting such 
challenges.
    I believe public service is a duty, a privilege, and an honor. I 
have served as a career staff member for nearly 25 years in the 
executive and legislative branches of government, and I believe in the 
importance of creative and tenacious leaders in the Nation's government 
agencies. I am enthusiastic about the opportunity, if confirmed, to 
address the challenges of the position DOE Under Secretary for 
Management and Performance and to bring my energy policy, management, 
performance, and leadership experience into the service of DOE and the 
federal government.
    Mr. Chairman and Members of the committee, I thank you, again, for 
your consideration of my nomination, and I look forward to answering 
any questions you may have.

    The Chairman. Dr. Robinson, thank you.
    Mr. Binz.

  TESTIMONY OF RONALD J. BINZ, NOMINEE TO BE A MEMBER OF THE 
             FEDERAL ENERGY REGULATORY COMMISSIONER

    Mr. Binz. Thank you, Chairman Wyden, Ranking Member 
Murkowski and members of the committee. I'm greatly honored to 
be before you here today as a nominee to the Federal Energy 
Regulatory Commission.
    I would like to thank President Obama for nominating me.
    I was especially pleased to have Senators Udall and Bennet 
here as a support for me. I appreciate the kind words for my 
nomination.
    I know that FERC has substantial responsibilities and 
Congress might even add more to those responsibilities as it 
considers energy legislation in the coming years. The agency is 
critical to strengthening the gas and electric infrastructure 
of this country to provide greater reliability, security and 
economic growth. As was mentioned earlier the energy industry 
has an incredibly large impact on this Nation's economy.
    We need to enable new sources of energy to connect to the 
grid and promote fair and efficient markets to reduce costs to 
consumers. These are the kinds of things I've been doing for 
the last 34 years. I would welcome the opportunity to apply 
myself diligently to doing that in the new role, if I'm 
confirmed.
    I believe that my background is well suited to meet many 
challenges that the FERC will be facing should I be confirmed. 
My tenure on the Colorado Public Utilities Commission and as a 
member and officer in the National Association of Regulatory 
Utilities Commissioners taught me much about working within a 
State environment and about collaboration with other regulatory 
professionals. I believe I have earned a reputation and was 
pleased to hear both Senators and Udall emphasize that I'm a 
pragmatic, problem solver. Under the leadership of Governor 
Ritter we searched for consensus solutions in Colorado that 
benefited our State's consumers.
    My service as a NARUC leader deepened my respect and my 
understanding of our Nation's regional diversity with respect 
to energy resources and needs. Those experiences will help me 
enormously if I am confirmed to the FERC. I pledge to this 
committee that I will work with my colleagues on the Commission 
to work across regional, philosophical and party lines to make 
regulatory decisions that work best for our Nation's energy 
consumers and market participants.
    FERC faces many challenges in protecting consumers from 
market manipulation, for ensuring reliability of the electric 
grid, enabling the development of energy infrastructure like 
gas pipelines, storage facilities, LNG facilities and terminals 
and ensuring the protection of those assets from cyber and 
physical threats. If confirmed I intend to pursue these issues. 
Again, pledge to work diligently with the Energy and Natural 
Resources Committee.
    Thank you for the opportunity to appear before the 
committee today. This concludes my statement. I am pleased to 
answer any questions that you may have.
    [The prepared statement of Mr. Binz follows:]

 Prepared Statement of Ron Binz, Nominee to be a Member of the Federal 
                      Energy Regulatory Comission

    Thank you Chairman Wyden, Ranking Member Murkowski and members of 
the Committee. I am greatly honored to be before you today as a nominee 
to the Federal Energy Regulatory Commission (FERC). I would like to 
thank President Obama for nominating me. I am especially pleased to 
acknowledge my own two Senators from Colorado. Senator Udall's and 
Senator Bennett's support means a great deal to me, and I appreciate 
their kind words regarding my nomination. Last, but most importantly, I 
want to acknowledge my family, who have been so supportive of my career 
in public service.
    I know that FERC has with substantial responsibilities, and 
Congress could add even more as it takes up new energy bills. Issues 
before FERC in the coming years will be critical to strengthening 
electric and gas infrastructure for greater reliability, security, and 
economic growth; enabling new sources of energy to connect to the 
electric grid; and, promoting fair and efficient markets to reduce 
costs to consumers. I welcome the opportunity to apply myself 
diligently to these efforts if I am confirmed.
    I believe my background is well-suited to meet many of the 
challenges FERC will be facing should I be confirmed. My tenure on the 
Colorado Commission and as a member of the National Association of 
Regulatory Utility Commissioners taught me much about working within a 
state environment and about collaboration with other regulatory 
professionals. I believe I earned a reputation as pragmatic problem 
solver under the leadership of Governor Ritter as we searched for 
consensus solutions that benefitted our state's consumers. Similarly, 
my service as a NARUC leader deepened my respect for and my 
understanding of our nation's regional diversity. Those experiences 
will help me enormously if I am confirmed to the FERC. And I pledge to 
the Committee that I will work with my colleagues on the Commission to 
work across regional, philosophical and party lines to make regulatory 
decisions that work best for our nation's energy consumers and market 
participants.
    FERC faces many challenges in protecting consumers from energy 
market manipulation, ensuring the reliability of the electric grid, 
enabling the development of energy infrastructure like gas pipe lines, 
storage facilities and LNG terminals, and ensuring the protection of 
those assets from cyber and physical threats. If confirmed, I intend to 
pursue these issues and again pledge to work diligently with the Energy 
and Natural Resources Committee. Thank you for the opportunity to 
appear before the committee today. That concludes my statement. I am 
pleased to answer any questions you may have.

    The Chairman. Mr. Binz, thank you. Thanks to all of you.
    Let me start with you, Mr. Binz, if I might. Start with 
natural gas.
    I just back from the Bakken at the invitation of Senator 
Hoeven. I can tell you this follows the visit I made to the gas 
fields with Senator Manchin and Senator Murkowski and I have 
visited with respect to these facilities as well. The visit to 
the Balkans, or excuse me, the Bakken reaffirms----
    [Laughter.]
    The Chairman. Know where we are? Take out the map.
    [Laughter.]
    The Chairman. The visit to the Bakken really reaffirms my 
support for tapping the potential of natural gas.
    It's 50 percent cleaner than the other fossil fuels.
    It gives our consumers and our businesses a pricing 
advantage.
    We've got it, the world wants it.
    Those are my views with respect to natural gas.
    I think it would be helpful as we start today if you laid 
out your views with respect to natural gas.
    Mr. Binz. Thank you, Senator.
    To begin with I agree with you that the Balkans don't have 
enough natural gas and that maybe the Bakkens can send some gas 
there.
    Seriously, I agree with the sentiment you expressed. In 
Colorado most recently I led an effort to move to the cleaner 
fuels from natural gas for the older plants which needed to be 
retired. The Nation has a great resource in natural gas that's 
getting larger by the minute as we discover more and more 
opportunities to develop shale gas.
    I think it's a very important fuel. It is the near perfect 
fuel for the next couple decades. If we perfect capture and 
sequestration of carbon, it will be permanently good fuel for 
this country's use.
    I think that the reliance on natural gas is an important 
step to clean up the air. With respect to criteria pollutants 
it has much lower emissions of all of those gases which EPA 
regulates long before they get to the question of carbon 
dioxide.
    So I'm fully supportive of the development of natural gas 
resources. I've spoken to several LNG exporters. Have expressed 
my interest in making sure that applications for their 
terminals make it through the FERC as expeditiously as 
possible.
    I also have spoken to many players in the natural gas 
industry. I'm fully committed to streamlining the FERC's 
processing of natural gas applications.
    Finally I think the electric markets need to signal to the 
gas markets that more pipeline capacity is needed because the 
largest single use of natural gas is no longer space 
conditioning for residential customers, it's electric 
generation. That's an entirely--that's a new makeover of the 
gas system. FERC needs to respond to that.
    The Chairman. On some of these past quotes on this topic, 
why don't you address those?
    Mr. Binz. I should take on directly the quote that has been 
repeated most often. That is that I expressed a concern that 
natural gas could be a dead end in 2035. What I was talking 
about is that if we take seriously the need to reduce carbon in 
our generation fleet natural gas is a very great fuel for doing 
that right now. It has half the carbon emissions of coal and 
oil. But eventually as we move forward and learn how to do 
sequestration that will benefit natural gas in the long run.
    If I just sort of stopped my statement at that point and 
not used the dead end phrase I would probably be in a lot 
better shape right now. But what I--I fully embrace the use of 
natural gas. I've said that in many speeches over many years. I 
don't want something I said, probably uncarefully, to be taken 
out of context to mean something different.
    The Chairman. Thank you.
    I suspect those of us on this side of the dais have once in 
a while said something that we'd like to take back as well. I 
appreciate that.
    Let me ask you next about something else this committee 
feels strongly about and that's making sure that the States 
have a wide berth in choosing which fuels they want to use to 
generate electricity. Do you agree that fuel choice for 
electricity generation is best left to the States?
    Mr. Binz. Senator Wyden, we have an expression that I've 
been using with my colleagues, future colleagues in the FERC, 
if I'm confirmed to the FERC. The FERC is fuel neutral, but it 
is not reliability neutral. By that we mean that the agency has 
no role in selecting fuel for power plants. It does not site 
power plants.
    Its role is to build out an energy infrastructure which all 
resources can access. So I absolutely agree this is the role 
that the State players play. As a former Commissioner from 
Colorado, I did that. I understood that was the State role.
    If I'm confirmed to the FERC, I understand this is a 
different job. The FERC does not make resource selections nor 
should it. Its influence on resources is very--and the 
selection of resources is very indirect. It removes barriers 
for resources connecting to the electric grid. It removes 
barriers from the flow the natural gas to the places that it's 
needed for generation.
    But the economics of those fuels, the policies of those 
States and frankly, the policies of this Congress are what's 
going to make a determination about which fuels are selected, 
not the FERC.
    The Chairman. Another bipartisan tradition in this 
committee is steering clear of making decisions about fuel 
choice and basically leaving that to the markets.
    Do you believe FERC ought to pick electricity generation 
winners and losers?
    Mr. Binz. No, I do not, Senator.
    Again, there are other agencies which have to do with 
emissions. The EPA, of course, is the lead one on that.
    I believe that the FERC's relationship there is to ensure 
that whatever agencies do with respect to this it happens in a 
way that respects the reliability of the grid. That's the 
FERC's responsibility. It is not to pick winners and losers.
    If we go to places like the PJM or the MISO markets those 
are competitive markets where fuels are up or down. Producers 
are in or out depending upon their economics of their 
businesses. That's how it should be.
    The agency should not put a thumb on the scale for any 
resources. It should ensure that we are able, in this country, 
to effectuate an all the above strategy. We are going to need 
all of these resources. We're going to need to move forward on 
research allowing the fossil resources to be lower carbon in 
the future.
    The Chairman. One last question.
    Mr. Binz. That is not the role of the FERC. I haven't been 
auditioning for the FERC for all these years. I've been writing 
papers about what I think may happen to the energy sector. I 
know where the lines are drawn.
    The Chairman. One last question for this round.
    The Commission has siting authority over both hydro and 
interstate natural gas pipelines. On the gas side, things have 
moved a bit more quickly. Obviously there need to be some 
improvements. On the hydro side, the Commission is often slow 
to act because it waits for State approvals.
    Clearly a more robust pipeline network and additional 
emission-free hydro are in the public interest.
    Will you work with us, and I touched on it in my opening 
statement, to make the natural gas pipeline and hydro power 
processes more timely and more efficient? We believe you can do 
that consistent with environmental standards. Will you work 
with us?
    Mr. Binz. I will do that, sir.
    The Chairman. Improving the approval process?
    Mr. Binz. Excuse me, I will do that, Senator. I would like 
to thank the members of the committee who I've had the 
opportunity to meet with me. I think I stressed that in every 
one of my meetings.
    I see the FERC as key to building out energy infrastructure 
in this country which will help us with customer rates and will 
help us with environmental compliance. That's the role of the 
FERC.
    The Chairman. Very good.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Binz, let's continue the questioning with you.
    I'm trying to reconcile some things that were brought up in 
our meeting last week. Statements that you made that just don't 
seem to line up with information that I learned that same day.
    When we met you assured me that the only team, and this was 
your words, the only team that you had in place to help with 
the nomination was comprised on FERC employees from their 
External Affairs Office. You gave me the impression that this 
public relations firm, Vinn Squared, had contacted you somewhat 
out of the blue to offer help to dispense some letters to the 
industry that you had put together. Nothing wrong with that.
    You did though acknowledge that the PR firm was being paid 
for by Green Tech action fund which is in turn funded by the 
Energy Foundation which is your former client. You also 
admitted that you thought perhaps the Energy Foundation or an 
affiliate had hired a former Senate staffer, who is now a 
lobbyist, to help you with your nomination efforts. You weren't 
sure whether or not another lobbyist you mentioned was a 
volunteer or being paid for services, again by your former 
client.
    So then I learned, again that same day, in emails that were 
released by FERC that this effort was apparently much more 
involved than you had indicated. We've got an email that came 
from the FERC dated July 8. FERC External Affairs, the White 
House nomination liaison as well as lobbyists or consultants 
from Cassidy and Associates, Vinn Squared, HAW Ink, PK 
Strategies, the Energy Foundation and the Hewlett Foundation 
were involved or certainly invited to participate in a meeting 
on your nomination.
    Then the following day there's an email in which you ask 
the team and again, that's your word, and that includes 
everyone on the earlier email except the White House. So you 
ask them to review materials that were going to be sent to this 
committee as part of your formal nominations packet.
    You then sought edits from this team to what you called 
``Binz bio document.'' That was to be and I presume actually 
was submitted to the committee by the FERC personnel as an 
attachment.
    So what I'm trying to reconcile is you've effectively got a 
team, a shadow team of lobbyists, of PR experts, that have been 
helping throughout which again, as I suggested, I hate to think 
that this is going to be the new normal. But what I can't 
reconcile is your statement to me that said the only ones that 
you were working with. The only ones you were working with were 
the FERC External team. I don't--I'm not following how one 
lines up with the emails that again, were a part of this FOIA 
request.
    Mr. Binz. Sure, Senator. I'd be glad to respond to that.
    I apologize if I left a different impression that what we 
now agree has happened. I, in fact, I had disclosed to your 
Chief Counsel the email prior to this that showed the presence 
of all those people in that meeting.
    I've gone back and--I had been asked in my interview with 
your staff if I was aware of any coordination between Vinn 
Squared and the White House. I told them that I was not aware 
of that. Then I recalled that there had been this one meeting. 
I think I copied Mr. McCormick on an email about that.
    I went back after our meeting with you to list every 
contact I've had with these folks. I think it's a grand total 
of 3 including the initial contact by Mr. Meehan that day and 
his staffs offered to send out my press materials. I had this 
conference call that you're just referencing and this is the 
one that I told Mr. McCormick about after my meeting with him 
last week. Then there was one more.
    As far as I know I've had no contact with these folks since 
July the 15th. This is the Vinn Squared people. In fact I asked 
them to stop sending me material. I did not want to coordinate 
with them.
    I have spoken to Mr. Miller, Chris Miller, a few times 
subsequently. I've relied on him for just--he's an old hand at 
these things. He worked on committee staff. I asked him for 
advice occasionally. But that's really it.
    I have hired no one. I'm paying no one. I have and am a 
solo practitioner. I don't even have administrative support in 
my business.
    When the nomination came up I was glad to accept some 
assistance in dealing with the press because that was--so 
again, I very much apologize. I would be glad to get together 
and talk further with your staff about this. I'm trying to be 
as open as a book on these things.
    I also agree with you that this is an unfortunate situation 
if this is the new normal. As you can imagine when I was 
nominated for this position back in--when I was told by the 
White House I had the position. I predicted there was going to 
be a fight over this nomination because of my experience with 
these very same conservative organizations in Colorado. I had a 
running battle with them for 2 years.
    Many of the same tactics that you've seen rolled out here 
were visited upon me in Colorado. I didn't ask anyone to hire 
anybody on my behalf. But it doesn't surprise me that people 
who saw what had happened in Colorado figured that on a 
prophylactic basis it made sense to get somebody involved in 
this.
    That's what they did. I have attempted to operate as 
independently from anybody as possible with--but fully 
understanding the obligations that are impressed upon an 
appointee in a situation like this. So again, my apologies, 
Senator Murkowski. I would be very pleased to meet with your 
staff or yourself to iron out any misunderstandings we have.
    I did not intentionally mean to mislead you about this if 
that's in fact what happened. I will again, I'll just be 
repeating myself. But I want to get past this with you. I do 
not want this to become a problem.
    Senator Murkowski. Mr. Binz, my time has expired. I do have 
other questions for you. But I'm sure that you can see the 
concern that I have when you sat in my office and assured me 
that there was no coordination with anyone outside of FERC. 
Then to read the series of emails albeit there weren't more 
than a handful, but directly contradicting what I had been 
told.
    So I appreciate your explanation. But I think it does speak 
to the issue that I have raised which is ensuring that the FERC 
is absolutely independent and that the leadership at the top 
remains so.
    Mr. Binz. Senator, I would have it no other way.
    The Chairman. Senator Udall.
    Senator Mark Udall. Thank you, Mr. Chairman.
    As I listened to Senator Murkowski and Mr. Binz discuss 
their meeting I can't help but think about all of us who run 
for re-election and increasingly in the environment we find 
ourselves there are outside forces that come to bear over which 
we have no control, no connection. It's certainly frustrating I 
know for all of us as Senators and it's become more the norm 
frankly, it seems like and when you have high profile 
nominations and nominees. So I have been there, Mr. Binz. I 
know Senator Murkowski you've experienced some of those same 
outside forces at work on your campaigns.
    Let me turn back to Colorado. I'm a home State booster. I 
make no apologies for that. I think we've got an all of the 
above strategy that's underway.
    Mr. Binz, you've been a part of that. I mean, we've got 
renewables. We've got energy efficiency, technologies that are 
on the cutting edge. We've got small scale hydro. We're working 
on clean coal, natural gas.
    Can you talk about Colorado and our mix of energy resources 
and the benefits of a diverse energy portfolio?
    Mr. Binz. Yes, thank you very much, Senator Udall.
    Just to start at the end you might think from all the 
rhetoric that's been written about me that I personally went 
out and with a sledgehammer close coal plants in Colorado. In 
fact, Public Service of Colorado is still 40 percent coal. It's 
about 30 percent natural gas and the balance is a mix of hydro 
and other renewables.
    Public Service of Colorado is the largest utility in the 
State. It has a very balanced portfolio. It's the leading 
utility in the country for wind energy on its system. That all 
happened, that transformation, happened over a period of only 
about 6 years beginning shortly before I came on the Commission 
through my term on the Commission.
    Excel will tell you that they are now as pleased with the 
mix of portfolio they've got as they have ever been. They write 
articles about this.
    Now that has had an impact on the State's economy as well. 
I want to be real clear about this. Colorado is a gas producing 
State. We produce twice as much as--well, we produce 3 times as 
much as we use in State. So we export two-thirds of the gas.
    We have seen a boom in jobs in the gas industry in 
Colorado. We have seen a huge growth in the wind industry and 
in the solar industry in Colorado. Governor Ritter, when he was 
Governor, dubbed that the new energy economy. It's attracted a 
lot of jobs.
    During the great downturn that was the only sector in 
Colorado that actually showed economic growth. The Governor was 
very proud of that.
    The Commission and Senator Murkowski this really goes to 
your issue. The Commission and the Governor operated 
independently of each other. I was appointed, I think, by Bill 
Ritter because he knew of my theory of regulation, how I worked 
with people and what I cared about. I didn't take directions 
from the Governor's office.
    I implemented legislation when it came across from the 
General Assembly. But we were an independent commission at the 
Public Utilities Commissions. Obviously I see the exact 
parallel at the Federal Energy Regulatory Commission, different 
duties, but same level of independence.
    Senator Udall, I think the other point about Colorado 
that's really important. This growth and diversity of resources 
happened without a significant consumer rates impact. The 
renewable energy standard in Colorado caps in law rate 
increases at 2 percent because of renewables. We manage to that 
2 percent at the Public Utilities Commission and working with 
the utilities.
    Senator Mark Udall. Thank you, Mr. Binz.
    Let me ask you, I think it's a simple question. Does FERC 
or the FERC Chairman have any role in implementing the 
President's climate agenda?
    Mr. Binz. The FERC does not.
    I want to be very clear about this. I was told by the White 
House that I would be the nominee on April the 4. I was vetted 
for a couple months. My appointment was not announced until the 
same week as the Climate Action Plan was announced.
    As far as I'm concerned that was a coincidence because I've 
never spoken with anyone at the White House about the Climate 
Action Plan or any role that FERC----
    Senator Mark Udall. Never had a conversation with anybody 
in the White House about----
    Mr. Binz. Not about that.
    Senator Mark Udall. Climate agenda.
    Mr. Binz. My only substantive interview at the White House 
was in December. It was with Heather Zichal. But they have 
never asked me for any commitment about what I would do at the 
FERC with respect to the Climate Action Plan.
    Senator Mark Udall. So you haven't made any promises to the 
White House or anyone else about what you might do with regards 
to climate if you were to be confirmed?
    Mr. Binz. None.
    Senator Mark Udall. Thank you, Mr. Binz.
    The Chairman. Senator Alexander.
    Senator Alexander. Thank you.
    I want to thank the witnesses for being here. Thank you for 
the hearing.
    Mr. Binz, I'd like to explore whether you're a high cost or 
a low cost regulator. This is what I mean. Senator Corker and I 
had a roundtable with the Tennessee Valley Authority this last 
Friday on the question of low rates.
    In my experience whether we have more or less people 
working for coal plants or more or less people working for wind 
mills or more or less people working for natural gas plants is 
not where the jobs are. The jobs come when we have cheap 
electricity and Eastman Chemical stays in Tennessee instead of 
going to Asia or we have 1,000 other suppliers who are in 
Tennessee instead of Mexico. So we want clean, reliable, cheap 
electricity.
    Now in many of your presentations and speeches you use 
Germany as an illustration. You don't say we should adopt 
Germany's policies, but you use it as an illustration. You talk 
in your comments about utility regulators that need to shift 
from backward looking focus on cost to forward looking emphasis 
on value and societal incomes.
    So far as I can tell in the past you've supported wind and 
solar incentives. You supported the renewal electricity 
standard. All of which takes more transmission lines. All this 
adds to the cost.
    I've been to Germany recently. They've subsidized wind. 
They've subsidized solar. They've closed their nuclear plants.
    So the result is they're buying nuclear power from France. 
They're buying gas from a very unreliable partner, Russia. They 
are actually--they've adopted a cap and trade which we 
rejected. They're actually having to build coal plants in order 
to have enough electricity.
    I asked the Economic Minister why their prices were the 
highest in Europe and what he would say to a manufacturing 
company that wanted to come to Germany. You'd said I'd go 
somewhere else because of the high prices.
    Is that formula the kind of regulatory formula that you'd 
like to see the United States adopt?
    Mr. Binz. Not even close, Senator.
    Senator Alexander. But you support the renewable 
electricity standard, correct?
    Mr. Binz. I do.
    Senator Alexander. You testified on behalf of it.
    Mr. Binz. I did in Colorado.
    Senator Alexander. But you supported for wind and solar, 
right and the transmission lines to carry them and all those 
cost money, right?
    Mr. Binz. Senator, the regulation we did in Colorado, I 
told you, I told Senator Udall, had a very small impact on 
customer rates.
    Senator Alexander. But a national renewable electricity 
standard would have a large effect on electric rates, would it 
not?
    Mr. Binz. I don't know that, Senator.
    But in Colorado rates for our residential customers went up 
less than the rate of inflation during the time that I was on 
the Commission. That means in real terms bills were actually 
lower at the time at the end of my term than they were at the 
beginning of the term.
    The only use I've ever made of Germany is to talk about how 
poor their solar resources are. Germany and with all due 
respect, Senator Murkowski, Germany has about the solar 
insulation levels Alaska does. Yet they're pushing very hard on 
solar.
    Now the point of me putting that slide in my presentation 
was tell the people of Michigan and the people of Colorado and 
the people of Arizona what a great resource they have.
    Senator Alexander. I only have about a minute left.
    Do you favor the wind production tax credit?
    Do you think it's time to repeal it after 22 years since it 
costs $12 billion to renew it just for a single year?
    Mr. Binz. Senator, as I said to you in your office on our 
meeting, I think that proposals to phase that out are timely. 
Yes.
    Senator Alexander. Along that line one job of the FERC is 
to make sure the market is functioning properly, correct?
    Mr. Binz. Yes.
    Senator Alexander. Recently J.P. Morgan reached a 
settlement with FERC for market manipulation.
    Mr. Binz. Yes.
    Senator Alexander. There are a number of studies that 
showed that the wind production tax credit is allowing billions 
of dollars to go to wind producers. They, in effect, are making 
so much money that they pay the markets to take their wind 
creating a negative pricing phenomenon that in some areas 
affects 13 percent of all the hourly prices for wind. It's 
undermining, in the opinion of some studies, the reliability of 
our conventional base supplies of electricity like nuclear.
    Would you be willing, if you were Chairman of the FERC, to 
look at that phenomenon of negative pricing caused by the wind 
production tax credit as a way of determining whether the 
market is functioning properly?
    Mr. Binz. Senator, I think that the organized markets have 
several challenges. I have been saying, loudly, that one of the 
early things I would like to do with the support of colleagues 
on the FERC, if I'm confirmed to the FERC, with the support of 
those colleagues, is to do a stem to stern review of the energy 
markets. The issue you've raised----
    Senator Alexander. Would that include the affected wind 
production tax credit?
    Mr. Binz. Yes, it would include that. Yes.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    Most senators weren't here when I outlined the authority 
FERC has and doesn't have. On the point of a National Renewable 
Energy Standard, FERC would only have authority if the Congress 
gave it to them, if the Congress passed it into law.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Mr. Binz, thank you for visiting my office last week. I 
enjoyed discussing a range of energy issues with you. I'd like 
to briefly discuss distributed energy with you today which we 
discussed.
    In the United States up to 36 percent of the total energy 
we consume is lost from power plants, industrial facilities and 
buildings as waste heat. Combined heat and power or co-
generation, as some people call it, and district energy systems 
are available. They're tested technologies that could be used 
to capture waste heat and put it to use in Minnesota, in the 
city of St. Paul. We have a biomass district energy system 
that's a great model on how to do this.
    By using more of our abundant biomass more efficiently we 
can support more forest jobs. I know Senator Risch when we talk 
about wildfires has talked about all the hazardous waste that 
exists within our forests and that could be, it needs to be 
cleaned out in order to prevent fires. This can also provide 
environmental benefits.
    My question is what role do you see for combined heat and 
power and other forms of distributed generation in enhancing 
power grid resilience?
    Mr. Binz. Thank you, Senator Franken.
    Actually you ended where I was going to start. I think that 
the experience from super storm Sandy and other events like 
that have shown the merit of having local generation and its 
ability to recover quickly from disasters.
    The economics of distributed generation vary from resource 
to resource. I'm not in a position to guess what the final 
balance will be. But I do understand the importance of those 
resources.
    The FERC will not have a direct role in encouraging any 
particular resource including distributor resources. The FERC 
does have the following role, to make sure that these market 
structures and transmission policy are set in a way that allows 
the integration of all these resources. So again, it's more in 
the nature of removing barriers than it is actually pushing 
them forward.
    I said this earlier. I have a strong belief that the 
economics and the physics for that matter of these resources 
should be determinative of what we deploy. But what we don't 
want is we don't want a grid or a pipeline system built for 
another era to interfere an access of these resources to the 
grid.
    I have a lot of friends who talk a lot about distributive 
resources. I understand, especially CHP combined heat and 
power. I think that's a wasted resource in the U.S. in the 
sense that we're venting heat. We're dissipating heat which 
could be used for electricity.
    So I'm supportive of that as an American citizen. I won't 
have a role as a FERC Chairman, per se, except as I described 
to make sure that the grid is able to accept all of those 
energy resources.
    Senator Franken. You mentioned Hurricane Sandy. There were 
some places that were--distributed energy systems that were 
operating in island mode. Because the rest of the transmission 
went down they were able to be resilient and keep producing 
power.
    I want to talk--turn to Mr. Connor.
    As the Commissioner of the Bureau of Reclamation you and I 
have discussed the Lewis and Clark regional water system many 
times. In the last budget request the Administration 
recommended that local project sponsors should consider 
increasing their local match beyond what is required in order 
to get projects completed on a reasonable time line. In fact, 
all of the State and local entities have virtually paid 100 
percent of what they--was due. The Federal Government hasn't 
paid its part.
    Local governments in Minnesota are beginning to consider 
that option and all the risks that it involves even if they put 
up more money though, there's no guarantee that Federal dollars 
will ever flow faster than they currently are. Are there any 
assurances that you can give me on behalf of my constituents 
that if local governments increase their contribution beyond 
what they're required to give they will finally receive the 
funding that they were promised from the Federal Government?
    As Deputy Secretary will you fight to make this funding 
more of a priority within the Administration than it has been 
in the past few years?
    Mr. Connor. Senator Franken, thank you for the question. 
Yes, this is an ongoing dialog that you and I have had about 
the funding levels for these rural water programs.
    Yes, I can assure you that we will continue within the 
budget resources we have to have as strong a rural water 
program as we can. The reality the last 2 cycles, the last 
cycle, the 2014 budget in particular and the reductions that 
we've had overall for Reclamation funding and given our 
priorities, that that program, in particular, took one of the 
largest hits. But at the same time we still are trying to 
maintain funding as robust as we can.
    We will make good use of any additional funding that we 
have such as what's written into the Senate Energy and Water 
Appropriations bill and continue to try and make progress as 
best as possible, notwithstanding. Just for context where we 
can find the resources we do invest them in this program. Over 
the last 4 years we've invested $512 million into--from the 
Administration's budgets and the Recovery Act into the rural 
water program. So even though there are reductions, given our 
priority system, we're trying to keep funding levels as high as 
we can. I will continue to advocate for the important role that 
that program plays.
    Senator Franken. Thank you.
    The Chairman. We are going to have to move on.
    Senator Franken. Yes, thank you, Mr. Chairman.
    Mr. Connor knows what a high priority this is for me and 
for the people of, especially of South Western Minnesota.
    The Chairman. Alright. I share the Senator's views.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Connor, thanks so much for coming to my office for the 
visit. Please give your entire family my very best.
    Dr. Robinson, congratulations.
    Mr. Binz, congratulations to you as well.
    I do have some questions, Mr. Binz.
    One is obviously it's disturbing to many of us that telling 
Senator Murkowski something in private and then having emails 
come out that conflicts that afterwards is very concerning to 
many of us.
    I do have questions specifically about natural gas. The 
U.S. has roughly 100 years worth of natural gas. Natural gas is 
going to be critical to ensuring American families and 
businesses have an affordable, reliable, secure supply of 
energy.
    You've made comments about your previous statement that you 
may have said we're, I think, in artful. In March you stated in 
reference to natural gas that without carbon capture and 
storage, without carbon capture and storage, to clarify your 
remarks, that I think it's a dead end that will dead end in 
2035 when we're going to have to be better on carbon than even 
natural gas, you said, will allow us to do.
    I find the comments troubling and far outside the 
mainstream. Because to be clear you're saying that the future 
of natural gas, not just coal, but natural gas depends on 
carbon capture and sequestration, a technology not currently 
available, not currently economically viable, not commercially 
viable, may never be for natural gas. So we're saying that 
under those circumstances if they can't make this technology 
economically, commercially viable that we would then leave 80 
years worth of affordable natural gas in the ground.
    I think the views are troubling because you've been 
nominated to lead FERC, the agency responsible for permitting 
the interstate natural gas pipelines, the natural gas storage 
facilities, the LNG export terminal facilities intended to be 
in place well beyond 2035. You're going to have to make those 
decisions today.
    So if confirmed you'll be in an ideal position to act on 
the beliefs about the ``dead end'' for natural gas in 2035 by 
blocking permits that would be an extension, be there way 
beyond 2035 for the pipelines, the storage facilities, the 
export terminals. So given your belief that we should stop 
using natural gas by 2035 that it must dead end in 21 years if 
there is not this carbon capture and sequestration technology 
available at that time. Is it fair to say that your views 
fundamentally conflict with FERC's mission to support the use 
of natural gas?
    Mr. Binz. Senator, I cannot agree with your conclusion. 
I've already clarified today that I think this is a terrific 
fuel. It's needed right now and maybe in the permanent energy 
mix.
    Now, Senator, behind all of this, as both of us know, is 
the assumption that we will decarbonizes or significantly 
reduce carbon in the electric generation sector. That won't be 
up to me at the FERC. It won't be up to the FERC. It will 
probably be up to Congress and the EPA or some combination 
thereof or the courts.
    But I'm just speaking as someone informed about the energy 
industry. My--aside from beside or excuse me, rather than being 
outside the mainstream I think they're very much in the 
mainstream. This is what the MIT research is saying. This is 
what the Electric Power Research Institute is saying. They're 
publishing all of these graphs showing the amount of carbon 
capture and sequestration is ramping up in order to meet a 2050 
energy portfolio.
    I think they're right. You may not agree with them or there 
may be others who don't agree with them. But if they're right, 
if we will have to reduce carbon then we're going to have to 
make plans at some point.
    We've got 20 years to do it. I think there's a very good 
chance that the technology will be invented or perfected by 
that time.
    Senator Barrasso. But the decisions that you're going to 
make now, the decisions that you're going to make now in terms 
of natural gas pipelines, natural gas storage facilities and 
LNG export terminals, we're not going to know what that 
technology is going to be 20 years from now. You're going to be 
conducting the reviews today.
    The EPA and the Sierra Club have argued that FERC should 
dramatically expand its environmental reviews for natural gas 
pipelines and LNG export terminals. They say FERC should 
consider the upstream impacts of natural gas pipelines and LNG 
export terminals such as, you know, hydraulic fracturing.
    The Sierra Club is arguing that agencies like FERC should 
consider the downstream impacts of natural gas pipelines and 
LNG export terminals.
    The Sierra Club's efforts are part of what is called, 
``beyond natural gas,'' their campaign to fight the production 
and use of natural gas.
    So if confirmed will you expand FERC's environmental review 
process for natural gas pipelines and LNG export terminals 
specifically? Will you direct FERC to consider upstream impacts 
and downstream impacts such as greenhouse gas emissions?
    Mr. Binz. Senator, if I'm confirmed to the FERC that is not 
something which I would put on my agenda.
    I want to reply to something else you said just prior to 
that. The notion that I will somehow allow my guess as to what 
the future is going to look like, again, not a FERC position, 
to affect the approval of natural gas pipelines, LNG 
facilities. That is wrong.
    These facilities are needed today. These are facilities 
that are going to be built today. The LNG export facilities, 
the gentlemen in Louisiana have contracts with Puerto Rico and 
Africa and lots of other places to deliver gas.
    I absolutely support that.
    It will be up to the industry in total to decide what we do 
on a carbon basis going forward. This is not a FERC decision. 
So my, if I'm confirmed to the FERC, my jurisdiction or my 
authority will be to evaluate proposals brought to us on the 
basis of the merits of those proposals. It will not be to 
substitute my judgment for anyone else's judgment about whether 
these pipelines will be used 25 years from now.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chairman.
    Commissioner Connor, I want to start with you. You will 
have my unreserved support, but I'd be remiss if I didn't ask 
you a question while I've got you. I certainly appreciate that 
an engineer may be holding this position in the future. I won't 
hold your law degree against you in that regard.
    [Laughter.]
    Senator Heinrich. But one of the things I've been impressed 
with during your tenure at the Bureau of Reclamation is your 
willingness to look at innovative and out of the box ways of 
balancing the different things we need to do with our rivers 
and waterways, balancing fish and wildlife while still 
delivering water supplies to irrigators and municipalities, 
other water users that create jobs in our communities. One of 
the tools that I've seen used in a number of States to do that 
has been water leasing to allow farmers or other water users to 
voluntarily lease their water to provide more flexibility for 
all river water users.
    In New Mexico, given the rains of the last week, we may or 
may not be coming out of a historic drought. We've certainly 
had historic rainfalls. I'm not ready to declare victory yet 
given how low our reservoirs are, as you well know.
    But even in historic normal years which we haven't had for 
some time, our water resources tend to be stretched very thin. 
In your experience what role can water leasing play to make 
sure that farmers, cities and other water users have that 
flexibility while, you know, keeping some water in the river as 
well?
    Mr. Connor. Thank you, Senator Heinrich for your support 
and thank you for the question.
    Water leasing is absolutely one of those critical tools for 
addressing the challenges that we have in front of us with 
respect to water resources in the West. Given the water laws 
that exist and the priority of water rights, water in the West 
is filled with winners and losers, those who will continue to 
get their supply in times of shortage and others who will be 
short. So facilitating the movement of that water between users 
and also making it available for environmental purposes to 
address our responsibilities, I think improves the situation 
for all water users.
    One of the things that I've tried to stress in my tenure at 
the Bureau of Reclamation is that to keep, maintain certainty 
and reliability as best possible with respect to water use and 
power generation requires that us to comply with and deal with 
the Federal environmental laws. That's a good thing. It's the 
right thing to do plus it improves the situation from a water 
perspective.
    We're doing that in the Rio Grande. We're, I think, we're 
working with the Rio Grande Conservancy District, not only in 
their operations so that they'll move water at times it 
benefits species, but also now we anticipate getting a pilot 
project underway in 2014 to begin water leasing activity within 
the Rio Grande.
    Senator Heinrich. Great. I appreciate that.
    I also want to say I appreciate the work that you're doing 
on general water efficiency. It's, you know, the one place 
where we can create new white water. It's--those efforts are 
very much appreciated in an arid State like New Mexico.
    Dr. Robinson, I want to ask you a question or 2 with my 
remaining time, probably just have time for one. But I wanted 
to bring up Los Alamos National Lab cleanup. In 2013 the CR 
left the clean up legacy waste at Los Alamos short of funding, 
certainly short of what the President had requested.
    I was very pleased that DOE's environmental management 
program was actually able to identify $40 million this year to 
keep that work on schedule. As a result the removal of 37 
hundred cubic meters of transuranic waste stored above ground 
remains on schedule to be completed in June. So we may be 
facing a similar situation this year.
    I certainly want to work with you to make sure that DOE 
continues to meet its commitments to the State of New Mexico. 
Just wanted to get your thoughts on that and your willingness 
to work on those issues because we have a situation at Los 
Alamos where not only has a commitment been made to the State 
of New Mexico, but we also have ongoing issues with wildfire. 
The sooner we can move all of that above ground waste to 
someplace where we can all agree it's much more appropriate, 
the better folks back home will sleep at night.
    So I would like to get your thoughts on that.
    Mr. Robinson. Thank you for the question, Senator.
    I'm aware of the situation of the waste at Los Alamos and 
the importance of removing it and safely storing it. I'm not 
intimately familiar with the funding and the challenges that it 
will face. But if I am confirmed, when I get to the department, 
it will certainly be a priority to resolve those funding 
situations and keep that project on track.
    Senator Heinrich. We look forward to working with you on 
the funding situation. I look forward to inviting you to come 
to New Mexico in particular to see the waste isolation pilot 
plant which is not unrelated to the issue, obviously. 
Appreciate your time.
    Thank you, Mr. Chairman for the time.
    The Chairman. Thank you, Senator Heinrich.
    Senator Flake.
    Senator Flake. Thank you, Mr. Chairman. Thank all of you 
for coming. I appreciate Mr. Connor coming to my office, also 
Mr. Binz, enjoyed that discussion.
    Mr. Binz, following up on what Senator Barrasso was asking 
with regard to the statement the dead end fuel in 2035. You 
mentioned earlier in your testimony that you were concerned 
that the FERC isn't concerned about markets or fuels only about 
reliability. Is that accurate?
    Mr. Binz. Customer rates. There's several other things. But 
we do--the FERC does not take a position on fuel, Senator.
    Senator Flake. But with regard to reliability if it's your 
position and you restated that you believe that that is the 
case that unless we have new technology with regard to 
sequestration and carbon capture that it is a dead end fuel 
then wouldn't that compel you, in terms of reliability, 
wouldn't that affect your decisionmaking today on permitting 
for natural gas, transport and facilities?
    Mr. Binz. No, Senator, I actually don't see that 
connection.
    As I said, the short term is different than the long term 
here. When we receive at the FERC, if I'm confirmed at the 
FERC, when we would receive an application for a pipeline it 
will be judged on the merits of that pipeline. The applicant 
will have come forward with that. I would assume that if the 
applicant thinks that this pipeline--that the use of gas is not 
going to go past 2035 say, that that would be reflected in the 
application to us.
    So I actually don't see that.
    In terms of reliability we face these questions 
continuously every time the EPA issues a rule it will be up to 
this agency to assess the impact of the EPA rules on 
reliability.
    So again, I admitted that that was a relatively in-artful 
of saying it. The full statement is if we're on a course to 
decarbonize the electric sector then you have a problem with 
1,000 pounds per megawatt hour emissions at about 2035. I'm 
just really reporting in that statement what's being said by a 
lot of other entities including the Electric Power Research 
Institute.
    We might well not reduce carbon. I mean, that's not a 
policy called at the FERC is responsible for. If you accept 
that then the arithmetic drives you to the conclusion that I 
had.
    Senator Flake. In your conversation with Senator Alexander 
a minute ago you mentioned that you weren't sure if the 
renewable fuel standard, nationally, increases costs. That 
seems rather plain if it didn't there would be no need for a 
renewable fuel standard. Of course it raises costs.
    That just surprises me that--I mean you acknowledge that 
and you may make the case that it's worth the cost. The cost 
benefit analysis in terms of the environment or whatever else 
outweighs it. But to say that you're not sure if a renewable 
fuel standard raises costs. It does.
    Wouldn't you agree?
    Mr. Binz. Senator, I could have answered more fully by 
saying I have not studied that. I can tell you that in Colorado 
the renewable portfolio standard of 30 percent has raised 
customer rates less than 2 percent. Now that's a short run 
measure. It may well, in the longer run, be lowering of costs.
    At this point, with the economics of wind, when wind is 
added to the system in Colorado, costs go down. So I think it's 
really--I've done a couple studies of this for Colorado. But I 
haven't studied the national one. It would vary by region. 
There's all kinds of things that need to be said.
    So while I'll agree with you that the thrust would be to 
pay more. It depends on the timeframe you're talking about and 
absolutely the regional differences.
    Senator Flake. Thank you.
    Mr. Connor, we spoke when you came to my office with regard 
to the Mexican wolf. The Fish and Wildlife Service has 
announced 2 proposed rulemakings.
    First, the Grey Wolf will be delisted.
    But the Mexican Wolf will continue. There's been a decision 
to expand the area and that significantly, as we talked about, 
affects Arizona. I mean significantly in the rural areas.
    Yet, with regard to this proposed new rule Fish and 
Wildlife Service has said they're only going to hold hearings 
in Sacramento, Washington, DC and Albuquerque, completely 
leaving Arizona out. I can tell you that there are a lot of 
people impacted, property issues, safety issues, by this 
ruling. Will you commit to having a public hearing in Arizona 
in the affected areas?
    Mr. Connor. We are actively considering the request. The 
door is closed to having an additional public hearing in 
Arizona. We're working through that issue with your staff. I 
expect we'll follow up very quickly.
    Senator Flake. OK. I just have to say that I will have a 
hard time, as much as I, I mean, you worked wonderfully with 
our office, with my predecessor's office. Your knowledge on 
water issues and a whole host of issues facing Interior are 
broad and deep.
    But this is an extremely important issue for Arizona. I 
just cannot imagine the Fish and Wildlife Service would go 
ahead with a proposed rulemaking without having a hearing, a 
public hearing, in Arizona where it's affected like no other 
place. To have one in Sacramento? Or in Washington, DC? But not 
Arizona where it's affected.
    So I look forward to working with you on this. Like I said, 
I'll have a hard time supporting moving forward unless we can 
get this resolved.
    Mr. Connor. Understood. I'll follow up with you, Senator.
    Senator Flake. Thank you. Appreciate it.
    The Chairman. Senator Johnson is next.
    Because Senators have been coming in and out and may have 
missed the outline I gave of FERC's authority, what it can and 
can't do. Again, on the national Renewable Energy Standard 
which has come up several times, Mr. Binz would have absolutely 
no authority to do anything on this matter unless the Congress 
were to pass it and enact it into law.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. Congratulations 
to the entire panel on your nominations.
    Mr. Connor, we have discussed rural water projects like the 
Lewis and Clark regional water system on numerous occasions in 
this committee. If confirmed to this new position do you 
foresee being able to raise the priority placed on rural water 
projects within the Department of the Interior's budget? Should 
the overall allocations to the agencies be revised to better 
meet those needs, given that water settlements are taking up an 
increasing portion of BOR's budget?
    Mr. Connor. Yes, Senator Johnson. I think if confirmed for 
the position of Deputy Secretary I will be able to advocate on 
a higher level for the rural water program that exists.
    Part of the advocacy, as you mentioned, is the increasing 
responsibilities we have in other areas and how that's creating 
stresses within the rural water program. It's an important 
program. I'll continue to be supportive.
    Senator Johnson. Mr. Connor, I've been concerned about 
possible closures of fish hatcheries, especially the D.C. Booth 
Historic National Fish Hatchery in Spearfish, South Dakota.
    While I, for one, would like to see a balanced approach to 
replacing sequestration but that will be a challenge. How do 
you plan to work with Congress to make sure we don't 
permanently lose key Federal sites while navigating budget 
pressures?
    Mr. Connor. Senator Johnson, as I understand it the long 
term sustainability of funding for those hatcheries is an 
issue. I can tell you that the best approach that we have at 
the department right now is to buy us some more time to engage 
with the Members of Congress, members of the Senate, on this 
important issue. So at this point in time we have a short term 
strategy to maintain funding for those facilities. But we do 
absolutely need to work on a long term solution.
    There's a variety of funding sources, as you know, for 
those facilities. Some of them are in good shape, but others 
are not.
    Senator Johnson. Mr. Binz, expanding transmission has been 
a big hurdle to wind energy development in the Dakotas. What 
policy steps should we be taking to encourage transmission 
lines, and what are your views on the allocation of costs for 
building new transmission lines?
    Mr. Binz. Thank you for the question, Senator.
    I think you know that the FERC has undertaken an 
initiative. It's known as Order 1000 which requires regions of 
the country to self select as regions and then to adopt a 
planning process for the construction of electric transmission 
lines. As part of that to also adopt and report back on a cost 
allocation agreement that they have.
    So the FERC, in my view, with Order 1000 has understood the 
necessity of expanding the transmission system but doing it in 
a way so that costs are shared fairly.
    The main principle in that requirement is that if costs are 
shared they're shared only to those who benefit from the lines. 
So my view on cost allocation is that if the regions can come 
up with a self imposed system which meets the rule that if you 
don't benefit, you don't pay. I am inclined, if I'm confirmed 
to the FERC, I would be inclined to agree to that system of 
cost allocation.
    Now what's new about this is the emphasis that the FERC has 
placed on the regional planning. It's begun to happen 
naturally. But I think Order 1000 will spur along more 
activity.
    I haven't spoken with the utility serving South Dakota 
about this. I'll be happy to go further and find out what the 
special issues there are.
    The last thing I would say, Senator, is there has been a 
growth in what is called independent transmission company 
operations. We've got new companies. Clean Line Power is a good 
example of it, which are building merchant lines to bring 
energy across regions such as from South and North Dakota into 
markets.
    So the FERC's policies as to how independent transmission 
companies are regulated and are treating is very important to 
this. I've educated myself on these issues. I've spoken to many 
developers of merchant transmission projects. I think I 
understand what is necessary to ensure that they have a healthy 
growth.
    Senator Johnson. My time is expired.
    The Chairman. Thank you, Senator Johnson.
    Senator Risch is next.
    Senator Risch. Thank you, Mr. Chairman.
    Mr. Connor, thank you for coming to see me in my office.
    Senator Bingaman pointed out that you have a degree in 
engineering and admitted the fact that we don't have many 
engineers in the political process. I've discovered why 
actually. I used to recruit candidates for our local 
legislature.
    When I talked to engineers they were shocked to hear that 2 
plus 2 does not necessarily equal 4 in this business. So as a 
result of that they're not inclined to participate. So thank 
you for your participation.
    I explained to you when we had lively discussion about the 
Sage Grouse issue in Idaho. I understand your commitment to the 
collaborative process. Again, I would encourage you to follow 
through on what the previous Secretary of Interior had invited 
the States to do and embrace, hopefully with glee, Idaho's plan 
that we have put together on a collaborative process.
    It's a robust plan to save the Sage Grouse. As you know 
there are some issues within your Department that you and I 
talked about between a couple of different agencies. We would 
sincerely hope that in your senior management position you'd be 
able to straighten that out.
    Have you had any chance to look into that any further since 
our meeting?
    Mr. Connor. Yes, absolutely. I've become even better 
informed on the Sage Grouse planning process. I very much 
appreciated our discussion. I think it was good context for 
highlighting the opportunity that we have here.
    We have an opportunity with Idaho which also we've engaged 
with Wyoming and the other States to conserve the species. 
Through that effort avoid the need for listing, have on the 
ground conservation efforts that people are invested in, 
believe in. Be able to conduct a lot of other business and 
activities.
    So this is--we are moving forward. We are incorporating, 
the BLM is incorporating the Idaho plan into its EIS process. 
That's a good first start to get to the place where I think 
both of us would like to be at the end of the day. I commit to 
you this is a very high priority, these plans, developing in 
the timeframe and avoiding the need for listing the species so 
that we can maintain our other multiple uses knowing that we're 
going to conserve the Sage Grouse is highly important.
    Senator Risch. Thank you very much. I appreciate that. Our 
Governor has been the lead on this in Idaho, has done a great 
job. We enthusiastically embrace it for a lot of different 
reasons. But not the least of which is and the primary 
objective is to conserve the species and see that it does have 
a sustainable future in Idaho. So thank you very much.
    Dr. Robinson, you and I had a good discussion about the 
Idaho National Laboratory. I want to stress to you again about 
the cleanup project out there and how important it is to get 
that done. If we can get that done it's certainly a great win 
for the Department of Energy.
    We're moving along in that direction. We hope you will 
continue to embrace that as an objective that's doable and that 
you can claim a victory on.
    I would encourage you since Idaho is the lead laboratory in 
the United States on nuclear energy to visit the laboratory. 
One--for a couple of different reasons.
    No. 1, the work that's there is--that they do there is just 
outstanding.
    But secondly, we do have a waste legacy that has been 
troublesome since the end of the cold war. We've resolved it to 
a degree through the Idaho Settlement Agreement. We have a 
project there called the Advanced Mixed Waste Treatment Plant 
which has been processing the waste and has been very 
successful.
    I think that what's been done there with that plant may be 
very useful to the Department as you move forward in the future 
on some of these other cleanups. We hope that you would visit 
this--visit the Idaho Laboratory. We could have some 
discussions about how that may be helpful in the future.
    So thank you for taking on this job. Look forward to 
working with you, particularly through the INL.
    Mr. Robinson. Right, thank you.
    Definitely I would love to go visit INL in Idaho and work 
with you on those issues because it could be a great win for 
the Department to finish up and to build on the successes that 
have already happened in terms of cleaning up there.
    Senator Risch. It will certainly add to the credibility of 
the Department if you can complete it as scheduled.
    So, Mr. Binz, thank you for coming to see me. You and I had 
a good discussion on a lot of subjects. I know this didn't 
happen on while you were at the FERC but again I want to stress 
to you my deep, deep disappointment in the lawsuit that's going 
on between the Idaho Public Utility Commission since they were 
sued by the FERC.
    I think that is a dangerous, dangerous precedent. It was 
wrong. You told me, although you couldn't comment specifically 
on it, some thoughts that you had in that regard. I appreciate 
that.
    With that my time is up. I thank you very much, Mr. 
Chairman.
    The Chairman. Thank you, Senator Risch.
    We've got several Senators missing so Senator Baldwin, you 
are next.
    Senator Baldwin. Thank you, Mr. Chairman. I want to thank 
all 3 of our witnesses for their public service in the past, in 
the future and congratulations on the nominations.
    I want to start with Mr. Connor. You and I had a chance to 
visit last week. I very much appreciated our conversation.
    I want to focus my question on a concern I raised with you 
last week with regard to a property in Wisconsin that we refer 
to as the Badger Army Ammunition Plant. During World War II it 
was actually the largest munitions plant in the world. It is 
located adjacent to Baraboo, Wisconsin.
    When it was declared surplus to the Defense Department's 
need, the community and stakeholders in the surrounding area 
engaged in a very productive consensus process to look at 
reusing the property for conservation, prairie and savannah 
restoration, agriculture, educational and recreational uses. 
During the process that goes on when Federal land is declared 
surplus with the GSA there was involvement by the Department of 
the Interior on behalf of 2 entities that hoped to secure a 
part of this land and manage it in the spirit that I was 
describing. The State Department of Natural Resources was 
interacting with the National Park Service and the Ho-Chunk 
Nation with the Bureau of Indian Affairs.
    What I expressed to you last week was a strong, strong 
concern about both the timeliness consideration of these land 
transfers and additionally what appears to be a very 
inconsistent application of an environmental evaluation that's 
supposed to be uniform across the department, but appears to be 
applied very differently in the National Park Service and the 
BIA. Now I worked on this issue when I served in the House of 
Representatives and had been in long dialog with folks in each 
division. When you look at the organizational chart of the 
Department of the Interior and the 5 Assistant Secretaries, 
there's one person who's going to be on top of all of them and 
that's the Deputy Secretary.
    So in this forum, Mr. Connor, I would like to ask for your 
assurances that the timeliness and the consistent application 
of environmental standards would be a huge priority for you and 
any comments that you might have on this issue since we spoke 
last week.
    Mr. Connor. Senator Baldwin, thank you very much. I 
appreciated the discussion we had this week. I did have an 
opportunity to go back and look into the matter.
    As a threshold added to your question, if confirmed I will 
definitely be committed to the assuring that we look at these 
situations in the same way across the Department. I believe 
that we do have some additional Regulatory requirements that 
BIA has as part of this process. But having said that, we are 
working now more expeditiously than before as a result of the 
conversation that we had to try and work through an agreement 
that needs to take place with the BIA so that we can get this 
property transferred.
    So it's a work in progress right now. We will continue to 
prioritize this amongst our efforts. I will continue to work 
with you on this and keep your office informed.
    Senator Baldwin. I appreciate the assurances. I would state 
that we understand first of all the timeliness aspect that BIA 
has had this before them for over 10 years.
    Mr. Connor. Yes.
    Senator Baldwin. Second, that time really is running out, 
as we understand. So this focus is extremely important.
    Thank you for your response to that.
    In my few seconds remaining I wanted to ask Mr. Binz about 
the role of FERC in protecting consumers from energy market 
manipulation and how you intend to build on FERC's recent 
efforts to protect consumers in that regard.
    Mr. Binz. Thank you, Senator Baldwin.
    As you know I was the Consumer Advocate for Colorado for 12 
years in which I fought for consumer rights, for lower consumer 
rates in Colorado. So I kind of come naturally to this position 
with respect to enforcing transparency and fairness in electric 
markets. For two-thirds to three-quarters of the country we 
have turned the job of setting electricity prices over to a 
marketplace.
    We owe it to the Nation's consumers to make sure that those 
markets function well. That they produce the lowest possible 
cost consistent with reliability. That financial players are 
not able to manipulate prices and make extra profits that way.
    So I fully support the work the FERC has been doing. I 
intend to help keep the reputation, if I'm confirmed to the 
FERC, I intend to keep the reputation of the tough cop on the 
beat to make sure that these markets are fair.
    The Chairman. Thank you, Senator Baldwin.
    Next is Senator Portman.
    Senator Portman. Thank you, Mr. Chairman. I appreciate you 
and the ranking member working with us on this energy 
efficiency bill. We'll be back on the Floor on that this 
afternoon.
    But meanwhile I do have a couple questions here.
    One, with regard to Beth Robinson, I have a bias here, Mr. 
Chairman. In my role at OMB I worked with Beth closely. She was 
the Assistant Director for Budget at OMB which is the top 
career post at the Office of Management and Budget.
    She was a consummate professional, never pulled her punches 
which is sometimes tough as the Director. But she was a very 
effective manager of an extremely complicated process. So I've 
seen her in action. She's also a hard worker. I'm delighted 
that she is being nominated for this important position.
    Having said that, I'm going to ask her a couple tough 
questions.
    One is with regard to the cleanup at the Portsmouth Gaseous 
Diffusion Plant. As you know this is in Piketon, Ohio. There 
was a commitment by DOE to finalize its plans in 2012 that 
hasn't been done.
    So if confirmed I would ask your help in assuring that the 
building demolition and waste disposal plans are finalized as 
soon as possible. This is 2 thousand workers in Ohio overseeing 
the, again, decontamination, decommissioning of a gaseous 
diffusion plant that's no longer in operation. If confirmed, 
would you be willing to work with us on that?
    Mr. Robinson. Certainly, Senator. Very important issue.
    Senator Portman. Second big issue for us, of course, is how 
to pay for it.
    My strong belief is that if we can continue this cleanup 
pace and even expedite it we will not only be able to have a 
safer environment in the Piketon area, but also it will cost 
the taxpayer less. You know, the sooner we do it, the better. 
We can save actually substantial taxpayer funding if we keep 
this up.
    Unfortunately the President's budget keeps cutting it. Last 
year I expressed this concern to Secretary Chu. The 
Administration budget had a 33 percent cut to clean it up.
    The way we've been able to keep this project moving is 
through this barter program with uranium. To his credit, 
Secretary Chu did follow through after my request and did 
increase the barters for the Piketon plant from about 1600 to 
about 2400 metric tons per year. He also ordered an independent 
study of the market impact of that.
    That study demonstrated the barter program does not have an 
adverse material impact on domestic uranium mining conversion 
and enrichment industries. It's a relatively small part, about 
10 percent of annual domestic fuel requirements. This year that 
program will generate about $200 million bucks in funding.
    My question for you is whether you'd be willing to commit 
today to work with us to support that uranium barter program to 
ensure that this cleanup program that's going to be under your 
aegis can continue.
    Mr. Robinson. Yes, most definitely.
    Senator Portman. We are very interested in working with you 
on that. We want to ensure those jobs are retained in Ohio and 
also that the environment is cleaner and that the taxpayers in 
the end save money by having this cleanup proceed.
    Mr. Binz, I was here for some of your earlier testimony. I 
will tell you Ohio is experiencing the benefits of natural gas, 
wet gas, oil production as you know through hydraulic fracking. 
I do have serious concerns about your views on some of your 
past statements on natural gas.
    You indicated in one of your earlier statements an 
interest, as you said, you were not speaking for yourself 
necessarily. You said there's an interest in decarbonizing the 
electrical grid. We don't view it that way in Ohio.
    We like the fact that natural gas is available and 
relatively stable low cost. That's going to help us to attract 
business, particularly manufacturing, back to our State. So I 
do have concerns about that.
    I also wanted to ask you quickly, if I could, about 
regulations. You know, I think you're going to hear about the 
XL pipeline in a moment, Keystone. I won't mention that 
specifically, but we have a real problem in this country with 
permitting and specifically with regard to energy permitting.
    We're told sometimes there is up to 34 different permits 
required and these are Federal permits that uncertainty makes 
investments more difficult. We're now ranked 17th in the world 
by the IMF, the World Bank, on the time it takes to get a 
permit. That's not a good ranking. It's moving capital and 
investment elsewhere.
    So we think the overlapping agency authority, excessive 
litigation, agencies are not prioritizing, ill meaningful 
deadlines is all part of that. Therefore we have a legislation 
we've introduced with Senator McCaskill, myself, Senator 
Donnelly, Senator Barrasso, who is on this committee, Senator 
Enzi and others, to speed up the permitting process. We have 
better coordination, enhanced transparency, reduced new 
litigation delays.
    I would just ask you today how you feel about this issue 
generally. I don't expect you to know the legislation in 
detail. But do you agree with us that permitting is a problem? 
What do you expect to do with that, should you be confirmed?
    Mr. Binz. Thank you, Senator Portman.
    I do agree that we need to speed up the permitting process 
for natural gas pipelines. I've had many meetings with many 
segments of this industry. I've been consistent about this with 
them.
    As a regulator I have no room for agency which merely slows 
down applications because it's a large bureaucracy. I think we 
really need to move those out quickly.
    On one discussion I had, in particular, was with a CEO of a 
company who said, you know, what I really need is an answer, 
even if it's no. That's better than you just sitting there and 
not giving me any action at all.
    I'm very sympathetic to that. You will see from my record 
in Colorado that I ran an agency which was proud of the fact 
that it processed applications as quickly as possible. So, yes 
I will commit.
    I'm not familiar with the legislation referred to. I would 
be happy to look at it and speak with you further about that. 
But my sentiment is the same as yours.
    I think we need more investment in pipeline infrastructure 
in this case for a lot of different reasons. They've been 
adding up over the years. It's now to the point we really need 
to move on this. I welcome the opportunity to working with you 
on that.
    Senator Portman. My time is expired. But we will certainly 
send you--announce this at legislation. But also would love to 
talk to you about the whole issue of independent agencies and 
cost benefit analysis on your rulemaking and get your views on 
that.
    I'll follow up with questions on that in writing.
    Senator Portman. Thank you, Mr. Chairman.
    The Chairman. Senator Portman, thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
having this hearing.
    I, too, would like to congratulate you Dr. Robinson on your 
nomination. Thank you for all your hard work, we're proud of 
you with your Northwest background. I don't know if that's what 
you were referring to about your special interest in waste 
cleanup, but we certainly appreciate someone with a Northwest 
perspective bringing that urgency and attention to DOE.
    I wanted to ask you about that, about reducing the 
footprint at Hanford, which is a big part of what is trying to 
be done at this point in time. A commitment to look at the 
separation of civilian and military waste is one idea.
    I'm looking to see whether you will commit to working with 
Secretary Moniz , looking at that as an issue of making sure 
the waste-once it's cleaned up at Hanford, and processed at the 
vit plant-is able to be moved out. Because as it stands right 
now, we don't have a plan, when that vitrification actually 
happens, or a destination for that processed material.
    Mr. Robinson. Yes, the issues at Hanford are very complex 
and very important. As you mentioned I grew up in Seattle which 
is--and so----
    The Chairman. She went to school in Portland.
    [Laughter.]
    Senator Cantwell. We think of Reed College as a regional 
institution.
    [Laughter.]
    Senator Cantwell. That just happens to be on the other side 
of Columbia. OK?
    Mr. Robinson. Certainly if I'm confirmed I'm deeply 
committed to working out the issues at Hanford, both short and 
long term and reducing the footprint and working with Secretary 
Moniz on the long term disposition of the waste will be a top 
priority.
    Senator Cantwell. One of these ideas that has come up in a 
recent commission-that we had and was participated in with our 
past chairman, Senator Domenici--one of the issues they looked 
at was the fact that when you're trying to answer all of these 
questions as it relates to commercial waste, it adds an 
additional layer and burden. But if you would separate the 
military waste, we might get an answer for what to do with the 
Hanford waste in a much more rapid fashion.
    So Secretary Moniz is working on that issue, and the 
Commission said it should be looked at. We want to see that 
given focus too.
    Mr. Robinson. Yes, I agree. Secretary Moniz is, being a 
member of the Commission you're referring to, the Blue Ribbon 
Commission.
    Senator Cantwell. Yes.
    Mr. Robinson. Is very well positioned to move this issue 
forward. I look forward to supporting him on that.
    Senator Cantwell. Just a cautionary note, I think, since I 
have been involved in energy issues at Hanford, I think every 
Secretary and every person that comes in looks at the amount of 
money that we're spending on cleanup always suggests something 
that they think will be a short cut. It ends up not being a 
short cut and we end up spending more money. So I would just 
hope you would look at the history of that and the challenges.
    Mr. Connor, thank you for your interest in the Yakima Basin 
water project. I'm hoping that's something that you will 
continue to support as Deputy Secretary of the Department of 
the Interior.
    Mr. Connor. Absolutely, Senator. It's a great collaborative 
program with all the different stakeholders who put together a 
good plan. It's a long term effort and we recognize that. But 
we intend, at the Department of the Interior in all of our 
different areas to keep working with those folks in 
implementing that plan.
    Senator Cantwell. It has--as you know, we've had 2 
droughts, and that's cost us something like $335 million in 
economic damage. So I'm hoping that you will work with us on 
finding a funding source as well.
    Mr. Connor. Yes, Senator.
    Senator Cantwell. Great.
    Mr. Connor. Happy to do that.
    Senator Cantwell. Great.
    Mr. Binz, thank you for your willingness to serve. I'm very 
excited about your nomination. But I wanted to be--I wanted to 
ask you if you will uphold the Power Act as it is written, 
including just and reasonable rates and its anti-manipulation 
authority that was given to the Commission?
    Mr. Binz. Yes, Senator, I will.
    I think that that's the primary goal of the Commission is 
to protect consumers, to ensure that rates are just reasonable 
and to the extent we have devolved that determination to 
marketplaces. We need to ensure that those markets are fair.
    Senator Cantwell. Thank you.
    I guess to me, Mr. Chairman, that's the crux of this 
nomination in this question. It's kind of like my time I spent 
on the Judiciary Committee. It really didn't matter to me what 
the personal opinion of judges were. It's whether they are 
going to uphold the law and the statute.
    In this case, my main interest in Mr. Binz is whether he's 
going to uphold the Power Act and just and reasonable rates. I 
am a little worried that some of my colleagues might hold up 
your nomination and leave the FERC at the end of the year with 
a 2-2 person board, and somehow stymie the overall functions 
and responsibilities. So I hope that that won't happen because 
the FERC has many things to carry out.
    Certainly this area of market manipulation has played a key 
role in trying to keep energy markets from being out of whack--
and certainly impacts everybody from consumers to businesses 
that depend on those affordable energy rates. So I hope that we 
can make progress in getting a full FERC and in preserving, as 
I said, the Power Act, which is the crux of the responsibility 
at FERC.
    The Chairman. The Senator from Washington, as usual, makes 
important points. No one has done more on this market 
manipulation front to set in place new efforts to fight it than 
the Senator from Washington. I appreciate your comments.
    Mr. Binz. Senator, if I could just add to--not only is it 
customers and businesses who rely on the Power Act, it's 
competitors in those marketplaces who are harmed by this. We 
need a vibrant industry competing to sell electricity and to 
the extent manipulation hurts the other honest players in that 
market we've done harm to.
    Senator Cantwell. Thank you.
    The Chairman. My gracious North Dakota host has arrived. 
Welcome--oh, excuse me, Senator Scott has just arrived and the 
order is Senator Scott first and then Senator Hoeven.
    Senator Scott.
    Senator Scott. Thank you, Mr. Chairman. Just a couple 
questions for Mr. Binz. A couple of questions on your direct 
quotes concerning--let me just say the quotes.
    ``Utility regulation needs to shift from backward looking 
focus on cost to forward looking emphasis on values and 
societal outcomes.''
    How does this reconcile with your statements today where 
regulations or regulators should not be able to push policy?
    Mr. Binz. Senator, I was referring in the larger context of 
that quote. I was referring to the way in which regulation is 
done. In the United States we have oftentimes rate based rate 
of return regulation. It is often criticized as not providing 
appropriate incentives to the regulated companies. I think this 
is highlighted especially in this era we have so many 
challenges.
    So if you, again if you read the larger context, I was 
talking there about new systems of regulation, loosely lumped 
as performance based regulation or incentive regulation. I 
think those are going to first of all, you do not give up the 
concept of just and reasonable rates. You merely compensate 
players in a different way depending upon their performance and 
you give them business inducements to be efficient as firms.
    It's a well understood theme in utility regulation. That's 
what I was referring to.
    Senator Scott. Alright, Mr. Binz.
    Let me end with one of your other quotes. Hopefully we'll 
see. Your comments of today seem to be more consistent with 
where we should be going then your comments of last year and 
most consistently with the last couple of years.
    Your last quote that I found to be alarming was in short. 
``Regulation must become a more legislative as opposed to 
judicial process.'' That's what gave me reason to pause on the 
first quote. But I'll go on to Mr. Connor.
    Now that you've been bored sitting here so long today as 
all the questions have gone to Mr. Binz. I wanted to make sure 
that you were still awake and talk about some things that are 
very important to the opportunities that we see in the Atlantic 
OCS.
    There has been a 5 year plan. There seems to be the 
continuation of the moratorium on not looking for new areas to 
develop consistently looking for leases in those areas that 
have already been explored and produced over the last decades.
    My first question for you, sir, is what is your view of 
expanding offshore oil and natural gas exploration into areas 
that have not been explored in decades such as the Atlantic 
OCS?
    That will be coupled with your question about will you 
support allowing for the collection of seismic data in the 
Atlantic OCS?
    Mr. Connor. Thank you, Senator. I can assure you I am not 
bored sitting here.
    [Laughter.]
    Senator Scott. I thought not.
    Mr. Connor. With respect to moving toward development on 
the Atlantic Offshore Outer Continental Shelf, I think the 
process that the Department has underway right now which is to 
finish its programmatic EIS by the end of this year or first 
thing next year, in January and develop the process by which we 
will conduct seismic testing in a way that better evaluates the 
resource, updates our understanding of the resource and lays in 
place the ability to look at how that resource can be 
developed, what complications there exist.
    We have environmental issues.
    We have defense installation issues that we have to deal 
with.
    I think the process that we have in place right now to 
gather the information, to better understand how we'll develop 
that resource will be best used and putting into the next 5 
year plan. I think you'll see development on that Outer 
Continental Shelf.
    So I think that process is one that I wholly support and 
will continue to do so, if confirmed.
    Senator Scott. OK.
    So we're looking at the third delay. Now the findings will 
come hopefully in the spring of 2014 it appears.
    The next question is if a Governor of a State expresses 
interest in allowing for offshore oil and natural gas 
development off its coast as part of the next 5 year OCS plan 
would you honor their request and schedule a lease sale?
    Mr. Connor. To be frank, Senator, I think with respect to 
the existing 5 year plan in place I don't see the process 
allowing that to be revisited at this point in time to open up 
areas that aren't currently contemplated in that 5 year plan. 
But the process with development of this----
    Senator Scott. With the 2017--I only have a couple minutes 
left. So 27, the next 5 year plan you would be far more open to 
that?
    Mr. Connor. That's what the programmatic EIS is all about, 
to get information available to make those decisions and to 
take the input from the State and local communities.
    Senator Scott. So that would be a yes?
    Mr. Connor. That would be a yes, I think. I anticipate that 
that will be able to move forward.
    Senator Scott. Based on the environmental impact study.
    Mr. Connor. Based on the studies and the analysis being 
done right now.
    Senator Scott. As the Fish and Wildlife Service continue to 
move forward with their critical habitat designation will you 
pledge to work with me to possibly find an alternative to a 
critical habitat designation and mitigate the economic and job 
loss impact that such a designation will have on beach 
communities in South Glen and other impacted States?
    Mr. Connor. I'm happy to engage in that dialog or commit to 
it, yes.
    Senator Scott. Thank you.
    The Chairman. Thank you, Senator Scott.
    Senator Sanders.
    Senator Sanders. Thank you very much, Mr. Chairman. Thank 
you very much for all being here.
    Although you may not see it reflected in this Congress the 
scientific community is almost unanimous in agreeing that 
global warming is real, that it is caused by human activity, 
that it is already causing widespread destruction in our 
country and around the world. If we don't transform our energy 
system those problems will only become worse.
    Now Chairman Wyden has appropriately lectured us on the 
limits of what FERC is, that you're not here as President of 
the United States or Secretary of Energy. But I did want to ask 
you what you, Mr. Binz, see the role of FERC in expanding the 
use of renewable energy.
    Mr. Binz. Thank you, Senator Sanders.
    As I've said before, perhaps not very clearly, I think 
FERC's role is to ensure that whatever energy fuel future this 
country finds itself in we have prepared the infrastructure to 
allow that. Now it's kind of a--I'm painting the negative side 
of the sketch here in the following way. The future energy mix 
in this country will be driven by lots of things, almost none 
of which have to do with the FERC.
    It will have to do with, as you just announced, the degree 
to which public, excuse me, the laws reflect a move toward the 
lower carbon or renewable resources. We don't know where 
that's--I don't know where that's going to come out. The amount 
of natural gas seems to be almost unlimited. We're going to 
continue to use more and more natural gas. Personally I support 
that.
    But as a FERC Commissioner our job is to be responsive to 
what the industry needs to connect these resources. So it is 
not to promote any particular resource.
    Senator Sanders. Just on that point let me ask you this. A 
grid that moves distributed energy like solar or wind has 
different challenges than a grid that is moving nuclear or 
coal. So what is within the jurisdiction of FERC is what steps 
do you think can be taken to improve grid resilience, grid 
efficiency and the integration of renewable energy?
    If you are appointed to serve as a FERC Commissioner what 
steps will you take to modernize the grid in those ways?
    Mr. Binz. Thank you, Senator.
    As I've said several times, I'll say it slightly 
differently. I think the agency's duty is to promote the 
appropriate infrastructure investments. Now that's not just a 
passive process. It is mainly passive in the sense that we, at 
the FERC, if I'm appointed to the FERC, we will receive 
applications from businesses to build things.
    But the FERC is also the forum in which the rules about how 
all of this is done, how it's planned. That's what the Order 
1000 is about. That's the important part that we shape, kind 
of, the place that the debate happens.
    But as to the exact outcomes, that's not the agency's role.
    Senator Sanders. Alright.
    Let me just say I think that as time goes on more and more 
Americans and even Members of Congress will wake up to the 
reality that we need to transform our energy system. That is a 
lot harder to do than it is to talk about because the grid 
plays an enormously important role. If you have millions of 
homes that are generating electricity through small solar or 
you have small wind turbines. The FERC will have to play a huge 
role in making sure that electricity moves.
    So I would hope very much, if you are confirmed, that you 
will apply yourself to make sure that we can in fact make that 
transition to renewable energy in a successful and efficient 
way.
    I thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Sanders.
    I just want to note the seriousness of this issue regarding 
the NOAA finding of 400 parts per million. That ought to be a 
wakeup call to all concerned. As we've indicated, Senator 
Udall's question, that at the FERC Mr. Binz does not have 
authority over those kinds of issues. I appreciate it.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Mr. Connor, thank you for coming by to visit with me. I 
think you've heard our Chairman of the Energy Committee talk 
about his recent visit to North Dakota to see our energy 
producing efforts from a variety of sources. Appreciate it very 
much, Mr. Chairman, thank you for coming.
    Not too long ago the Secretary of Interior Jewell was out 
in North Dakota for the same purpose. Not too long before that 
the Ranking Member of this Energy Committee, Senator Murkowski, 
was in North Dakota as well. Thank you, Senator Murkowski for 
coming.
    We appreciate it so much. The reason being is we're 
producing a lot more energy from a lot of different sources. I 
believe that if we truly have an energy policy where we empower 
States the 50 States can all do different things, but great 
things in terms of energy production using the latest, greatest 
technology not only to produce more energy, but to do it with 
good environmental stewardship and truly get our country to 
energy security or energy independence.
    But however you want to define it, but certainly no longer 
relying on oil from the Middle East.
    I also believe that we can work with our closest friend and 
ally, Canada, in that endeavor to have North American energy 
security.
    One of the things that BLM is working on right now is a 
rule regarding hydraulic fracturing. Under that rule BLM allows 
the States to take a lead. My question to you is will you come 
to North Dakota and will you work with us on that rule 
specifically in regard to a State's lead under the BLM rule?
    Mr. Connor. Yes, Senator. I will do that.
    Senator Hoeven. Let me give you an example. Right now one 
of the things that we're working--one of our challenges is is 
to reduce the amount of flaring in our State. We're producing 
so much oil we have a problem building the gas gathering 
systems rapidly enough to capture the gas.
    Now we're working on this very aggressively. We intend to 
capture that gas. Right now 20 percent of the wells are being 
drilled on Indian lands, but they're producing 50 percent of 
the flaring.
    Twenty percent of the wells producing 50 percent of the 
flaring.
    The reason is because we can't get permitting through 
Interior fast enough to build the gas gathering systems.
    Will you work with me on this challenge?
    Mr. Connor. Yes, I will, Senator.
    Senator Hoeven. Thank you.
    Again, thanks for coming by to visit with me.
    Dr. Robinson, first comment is Senator Portman says great 
things about you. So that's a good sign. He was just here and 
we visited a little bit.
    How does the Department of Energy help with key 
infrastructure like the Keystone XL pipeline?
    We're producing more energy. We're working with Canada to 
produce more energy. But there's a lot of misunderstanding 
about the infrastructure needs and the impacts of the 
infrastructure that we have to build in order to get energy to 
our consumers.
    How can the Department of Energy help with that kind of 
need, the infrastructure need?
    If you want to specifically mention Keystone, go ahead.
    [Laughter.]
    Mr. Robinson. Thank you for the question.
    First I should say that as Under Secretary for Management 
and Performance those issues won't be under my purview. But 
working with Secretary Moniz, who I know is very supportive of 
the use of all different types of fuel, that and bringing to 
bear our management and our ability to, you know, accelerate 
the decisions and other aspects of the Department, I hope to be 
helpful. But at this point it's not quite under my purview.
    So, but I will commit to be as helpful as possible.
    Senator Hoeven. I understand that. But we can be energy 
independent if we tackle some of these challenges and I talked 
to Dr. Moniz. But I do understand that's not directly under 
your jurisdiction.
    Thanks for being here today. I look forward to working with 
you.
    Mr. Binz, thank you for coming by. You've gotten a lot of 
questions in regard to FERC not being the fuel selector. So, 
I've heard those comments. I'm not going to go down that trail 
again.
    But I think it's very important in terms of, if we're going 
to have all the above we can't just say all of the above. We 
have to do all of the above. How do you--we're having a hard 
time getting enough interstate transmission whether it's 
electric or gas.
    How are you going to break the log jam?
    What 1, 2 or 3 things can you do to get it going?
    We need infrastructure. How are you going to get it going?
    Mr. Binz. Senator, I can think of the first 2. By the time 
I get to the third when I will have thought of the third one.
    The first one is to ensure that the agency is at optimum 
performance itself. OK? There should be no slow down at the 
FERC for any of these pipeline or transmission applications. 
That's point No. 1.
    Point No. 2 and you and I discussed this in your office. I 
think that the gas system that we have in this country, 
generally speaking, was designed for space conditioning and for 
industrial use of gas. We now, we're in a new world.
    We're in a new world where electricity generation is now 
the top use of natural gas. That means that we have to have 
some coordination between that gas and electric industry. The 
electric industry needs to signal the gas industry for where 
pipeline capacity is needed and what the long term look is.
    Now that's a simple problem to state a complicated one to 
solve. But I think as we go to it.
    Third is I, and I was just alluding to this with Senator 
Scott. I think we need to look at the way in which we regulate 
these companies. There's a big debate right now at the FERC 
about the appropriate ROE, return on equity. That's taking up a 
lot of oxygen at the agency.
    I think the better question is does the way in which we 
regulate the companies who own and invest in these 
infrastructure projects. Are we compensating them the right 
way? Are we giving them the right incentives for investment?
    That's what I've been writing about and thinking about for 
the last 2 years since having left the Public Utilities 
Commission in Colorado. So I don't know what it translates into 
specifics yet. But that's an issue I would like to tackle. It 
will have very direct implications for investment in both 
transmission and gas pipelines.
    Senator Hoeven. Thank you.
    The Chairman. Thank you, Senator Hoeven.
    I just want to note that not only do I share your view that 
the States ought to have a wide berth with respect to energy 
policy, but we asked Mr. Binz that question specifically, and 
he indicated that he also shared that view.
    I think some of the lessons that I really picked up in 
North Dakota, particularly some of the innovative work that you 
all want to do in the flaring area, really lays the foundation 
for us to look at a win/win situation on natural gas where we 
can keep it cheap and affordable and accessible. As we look at 
things like new pipelines, we will probably pick up on some of 
the ideas your geologist told me about in North Dakota where 
the new pipelines will also emit less methane.
    So I thank you for your contribution and for the visit.
    Our next questioner, Senator Manchin of West Virginia.
    Senator Manchin. Thank you, Mr. Chairman and Ranking Member 
Murkowski, I want to thank you all for holding this hearing. 
I've enjoyed hearing from all the witnesses today. But being 
the 22nd questioner doesn't leave a lot left to question.
    So I do have some statements to be made. I enjoyed Mr. Binz 
coming by and meeting with me. We had a very, very good 
meeting.
    My focus in the Senate and the vommittee has been on an all 
in, an all of the above, energy policy which I just think you 
heard my colleague Senator Hoeven speak about. Basically the 
goal was to have energy independence, truly energy 
independence. We see what's going on around the world, what 
goes on and the sacrifices our country makes because of our 
demand and our need for energy.
    Mr. Binz's record, however, indicates that he strongly 
favors renewables over other energy sources. I know that he has 
spoken a lot to that, Mr. Binz. I appreciate your candor on 
those--directly answering those.
    But also there's a fact according to the Denver Post. You 
spoke to this too. Is the record is favoring rising rates as 
part of a new energy economy. I know that's been brought up.
    Also while on the Colorado Public Utility Commission, Mr. 
Binz, you supported the Clean Air and Clean Jobs Act which I 
know has been talked about. But there's a cost of about a 
billion dollars over the 7 years. The retired 6 coal fired 
power plants.
    Just last week RiT operators were forced to cut power to 
some customers in order to prevent a more widespread blackout. 
Some groups have predicted that more shortages could occur as 
the reliability is not maintained from the coal fired plants 
that they have.
    I've previously met with the FERC Commissioner Philip 
Moeller, who said something like this. He said he is source 
neutral, not reliability neutral. It looks to me like 
discriminating against coal is hurting the reliability of our 
grid.
    We keep shutting down coal plants instead of working to 
improve their efficiencies. I would hope and expect the FERC 
Commissioners would favor reliability rather than favor any 
particular source. That they would always keep in mind 
affordability of electricity for hard working Americans and so 
many retired people on fixed income, our retired seniors, most 
importantly, who rely on FERC to keep their rates affordable.
    However we may have some disagreements, as you know. I come 
here ready to listen. I have listened all day long. We have 
decisions to be made.
    Coal provides more electricity than any other single source 
in the United States today. There has nothing been beat up more 
than coal. My little State of West Virginia has done the heavy 
lifting for over 100 years and asked very little back. We're 
getting the living crap beat out of us by this Administration, 
my Administration being a Democrat.
    They talk about a good all in policy. They talk about we 
need clean coal technology. Not a penny has been toward that 
because the money set aside nothing has happened.
    Even by EIA's own estimation coal is going to be the 
dominant factor of producing electricity for the next 30 to 40 
years. That's a fact because there's nothing else to replace 
the dependability, reliability and affordability. We do it 
cleaner than anybody else in the world. We can do a lot better 
if we had a government working with us as a partner.
    So, Mr. Binz, you can see why there's a lot of concerns. 
The FERC, if I can say this, in West Virginia every utility I 
have always says that well FERC won't let them do this or FERC 
regulates this. If you're regulating transmission you're 
regulating basically you have input on where that transmission 
is coming from.
    We export most of our power. If we shut down our power 
plants a lot of these coasts would go dark. They don't realize 
that. They just beat the living daylights out of little West 
Virginia. But they sure do like what we produce.
    We're trying to do it in the best fashion.
    We need some friends. We need some people that will just 
look at it in a more level playing field. We haven't gotten 
that, sir. That's why we're so skeptical and so concerned about 
some of your past performances.
    Nothing personal and I know you know that it's not personal 
here, whatsoever. It's personal to us because of the jobs that 
we have. The energy we produce. The heavy lifting we've done 
for this country. There seems to be no appreciation whatsoever.
    So on that I would ask, I guess, reliability verses cost. 
If that would be--I know that's supposed to be your charge. But 
would that be your directive because before there's questions 
about that as you performed in Colorado?
    Mr. Binz. Senator Manchin, if I may, 3 quick points.
    First, in Colorado we remain 40 percent coal in our State. 
I approved the largest coal plant that was ever built in 
Colorado. I have, as I told you I believe in our meeting, I 
have written papers supporting additional research for carbon 
capture and sequestration because I would like to see a path 
forward for coal.
    Finally, I worked to get funding under the Recovery Act for 
CCS demonstration project at altitude in the Western region. We 
didn't get agreement among the players so no application was 
filed. But I was in full support of that.
    I think the question here is the balance. I believe that 
what we did in Colorado is to increase the diversity and the 
balance in the portfolio. But it was not an anti-coal move at 
all.
    We were attempting to comply with what the legislature told 
us to approve a plan which complied with future EPA 
regulations. So we were looking at those future regulations. We 
closed some old coal plants. But sir, we retrofitted some 
existing coal plants and kept them. So they'll be running 
another 25 to 30 years.
    So I'm very sympathetic to what you're saying. I would like 
to work with you to see if we can somehow move more attention 
toward a path forward for coal. As I've said repeatedly, I 
think eventually the same path forward will be necessary for 
natural gas. It's delayed by a couple decades, but it's going 
to be the same issue.
    So I appreciate your comments. I very much enjoyed our 
conversation in your office.
    Senator Manchin. If I may continue? I appreciate the 
consideration here.
    Chairman Wellinghoff, who is the current Chairman, had 
pushed demand response and energy efficiency. Truly that's why 
I asked the question about reliability and cost. He is not 
going in that direction.
    I'm concerned that this is short sighted. I think because 
when you match this with the coal plants that are retiring. 
Every utility operator today has told me they are forced to 
make fuel switching because of the uncertainty with the EPA and 
the uncertainty with everything that's going on with this 
Administration that it's cheaper to retire a coal plant. Even a 
super critical coal plant in my area, would shut down a whole 
economy of a region of Western Pennsylvania and West Virginia 
because they didn't know what to expect later from the rules 
and regs.
    Now we have a void.
    What's happening right now? You've got a perfect storm 
brewing. People don't really understand it.
    If our economy ever came back, a demand for energy, we'd be 
hurting. We would be hurting. We don't have the capacity on 
line.
    You're taking the only affordable, reliable, dependable 
power you have and they're scrubbing that because of an 
idealistic approach they're taking which is not going to be 
able to fuel this nation. You can't get that across. But just 
last week in PJM which I think serves 55 million people. PJM is 
the provider for transmission which totally is controlled by 
FERC. Correct?
    Mr. Binz. Yes, sir.
    Senator Manchin. PJM. Due to a heat wave they almost went 
down with blackouts because of what they've retired 
prematurely.
    Mr. Binz. Senator, as I told you in my office I consider it 
a very important duty of the FERC to speak truthfully and 
directly to the EPA about the reliability impacts. It may not 
be the FERC who does the research itself. I think that's best. 
It comes from the regions.
    But processing that information and conveying it to 
authorities making decisions about plants and the potential 
closure of plants is something which I think the FERC must do 
to fulfill its role on reliability.
    Senator Manchin. I appreciate you coming and speaking to me 
directly. I do appreciate that. I'm considering everything we 
spoke about. Everything I've heard today. I will take that 
under consideration.
    Thank you, sir.
    The Chairman. I thank my friend from West Virginia.
    Just for purposes of putting a wrap-up point on this 
position and coal, you know, point on this position and coal. 
As a Senator who knows these issues, we have tried to make 
significant efforts to address the very legitimate concerns 
that your constituencies are bringing up. I mean that's why for 
the first time this committee now has a Mining Subcommittee 
because I thought when I went to West Virginia and heard from 
your folks that they deserved to have a bigger megaphone and a 
bigger voice.
    Senator Manchin. Yes.
    The Chairman. That's the way we're going to do it. We're 
going to do it on a bipartisan basis, Senator Murkowski and I.
    Just on this point with respect to discrimination against 
coal, I'm going to highlight one aspect of it. We tried to lay 
out-and my colleagues are kidding that they've heard the 
lecture about what FERC can do and what FERC can't do. But the 
most important point is that they cannot discriminate, they 
cannot discriminate in any way with respect to imposing unjust 
or unreasonable rates, or preferential charges on coal or coal 
generated electricity. There cannot be back door taxes on coal 
or coal-generated electricity.
    Now, I know my good friend from West Virginia is going to 
make darn sure that that requirement is carried out. I just 
want, as we wrap up, to highlight that point because I'm going 
to work very closely with my colleague from West Virginia. 
We've talked about this a number of times. We're going to 
continue the discussion.
    Senator Manchin. Mr. Chairman, you've been more than fair 
and Ranking Member Murkowski has been more than fair in trying 
to understand what the State of West Virginia has done, what it 
continues to do and what it wants to continue to contribute. 
But we need a willing partner. We've not had that willing 
partner, sir. You saw the frustration when you both were there.
    We believe in all of the above. We have one of the largest 
wind farms east of the Mississippi. No one would ever know that 
in West Virginia, the coal producing State that we are, we have 
17 miles of wind farm. We're trying to do everything we can 
with what we've got.
    The Chairman. I saw it.
    Senator Manchin. Yes, you saw it. You were there.
    The bottom line is is that basically I would maybe not 
really disagree with what you've said about FERC. But FERC 
does--can make decisions on is the power needed?
    Is the transmission for that power available?
    Is there a better place to have it?
    If you tried to put policy ahead of reality they could 
choose and if cost is not considered how that cost would be 
passed on?
    They could choose an alternative source that could be much 
higher in cost and lower reliability.
    The Chairman. They cannot discriminate on the question of 
charges. They are barred. They have no authority to impose 
unjust or unreasonable rates.
    No. 1, they cannot discriminate or in effect allow 
preferential kinds of agreements that would disfavor your 
constituents.
    I want you to know I am going to be vigilant about that 
provision because if you don't enforce it, you get front and 
center into something you and I totally agree on which is 
shouldn't be picking winners and losers. So, I hear you.
    Senator Manchin. Right.
    You brought that to my attention. We're going to be looking 
at that very closely and seeing how past practices of past FERC 
members have done.
    The Chairman. Fair enough.
    Senator Manchin. How they ruled on that.
    Thank you, sir.
    The Chairman. Fair enough. This is a discussion that will 
continue.
    Two last points and Senator Murkowski and I have been 
trying to figure out how to navigate the vote.
    Mr. Connor, I'm sure you feel thoroughly neglected at this 
point. I just want you to know on the Klamath Basin tissue, 
because we're moving into the home stretch of trying to work 
out what I think could be a historic agreement for a rural area 
where you're trying to balance the water needs, we need to find 
a way to provide lower cost power to both on and off-project 
users working with Bonneville and Pacific Corp. We bumped up 
against some road blocks.
    I need you when you leave this afternoon by the end of the 
day to be back on this case trying to see if we can advance 
this. Will you help us with that?
    Mr. Connor. Absolutely.
    The Chairman. Alright.
    You all have been very patient with respect to your time 
this morning.
    Dr. Robinson, you I think have seen the strong bipartisan 
interest in your work. It's certainly appreciated by me. I 
think what it really highlights, and Mr. Binz, you've, sort of 
been the focus of today.
    But it highlights for me that all 3 of you are capable of 
helping us get the win/win policies for the future that are 
going to be consensus driven.
    They're going to be market-oriented.
    They're not going to discriminate against one choice or 
another.
    They're going to be good for the country.
    I've made it clear, Mr. Binz, that I think tapping the 
potential of natural gas is a winner for this country. It's a 
winner for consumers. It's a winner for businesses. It's 50 
percent cleaner than other fossil fuels.
    You've basically told me that you, too, believe it has 
significant benefits for consumers and businesses and the 
environment. You will work actively with us for those win/win 
kinds of consensus driven approaches. Is that a fair 
assessment?
    Mr. Binz. That is, Senator.
    The Chairman. Alright.
    The only other point I want to make, and it really touches 
on something that several colleagues have talked about, with 
all these public relations firms and special interest groups 
involved. This is not where I think these debates ought to go. 
Frankly, what Senator Murkowski and I have dedicated our 
service in this committee to be all about is sort of ratcheting 
this kind of stuff down.
    Trying to lower the decibel level.
    Trying to bring people together to find some common ground 
on these kinds of solutions.
    I think when we say that an outside interest group has a 
right to oppose a nomination and they do. In fairness, an 
outside group has a right to be able to offer the counter, you 
know, arguments.
    I hope that we're going to see that this is an exception 
and not the rule.
    You all have been patient with us this morning. I'm going 
to give the last words to my friend and colleague, Senator 
Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Great participation by the committee today which I always 
appreciate. But I also recognize that when more of our 
colleagues show up there's less time for you and I to ask our 
questions.
    I think it's been noted that Dr. Robinson and Mr. Connor, 
neither one of you fielded the questions to the level that Mr. 
Binz did. I don't think it's because of lack of interest.
    Mr. Connor, you and I had a lot of discussion about trust 
obligation owed to our native peoples and your responsibilities 
there, particular interest to me, of course, is what happens on 
Alaska's lands. We have some issues that we need to resolve. 
We've got some legacy wells that, quite honestly, have not been 
given the priority that this Administration nor previous 
Administrations need to give to that.
    I'm going to be meeting with some Native leaders this week 
to talk, not only about the ongoing situation with the legacy 
wells, but those lands that have been conveyed to our Native 
people that were affectively trashed, again, by the Federal 
Government, by the military whether it's cold war or whenever 
it was and the obligation that we have to basically clean up 
the mess there. So that is something that we need commitment to 
work on.
    Dr. Robinson, I didn't have a chance to visit with you 
personally. I do appreciate all that you have done. I will 
raise one quick issue though. That is the--during your tenure 
as CFO of NASA there was a situation where there were a series 
of documents that were subpoenaed. Apparently there was failure 
to reply to that. As a consequence in the FY2014 Appros bill 
for NASA there is actually language that provides that NASA's 
actions over the past several fiscal years imply that the 
agency does not take the spending plan process seriously.
    NASA has repeatedly attempted to use its plan to 
circumvent, dilute or contradict policies. That concerns me, of 
course. So I want to know that we do have assurances that you 
will be responsive to the committee, certainly. That you will 
faithfully carry out your legislative lead directed 
responsibilities while at the Department of Energy.
    But that language caught my eye. I wanted to make sure that 
we weren't going to see any carryover certainly within your new 
responsibilities at the Department of Energy.
    Mr. Robinson. No, not at all. I pledge to carry out any 
authorization and to be as forthcoming and transparent as 
possible with the committee.
    Senator Murkowski. Great. We certainly appreciate that.
    Mr. Chairman I have suggested that because there is, 
clearly, additional questions. I certainly have additional 
questions that I want to have directed to Mr. Binz. So I would 
ask that we be able to hold open until the close of business 
this week opportunities for members to submit their questions 
for the record. I would ask that----
    The Chairman. Without objection that's very appropriate. I 
think Senators do want to raise concerns. We will keep the 
record open until the end of the week.
    Senator Murkowski. I appreciate that, Mr. Chairman.
    I would ask specifically to Mr. Binz on that. I don't know 
why historically it has been an issue, but FERC has had not too 
stellar track record when it comes to responding to formal 
inquiries from this committee. We discussed it in my office. So 
I would hope that we could get a quick response back.
    Mr. Chairman, there's been a lot of discussion, 
particularly around Mr. Binz's nomination. I think you can hear 
the concern from members.
    We want to make sure that the people that we work for that 
as they have an opportunity to heat their homes, run their 
businesses, that policies that are set don't shut down their 
opportunities because the issue of cost is taken over by a 
different direction. Whether it's societal outcomes or the 
issues as they relate to reliability, the role of the FERC as 
that independent agency tasked to ensure, you know, the 
greatest opportunity here which is the consumer protection. 
This is clearly, clearly a very critical role.
    It needs to be--the roles and functions within the 
Commission are such that they require a level of independence, 
a level of judiciousness, a level of temperament and a level of 
fairness, absolute fairness without question. So I appreciate 
the opportunity that we've had today. I wish we had more time.
    But I do think that, again, when we look to this Commission 
and the responsibility that we hold the Commission and the 
Commissioners and most specifically, the Chairman to, the 
standards absolutely must be of the highest possible.
    So Mr. Chairman, I have indicated the concerns that I have 
with the nominee. At this point in time Mr. Binz, reluctantly I 
don't think I'm going to be able to support your nomination as 
we move through the committee. I say that reluctantly. But I 
need to know, I need to have that absolute assurance that the 
independents that I've spoken to and the fairness and the 
judiciousness that I have spoken to is there. I have not yet 
been convinced of that.
    The process will move forward. I recognize that we need to 
have a full Commission. But as of this point in time, I'm not 
prepared to support your nomination.
    With that, Mr. Chairman, I know we both have a vote to run 
off to. They've been holding it for us. So I thank you for all 
that you've given us and to the nominees here this morning. 
Thank you.
    The Chairman. Thank our nominees. committee is adjourned.
    [Whereupon, at 12:30 p.m. the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

   Responses of Elizabeth M. Robinson to Questions From Senator Wyden

    Question 1. Cleanup.--Since 1990, the Government Accountability 
Office has maintained a list of programs at ``high risk'' of waste, 
fraud abuse, or mismanagement. From the beginning, GAO has listed DOE's 
Environmental Management Program's contract management as ``high risk'' 
because of DOE's record of inadequate management and oversight of its 
contractors. In recognition of significant progress, GAO removed EM's 
smaller projects from the list, but has kept the larger Environmental 
Management projects, such as the Waste Treatment Plant at Hanford, on 
the list. What will you do to get Environmental Management off the 
``high risk'' list?
    Answer. I am aware that the Department has had several EM projects 
on the GAO's high risk list, and that some of those projects have been 
on the list for many years. I understand that the Department has put in 
place reforms over the last several years, and as a result the GAO has 
removed projects under $750 million from the high risk list. While 
efforts continue at the Department to address these major project 
management challenges, there is still much work to be done. If 
confirmed as Under Secretary for Management and Performance, I plan to 
get immediately involved in these issues, using my experience at NASA 
and elsewhere, to keep progress moving forward.
    Question 2. Cyber security.--The Department recently had a breach 
of its unclassified payroll system that resulted in disclosure of 
personal information on 53,000 current and former employees. The 
Inspector General has identified security weaknesses in the 
Department's unclassified information systems for years. What will you 
do to improve cyber security and the security of the Department's 
information systems?
    Answer. I am aware of a recent cyber attack that was perpetrated 
against the Department, which resulted in the unauthorized disclosure 
of Personally Identifiable Information (PII). As a long-time member of 
the federal workforce, the security of our federal employee's personal 
information is extremely important to me. If confirmed, I plan to learn 
more about this incident and the Department's cyber security programs 
and policies. I will work with the Chief Information Officer, who 
reports to the Office of the Under Secretary for Management and 
Performance to ensure DOE is doing what it can do to prevent these 
types of incidents.
    Question 3. Human resources. DOE was recently forced to rescind 
Bonneville Power Administration's hiring authority because of 
violations reported by both the Inspector General and the Office of 
Personnel Management, including mishandling of veterans preference. 
What will you do to fix the veterans preference problem at the 
Bonneville Power Administration and to make sure that there aren't 
similar problems in other parts of the Department of Energy?
    Answer. I am aware of this issue, and have reviewed the Inspector 
General Management Alert released in July. I am personally very 
concerned by any allegations of hiring improprieties, and particularly 
those disadvantaging armed service veterans. I understand the 
Department is taking these allegations very seriously and will be 
undertaking efforts to re-look at each case in question. I also 
understand the Department and BPA have begun the process of priority 
placement of eligible disadvantaged veterans. If confirmed, I will work 
to take all ongoing appropriate actions to ensure that Headquarters and 
Bonneville staff have the tools they need to lawfully and completely 
carry out federal hiring rules.
    Question 4. Small business.--The Department of Energy has the worst 
record in government on small business contracts, primarily because so 
much of the Department's work is done through large management and 
operating contracts. NASA has faced similar problems. What will you do 
to improve small business contracting at the Department?
    Answer. We must harness small business innovation and talent if the 
Department is to meet the President's ambitious energy goals. I am 
aware of the Department's performance challenges regarding small 
business contracting, and that a large amount of DOE's total funds does 
go to small businesses, primarily through subcontracts. If confirmed, I 
will look into identifying and implementing strategies toward 
achievement of the Department's small business goals.
    Question 5. The rules of the Senate require this and other 
committees to review and study, on an ongoing basis, the performance of 
agencies, the administration of existing laws, and the need for 
additional legislation within the each committee's jurisdiction. The 
effective performance of the Committee's legislative and oversight 
functions requires a timely flow of information from the agencies under 
its jurisdiction in response to its questions and document requests. 
Unfortunately, the Department has not always responded as promptly as 
it could to the Committee's needs. For example, the Department has yet 
to respond to questions stemming from its hearing on nuclear waste 
legislation last July. In addition, I am enclosing a letter from 
Senator Markey identifying 7 unanswered requests. If confirmed, will 
you ensure that our questions are promptly answered?
    Answer. If confirmed, I can commit to responding to the best of my 
ability.

 Responses of Elizabeth M. Robinson to Questions From Senator Murkowski

    Question 1. Cooperation with Congress----
    a. If you are confirmed as Under Secretary, do you pledge to fully 
and promptly cooperate with all requests for documents or other 
information that you receive from the Senate Committee on Energy and 
Natural Resources and any other congressional Committees with which you 
may interact?
    Answer. If confirmed, I can commit to cooperating with the 
Committee's requests in a timely manner to the best of my ability.
    b. If you are confirmed as Under Secretary, do you pledge that your 
decisions will strictly adhere to the statutes that Congress has passed 
and the authorizations that Congress has provided to the Department of 
Energy?
    Answer. Yes.
    Question 2. Environmental Management--Please describe your 
technical knowledge of, and professional experience related to, the 
portfolio of environmental management issues that you would be 
responsible for at the Department of Energy, if confirmed.
    Answer. Throughout my career, leveraging what I learned in pursuit 
of my Ph.D. in geophysics, I have worked on energy issues, including as 
an examiner at the Office of Management and Budget. I have also focused 
on project management, most recently as the CFO at NASA. If confirmed, 
these skills will enable me to hit the ground running on Environmental 
Management issues, which I consider one of the greatest challenges I 
will face. I plan to work closely with the head of the Environmental 
Management program and technical staff at the Department on these 
important issues.
    Question 3. Financial Management--A recent Washington Times article 
asserted that its ``review of NASA inspector general reports finds the 
space agency struggled to achieve austerity under [your] financial 
leadership, as cost overruns grew sixfold from $50 million in 2009 to 
$315 million in 2012.'' Do you have any comment about this story? How 
do you explain NASA's apparent increasing cost overruns?
    Answer. I believe it is our duty as public servants to work every 
day to make the most effective and efficient use of taxpayer dollars. 
NASA, like many agencies, has had a number of long-standing challenges 
over its 50 year history, spanning more than one person or one 
administration. I'm proud that during my time at NASA, the agency 
received a clean audit for the first time in several years--and an 
essential part of that effort was input we received from NASA's IG in 
addition to GAO and Congress. I understand that the Department also 
faces cost estimate issues and, if confirmed, I will work to improve 
project management and cost estimate issues.
    Question 4. Publications--Your nomination papers list a number of 
publications that you have authored or coauthored. Please provide the 
Committee with copies of the following:
    4a. ``Preparing for an Uncertain Climate, October, 1993; U.S. 
Congress, Office of Technology Assessment. Principal Analyst.''

    Answer. Please find the report (vol 1) at: http://
www.princeton.edu/ota/ns20/alpha__f.html And (vol 2): http://
www.princeton.edu/ota/ns20/alpha__f.html

    Also, please note that I was employed as a Principal Analyst on the 
project for its first year and was no longer ``Project Staff'' at the 
time of its final publication.
    4b. ``Chubin, D.E. and E.M. Robinson, Accounting for the Costs of 
Research: Some Policy Rethinking, Science and Public Policy, vol 19, 
#3, June 1992, pp. 181-186.
    Answer. See attachment.*
---------------------------------------------------------------------------
    * All attachments have been retained in committee files
---------------------------------------------------------------------------
    4c. ``Robinson, E.M., Know thy Sponsor: Project Selection Methods 
at Federal Research Agencies, BioScience, vol 41, #8, September 1991, 
pp. 575-577.''
    Answer. See attachment.*
    4d. ``Chubin, D.E., E.M. Robinson, N. Carson and J. Andelin, 
Research Priority Setting and the U.S. Congress, Science and Technology 
Policy, August 1991, pp. 9-13.''
    Answer. *See attachment.
    4e. ``Federally Funded Research: Decisions for a Decade, May, 1991; 
U.S. Congress, Office of Technology Assessment. Principal Analyst.''
    Answer. Please find the report at:http://www.princeton.edu/ota/
ns20/alpha__f.html
    Question 5. Contracting--DOE's Inspector General recently described 
oversight of contracting as the Department's ``weak underbelly''--and 
improvements to that process will reportedly be one of the main aspects 
of your job, if you are confirmed.
    5a. How at NASA did you make sure that contracting operated 
smoothly?
    Answer. At NASA, I worked to make sure that contracting operated 
smoothly in several ways. First, as the Chief Acquisition Officer, I 
utilized my direct access to the Administrator to elevate issues of 
concern to resolve them in a timely manner. Moreover, as a Member of 
the Executive Council, Project Management Council and Mission Support 
Council, I facilitated consideration of project- and contract-specific 
issues at key decision points.
    5b. What do you believe are DOE's current deficiencies with regard 
to contracting?
    Answer. I am aware DOE has very complex project management and 
contracting challenges, and if confirmed, one of my first tasks will be 
getting up to speed on these issues.
    5c. From your overview at DOE so far, do you see any changes you 
wish to make or anything that you think the Department can do better?
    Answer. I believe that there are certainly challenges within the 
Department on contracting issues; however, I do not believe those 
challenges to be insurmountable. If confirmed, I plan to take an active 
role in this area.

 Responses of Elizabeth M. Robinson to Questions From Senator Cantwell

    Question 1. Dr. Robinson, I think we can all agree that increasing 
government contracting to small businesses is a worthy goal, and I'm 
pleased to have fought over the years to both increase the number of 
prime and subcontracts to small businesses.
    I have a few concerns about how those increases are implemented, 
though, and I'm hoping to learn more about your approach to small 
business contracting.
    As you know, the Small Business Administration works with the 
Department of Energy to establish small business prime contracting 
goals for each fiscal year. I believe that these goals should first do 
no harm to existing small business subcontractors and be realistic in 
scope and timeframe. As negotiations begin on the goals for next fiscal 
year, will you commit to fully analyzing the impacts of these goals on 
existing small business subcontractors and providing Secretary Moniz 
and acting-Administrator Hulit with the full impacts?
    Answer. I am aware of the Department's performance challenges 
regarding small business contracting, and that a large amount of DOE's 
total funds does go to small businesses, primarily through 
subcontracts. If confirmed, I will certainly provide Secretary Moniz 
and the SBA with an accurate, full picture of impacts to existing 
contractors both prime and sub. If confirmed, I will also look into 
identifying and implementing strategies toward achievement of the 
Department's small business goals.
    Question 2. As you know, the Department of Energy's prime 
contractors already do a significant amount of subcontracting to small 
businesses. In fact, more than a quarter of DOE's procurement dollars 
in fiscal year 2012 were awarded to small businesses. If the Department 
of Energy has to de-scope, re-structure, re-compete, and re-award 
substantial work from these large prime contracts (in many cases, work 
which was already being done by small business subcontractors), would 
you expect the need for additional contracting officers and financial 
resources to award, manage, and audit the larger number of prime 
contracts?
    Answer. As I mentioned previously, I am aware of the Department's 
performance challenges regarding small business contracting, and that a 
large amount of DOE's total funds does go to small businesses, 
primarily through subcontracts. If confirmed, I will look into the 
issue you have raised.
    Question 3. As we've discussed, the cleanup of the Hanford site in 
the Tri-Cities, Washington is one of my top priorities for the 
Department of Energy. Is there a risk of further delays to Hanford 
cleanup if the Department of Energy substantially increases the number 
of prime contractors too quickly, rather than allowing the existing 
prime contractors to meet aggressive small business subcontracting 
goals and slowly phasing in additional small business prime 
contractors?
    Answer. I understand that the Hanford site is facing many 
challenges, and it is important for the Department to address the 
cleanup mission in a timely and safe manner. I appreciate the issue you 
have raised, and if confirmed I will look into it.
    Question 4. Placing Environmental Management under the Office of 
Performance and Management could suggest that the DOE leadership 
believes that the challenges in completing the clean-up of legacy 
nuclear waste are strictly a matter of more sound and rigorous project 
management. But the general consensus seems to be that many unresolved 
technical questions remain, certainly around the Hanford Waste 
Treatment Plant and the Tank Farms. DOE also stewards 17 national labs 
that house many of the nation's top experts in tank waste chemistry, 
radiological waste fate and transport in the subsurface, and turning 
liquid waste into glass to name just a few. Do you see the EM 
challenges as more than just better project management? How do you plan 
to engage the national laboratories as strategic partners in dealing 
with the many open technical questions not just at Hanford but across 
the entire DOE complex?
    Answer. Cleaning up our nation's nuclear waste legacy is an 
important priority for the Department, and for me. Throughout the 
Environmental Management complex, the Department faces significant and 
serious challenges related to technical, project management, and other 
causes. I understand that throughout the EM complex, the Department is 
routinely engaging the national laboratories, including at Hanford, to 
assist in resolving some of these issues. If confirmed, I will be 
looking at how we can improve our efforts across the EM complex and 
what tools the Department can bring to bear to resolve some of the most 
challenging issues we face.
    Question 5. The Department's National Laboratories have been 
productive in their research with relatively limited investment in the 
renewal of facilities and infrastructure that underpin their unique 
scientific capabilities in addressing our nation's most pressing needs 
in national security, science, and energy innovation. With the backlog 
of necessary infrastructure investments, I am concerned about our 
ability to maintain these assets. Will you consider new financing 
strategies to find alternative funding sources or provide additional 
financing options for the National Laboratories to meet these needs?
    Answer. Yes. DOE's national laboratories are critically important 
to energy, scientific discovery, and national security challenges 
facing our nation and around the world. If confirmed, I intend to work 
with our Departmental leadership to ensure that proper infrastructure 
investments will be made for the national laboratories.

  Response of Elizabeth M. Robinson to Question From Senator Barrasso

    Question 1. During your confirmation hearing, you committed to 
support DOE's ongoing uranium barter program for environmental cleanup 
in Piketon, Ohio.
    Section 3112(d) of the USEC Privatization Act (42 U.S.C. 2297h-
10(d)) states that the Secretary may sell or transfer natural or low-
enriched uranium from DOE stockpiles provided that:

          the Secretary determines that the sale of the material will 
        not have an adverse material impact on the domestic uranium 
        mining, conversion, or enrichment industry, taking into account 
        the sales of uranium under the Russian HEU Agreement and the 
        Suspension Agreement.

    Since May 12, 2012, the U.S. spot price of U3O8 has fallen about 33 
percent. DOE's barter program has contributed to the collapse of U3O8 
prices.
    If confirmed, you would oversee the Office of Environmental 
Management. What steps, if any, would you take to ensure that any 
Secretarial Determination: (1) will not harm our domestic uranium 
production, conversion, and enrichment industries; and (2) is in 
compliance with Section 3112(d)?
    Answer. If confirmed, I will ensure that any uranium transfers 
comply with applicable statutory obligations. As part of that process, 
I can commit to looking at implications for the uranium mining industry 
of covered sales or transfers. I will work within the Department to 
ensure that the Secretary has sufficient information to make a 
determination to help ensure the strength of the domestic uranium 
industry.

  Responses of Elizabeth M. Robinson to Questions From Senator Schatz

    Question 1. I applaud the DOE's reorganization and the emphasis the 
Secretary has placed on performance and management. The federal 
government has a responsibility to the cleanup of our nuclear weapons 
research programs but equally important are the research and 
development programs that will develop the technologies of tomorrow.
    Ms. Robinson, how will your role help in balancing between these 
two priorities and what are your plans for encouraging improved 
coordination between the various program offices?
    Answer. As you know, in July, Secretary Moniz and Deputy Secretary 
Poneman announced plans for a reorganization of the Department's 
management structure that is designed to achieve Department's key 
priorities and those of the President.
    If confirmed, I would serve in the role as Under Secretary for 
Management and Performance, which elevates the importance of management 
and performance across all Department missions. The Office of 
Environmental Management and Legacy Management would also fall within 
my portfolio and I intend to work diligently on challenges facing those 
programs. I look forward to working with my counterparts the Under 
Secretary for Science and Energy and Under Secretary for Nuclear 
Security to ensure that program efforts are not only well coordinated, 
but also well managed and high performing.
    Question 2. With significant budget cuts due to the government-wide 
sequester and the wave of federal employees slated for retirement, what 
are your plans to ensure continuity of operations through the knowledge 
drain that will occur from retirements?
    Answer. Sequestration has created a situation where the Department, 
like all federal agencies, has had to make difficult choices about its 
priorities and future of programs. The knowledge drain from retirements 
is an issue that, if confirmed, I will take seriously, to ensure that 
the Department has the right staff to meet its missions into the 
future.
                                 ______
                                 
     Responses of Michael L. Connor to Questions From Senator Wyden

    Question 1. The rules of the Senate require this and other 
committees to review and study, on an ongoing basis, the performance of 
agencies, the administration of existing laws, and the need for 
additional legislation within the each committee's jurisdiction. The 
effective performance of the Committee's legislative and oversight 
functions requires a timely flow of information from the agencies under 
its jurisdiction in response to its questions and document requests. 
Unfortunately, the Department has not always responded as promptly as 
it could to the Committee's needs. For example, the Department has yet 
to respond to questions stemming from its hearing on revenue sharing 
last July. In addition, I am enclosing a letter from Senator Markey 
identifying two requests from over a year ago. If confirmed, will you 
ensure that our questions are promptly answered?
    Answer. I understand the importance of the Committee's oversight 
role and the Department's relationship with the Committee. If 
confirmed, I will work to ensure that the Department promptly responds 
to the Committee's requests.
    Question 2. Through the Department's WaterSMART Program and the 
SECURE Water Act, DOI partners with local governments and non-
governmental organizations to strengthen our scientific understanding 
of water availability while working to secure and stretch water 
supplies for the future. As you know, water is needed to develop and 
generate energy, and energy is needed to transport, treat and heat 
water. While the programs I mentioned recognize that water and energy 
are inextricably linked, their scope is limited to DOI. What can we do 
to integrate water and energy policies on a larger scale-- both within 
the federal government and with state, local and tribal governments as 
well as the private sector?
    Answer. Energy and water issues are intersecting with more 
frequency and intensity across a range of Interior activities, 
including hydropower generation, energy extraction, thermoelectric 
cooling; and water management, distribution, and treatment. 
Accordingly, energy and water issues are at the core of Interior's 
responsibilities and priorities and we continue to make progress in 
developing policies that account for this linkage. Further, Interior 
stands ready to work with other agencies on energy-water nexus issues 
where mission responsibilities overlap to leverage federal resources 
for science and technology development, developing best practices, and 
promoting data sharing across both the government and the private 
sector. In my view, one particular area of focus should be water 
availability and associated data gaps; better data on water 
availability is needed in order to assess the trends and potential 
vulnerabilities associated with water use for energy development.
    Question 3. In your opinion, what are key institutions that are 
involved in policy making on the energy, water nexus?
    Answer. At the federal level, the Department, the Department of 
Energy, and other federal agencies such as the Environmental Protection 
Agency and Army Corps of Engineers are key institutions. States have 
lead control over water allocation and use and energy development on 
non-federal lands. Private enterprise is responsible for most energy 
development and electric generation, but local, tribal, and private 
entities are key partners. The Council on Environmental Quality 
encourages coordination and participation by both public and private 
entities. The Department also works with other agencies on an issue-
specific basis to coordinate on energy-water initiatives. The 2010 MOU 
among Interior, Energy, and the Army Corps of Engineers on hydropower 
and non-hydro renewable energy is an example of collaboration and 
shared resources to better integrate federal programs and policies and 
facilitate private renewable energy development.

   Responses of Michael L. Connor to Questions From Senator Murkowski

    Question 4. Federal Trust Responsibility to Native Americans--The 
federal government's commitment to tribal sovereignty and the 
individual well-being of Native Americans, combined with the obligation 
to manage Indian lands and funds, is commonly referred to as the 
federal trust responsibility.
    a. What is your understanding of the federal trust responsibility 
to Native Americans? Specifically, how far do you think this trust 
responsibility extends with respect to the overall welfare of tribal 
members?
    Answer. With an extensive background in Federal Indian law, I 
understand that the government's trust responsibility is a moral and 
legal obligation to protect tribal rights, lands, assets, and resources 
as well as a duty to carry out the mandates of federal law with respect 
to American Indian and Alaska native tribes and villages. I also 
understand that, while the United States' trust responsibility is 
government-wide, the Department is often the primary agency charged by 
law with meeting the trust responsibility to Native Americans and 
Alaska Natives.
    Question b. How would you ensure that tribal interests and the 
Indian Trust responsibility are not sacrificed in favor of competing 
priorities within the Department?
    Answer. Both President Obama and Secretary Jewell have pledged to 
Indian Country that in this Administration, American Indians and Alaska 
Natives will have an important voice in the policy and decision making 
affecting Indian Country. If confirmed, I plan to continue their good 
work and ensure that the Department upholds this trust responsibility 
and continues to make it a priority.
    Question 5. Arctic Development--The Department is currently working 
on several proposals that would impact oil and gas development in the 
Arctic including broad-based Arctic-specific standards, updated air 
program regulations, and a joint effort with NMFS to support incidental 
harassment authorizations.
    a. What is your position with respect to oil and gas development in 
the Arctic?
    b. What role do you envision playing in oil and gas development in 
the Arctic, if confirmed?
    c. What is the status of the pending lease sales in the Arctic--in 
2016 and 2017--and how would you manage them?
    Answer. I am fully supportive of the Administration's commitment to 
facilitating a targeted, comprehensive, science-based approach to 
energy policy in the rapidly changing Arctic. If confirmed, I look 
forward to working with Secretary Jewell and our team at Interior to 
continue to implement this principle with decisions informed by the 
best available science and developed with wide and sustained 
stakeholder engagement and public input. Transparency and 
accountability are paramount to achieving outcomes that reflect the 
interests of those most affected by our actions in the Arctic and in 
all of our decision-making. I would look forward to a strong 
partnership with you and this Committee to those ends. I am not 
familiar with the specific status of future lease sales in the Arctic, 
but I am aware that they are being planned pursuant to the current 5-
year plan. If confirmed I would be happy to work with my colleagues in 
the Bureau of Ocean Energy Management to address your concerns.
    Question 6. Revenue-Sharing--Senator Landrieu and I introduced the 
FAIR Act earlier this year to extend revenue sharing to all coastal 
states with energy development off their shores. This includes 
renewable energy, and our bill would also include renewable energy in 
the existing onshore revenue sharing program.
    a. Please describe the Administration's position on the concept of 
revenue sharing for coastal energy-producing states.
    b. At a legislative hearing on the FAIR Act earlier this year, the 
written testimony of the Administration witness--from the Department of 
the Interior--noted that the Administration ``cannot support the 
bill.'' Please describe the type of revenue sharing legislation the 
Administration would be willing to support.
    c. If confirmed, will you work with us to advance the FAIR Act?
    Answer. I know that the Administration is mindful of the long-held 
view that coastal states should share the benefits of energy 
development that takes place offshore and currently implements 
statutory revenue sharing under existing law. With respect to future 
legislation, the Administration's testimony on the FAIR Act outlines 
several principles that are key to any potential agreement on how to 
proceed. I know this is an issue that you care deeply about and, if 
confirmed, I commit to meeting with you in an effort to find any common 
ground that may exist and to work toward a path forward.
    Question 7. Alaska Native Claims Settlements--In 1971 Congress 
passed the Alaska Native Claims Settlement Act that promised Natives 45 
million acres of lands in return for extinguishment of their aboriginal 
land claims. Currently, BLM still needs to convey 1.9 million acres of 
those lands by interim conveyance and survey and patent nearly 13 
million more to complete the settlement. In addition, BLM still owes 
the State of Alaska 5.1 million (interim conveyance) of its 104 million 
acres promised at Statehood in 1959, and needs to finish surveying and 
patent on 43 million of those acres. The Department in recent years has 
proposed to cut funding for these land conveyances.
    a. What is your view of the Department's role in completing these 
land conveyances?
    b. How will you address the budgeting for the work?
    Answer. The Department is committed to completing the transfer of 
lands to Alaska Natives, Corporations, and the State as required by 
ANSCA. To accomplish this, I understand that the Bureau of Land 
Management is implementing improvements in how it manages the Alaska 
conveyance program to reduce costs. If confirmed, I commit to working 
with BLM to ensure that completion of these land exchanges moves 
forward as quickly as possible.
    Question 8. ANWR/1002--The State of Alaska has submitted a 
comprehensive exploration plan for seismic surveys in the 1002 area of 
ANWR to the USFWS. This kind of exploration is badly needed to update 
our understanding of the country's natural resources, and the State has 
shown that it is willing to take the lead on financing and driving the 
effort. Despite the advanced technology and extremely minimal impact on 
the environment detailed in the plan, the USFWS has not even reviewed 
the substance of the plan, but instead claimed the clear language 
authorizing these plans in ANILCA Section 1002(e) is expired.
    a. Why hasn't the USFWS considered an interpretation of the law 
that would allow for more scientific information to be gathered for the 
benefit of the nation as a whole?
    b. Can you commit to partnering with the State to collect up-to-
date information about the natural resources in ANWR to better inform 
Congress about its value to the nation?
    Answer. While I am not intimately familiar with this issue, I 
understand that, based on long-standing legal interpretation, the FWS 
has found that the underlying statute and its 1983-84 implementing 
regulations bar it from considering the exploration plan and permit 
application. Should I be confirmed, I commit to maintaining the strong 
interagency and intergovernmental partnerships that the Department and 
its bureaus have established to share vital information about the 
resources we manage on behalf of the American public.
    Question 9. Legacy Well Cleanup--The federal government between 
1944 and 1981 drilled 137 exploration oil and gas wells in northern 
Alaska, most in the National Petroleum Reserve-Alaska. There are over 
100 legacy wells drilled in the NPR-A by the federal government that 
are un-remediated and in need of clean-up. The government, however, has 
properly plugged, capped and cleaned contaminated soils from around 
just 18 of those wells. If these wells had been drilled by the private 
sector, companies would owe the State of Alaska approximately $40 
billion in fines. This winter the Administration, as part of its budget 
proposal, sought to take back Alaska's 50 percent share of oil and gas 
revenues for use to pay for cleanup. That is totally unacceptable to 
Alaska. The federal government has a responsibility to complete this 
remediation.
    a. Will you work within the Department to properly budget for the 
cleanup of these wells and keep this work on schedule?
    b. Can you commit to prioritizing legacy well clean-up using 
federal funds to meet this federal obligation?
    c. Would you be willing to work with the EPA to explore common 
sense solutions to these wells, including potentially through the use 
of Clean Water Act compensatory mitigation programs?
    Answer. Yes, if confirmed I will work with BLM to ensure that there 
is appropriate budgeting for the cleanup of these wells. I understand 
that BLM has developed a multi-year strategic plan for the clean-up and 
that implementation of the plan will be addressed using federal funds. 
If confirmed, I would be willing to work with the EPA to look at 
solutions for clean-up of these wells.
    Question 10. Interagency Working Group on Alaska Energy--Deputy 
Secretary Hayes was intimately involved in the Interagency Working 
Group on Alaska Energy. This group is vital to bringing the appropriate 
parties to the table to move large infrastructure and development 
projects forward. The group will also be important to any national 
Arctic strategy efforts. Despite this group's exclusive focus on 
Alaska, state officials and experts have had to push for their 
involvement and input in the past.
    a. What are the Department's plans for this group's work product in 
the future?
    b. If confirmed, what level of involvement will you have with the 
Group?
    c. Will you commit to consulting with the State of Alaska so that 
those who are most experienced and affected by the working group's 
decisions can directly participate?
    Answer. The Department is actively engaged in efforts to support 
the Administration's commitment to facilitating a comprehensive, 
science-based approach to energy policy in the rapidly changing Arctic. 
I know that the Interagency Working Group on Alaska Energy was 
established by Executive Order to coordinate federal agencies 
responsible for overseeing the safe, responsible, and efficient 
development of onshore and offshore energy in Alaska with a focus on 
interagency coordination, information sharing, science-driven long-term 
planning and stakeholder engagement. If confirmed as deputy secretary, 
I will serve as Chair of the Working Group.
    I believe that it is imperative for the exploration and development 
of Alaska's immense natural resources to be rooted in strong federal, 
state and Native partnerships, robust public input and inclusive and 
transparent planning. If confirmed, I will work with Secretary Jewell 
and our team at Interior to build upon the good work of my predecessor, 
David Hayes, in promoting resource management decisions in the Arctic 
that integrate science-based, cultural, environmental, and economic 
factors, as well as consultation with the State and all interested 
stakeholders. Further, our efforts will align with the related efforts 
in developing the National Strategy for the Arctic Region and ensure 
that these resources are explored and developed safely and responsibly 
and in a manner that respects traditional knowledge of Native 
communities and benefits local communities without compromising the 
region's rich and fragile ecosystems.
    Question 11. BLM Land Use in Alaska--The Bureau of Land Management 
has undertaken a variety of troubling actions that are increasingly 
limiting uses on the enormous amount of ``multiple-use'' BLM lands in 
Alaska. These lands are to be managed for the public so that the people 
of the country can use the lands in a variety of ways.
    a. Can you commit to expanding rather than restricting the rights 
of Alaskans to access and use their federal lands?
    Answer. I am committed to working closely with stakeholders in the 
State to maintain legal access to public lands for multiple uses and 
expand that access where appropriate. It is the responsibility of the 
Department of the Interior to sustain the health, diversity, and 
productivity of America's public lands for the use and enjoyment of 
current and future generations. This is especially true in Alaska, 
where a large percentage of the land is managed by the federal 
government and the resources are so vital to the economy of the State 
and to the people, including Alaska Natives.
    b. In this same vein, BLM has recently claimed that access cannot 
be granted to state-selected BLM lands for mining exploration. This 
reverses thirty years of existing policy and limits both private 
businesses and the State from delineating valuable natural resources on 
these lands. Can you commit to addressing this access problem and 
supporting the State's interests in mineral exploration?
    Answer. If confirmed, I will work closely with the Department's 
Solicitor's Office and the BLM to expedite review of the Secretary's 
authority to issue permits on State-selected lands.
    Question 12. EPA Raid--The most troubling example of federal 
overreach is the recent raid on Alaskan miners led by the EPA's 
environmental crimes unit.
    a. What role did DOI have in this raid, including information 
sharing or planning assistance?
    Answer. While I am not familiar with this issue, I am told that the 
EPA-led Fortymile River initiative was a joint federal-State effort to 
identify and investigate reported mining-related water quality 
violations in the Fortymile Mining District. Participating agencies 
were the EPA; the Alaska Department of Environmental Conservation, 
Environmental Crimes Unit; and the Alaska Department of Law, Office of 
Special Prosecutions; the BLM; and U.S. Attorney's Office for the 
District of Alaska. I am advised that four BLM law enforcement officers 
participated in the operation. The BLM's field station in Chicken, 
Alaska, served as a staging area and a BLM fixed-wing aircraft was used 
to fly over the area.
    Question 12b. What knowledge did DOI have of this raid before it 
was carried out?
    Answer. The BLM has advised me that, as a member of the joint 
federal-State team, BLM's Office of Law Enforcement and Security 
participated in the operation.
    Question 12c. How was it determined that these extreme methods 
should be used for this raid?
    Answer. I understand that a total of eight federal and State law 
enforcement officers were on the ground during the operation, divided 
into two teams of four. Two members of the team contacted the mining 
claimant to explain the purpose of the visit while the other two 
members of the team took water samples. I am told that at the 
conclusion of the operation, both ground teams reported cordial 
interactions with virtually all the claimants/operators contacted.
    Question 12d. Was BLM or DOI involved in this decision making? If 
so, please describe in detail how and why either agency was involved.
    Answer. As a member of the federal-State team, the BLM's Office of 
Law Enforcement and Security participated in the operation.
    According to the BLM, the Fortymile Mining District lies within the 
Fortymile River drainage, portions of which are a designated National 
Wild and Scenic River managed by the BLM, and the area contains dozens 
of federal and State mining claims with the BLM responsible for 
administering the federal claims. While the EPA has primary authority 
for enforcement of the Clean Water Act, the Department is responsible 
for enforcement of environmental laws and regulations related to mining 
impacts on BLM-managed resources, including mining activities conducted 
under BLM-issued permits.
    Question 12e. What policies would you implement at DOI to ensure 
that these kinds of dangerous and threatening raids are not carried out 
by the agencies you would be responsible for in the future, if you are 
confirmed?
    Answer. If confirmed, I would work with the BLM and other Interior 
bureaus to ensure that they closely coordinate and communicate with 
state and local authorities and use their enforcement authority 
appropriately.
    Question 13. RS 2477 Trails--Recognizing that numerous RS 2477 
trails have historical and factual questions that need resolution and 
will likely be litigated, still, there are many trails that the State 
and BLM agree are both valid and open.
    a. For RS 2477 trails upon which both the State and BLM agree are 
valid and open, can BLM use a recordable disclaimer of interest process 
to simplify their use? If not, why not? If so, can you commit to using 
a recordable disclaimer of interest process?
    Answer. I am aware that the Department, through the BLM, is trying 
to build a constructive, inclusive solution to the issue of RS 2477 
rights-of-way. I am committed to continuing this approach, which may 
help establish a model for consensus-based problem solving that can be 
applied to resolve any potential future RS 2477 claims.

   Responses of Michael L. Connor to Questions From Senator Landrieu

    Question 14. As Deputy Director of the Department of the Interior, 
you would be in a position to oversee the operations of the Burueau of 
Safety and Environmental Enforcement- the agency tasked with oversight 
and investigation into the operations of oil and gas operators in the 
Federal OCS. I want to bring your attention to an issue currently 
facing BSEE. In 2004, during Hurricane Ivan, one of Taylor Energy's 
rigs collapsed, and sank into the mud on the seafloor. All site 
assessments by the BSEE, outside groups and Taylor Energy itself have 
indicated that leakage from the rig is infinitesimally minimal, and 
that by any reasonable measure the rig is unrecoverable. Despite this, 
over $400 million of Taylor Energy's assets are currently held in a 
fund by BSEE that is earmarked for recovery operations. It has become 
clear that there is no path forward, and that the entirety of this 
money serves no purpose in this fund. Do you have a plan to spur action 
on the part of BSEE to resolve the issue and release at least some 
portion of these funds? What would this plan look like?
    Answer. I am not familiar with this specific issue but have been 
informed that BSEE continues to be in discussions with Taylor Energy on 
this matter and is working in close consultation with its federal 
partners in an effort to resolve these issues and to ensure that the 
site is handled responsibly. If confirmed, I will work with BSEE as it 
continues, along with Taylor and federal partners, to expeditiously 
develop a long-term solution that is consistent with obligations under 
the Outer Continental Shelf Lands Act and protects the resources of the 
Gulf of Mexico.
    Question 15. What do you plan to do in your position as the Deputy 
Director of Interior to ensure that coastal states are able to benefit 
from offshore energy production in a fashion similar to that of onshore 
states, which have enjoyed a longstanding partnership with the Federal 
government?
    Answer. As I indicated in response to a similar question from 
Senator Murkowski, the Administration is mindful of the long-held view 
that coastal states should share the benefits of energy development 
that takes place offshore and currently implements statutory revenue 
sharing under existing law. With respect to possibly changing existing 
law, the Administration's testimony on the FAIR Act outlines several 
principles that are key to any potential new approach to revenue 
sharing. I know this is an issue that you care deeply about and, if 
confirmed, I commit to meeting with you in an effort to find any common 
ground that may exist and to work toward a path forward.
    Question 16. What do you plan to do to ensure that the devastating 
coastal erosion being suffered by Louisiana and the rest of the Gulf is 
stopped, and that marshlands and barrier islands destroyed by large 
scale mismanagement of the Mississippi river are rebuilt or restored?
    Answer. I know that the Mississippi River Delta and its coastal 
wetlands and barrier islands is a natural asset of tremendous value to 
the nation, supporting important shipping, energy, seafood, and 
recreation industries. It also provides extensive coastal habitats for 
a variety of fish and wildlife.
    Protecting and restoring this highly productive and important 
ecosystem is a priority, but I believe it cannot be achieved by the 
Interior Department alone. Such an effort will require the coordinated 
and strategic actions of multiple partners, with federal efforts being 
complementary and building off of state coastal restoration planning 
efforts.
    I have been advised that the FWS, working with the Department, has 
developed a ``Vision for a Healthy Gulf of Mexico Watershed'' that 
identifies cooperative conservation strategies to implement in a number 
of conservation-focused areas. I look forward to learning more about 
these strategies and how they will be implemented to stop Louisiana's, 
and the Gulf's, coastal erosion; and facilitate restoration and 
recovery of this vital national asset. Should I be confirmed, I would 
be happy to further engage in a cooperative dialogue with you about how 
we can work together to address this complex issue.

   Responses of Michael L. Connor to Questions From Senator Barrasso

    Question 17. Mr. Connor, I'd like to inquire about sage grouse and 
the Endangered Species Act. The people of Wyoming are very concerned 
about the Fish and Wildlife Service's pending listing determination for 
this bird. As you know, BLM has begun an unprecedented effort to 
preclude the need to list the sage grouse. Specifically, BLM is in the 
process of revising approximately 88 Resource Management Plans. Within 
these Plans, BLM is including directions for how land managers should 
address the sage grouse under the National Environmental Policy Act.
    The potential habitat for the sage grouse- if listed-would cover 
most of Wyoming, Idaho, Montana, Nevada, and parts of Oregon and 
Colorado. The impact of such a listing on the economy and jobs in my 
state, and other western states, would be devastating.
    Will you commit your time and effort towards working to ensure that 
the greater sage grouse does not end up on the endangered species list?
    Will you work collaboratively with the governors of the appropriate 
states to find the best approach to manage the sage grouse?
    Answer. I share Secretary Jewell's view that collaboration is the 
key to effectively addressing the threats to sage grouse populations 
and, if confirmed, I will work hard alongside the Secretary to seek 
solutions to avoid the need to list the bird. I understand that the FWS 
and BLM continue to work together, along with state and local 
governments and landowners, in taking unprecedented conservation 
initiatives aimed at avoiding the need to list the species. I 
appreciate the work that states and private landowners have done and I 
look forward to coordinating with those stakeholders, including the 
governors of the appropriate states, in continuing this proactive 
approach.
    Question 18. Do you believe the Interior Department should 
prioritize wildfire prevention activities and our national parks and 
public lands' maintenance backlog ahead of spending money to acquire 
more land?
    Answer. I know that protecting lives, communities, and our natural 
resources from wildfires and addressing the maintenance backlog at our 
national parks and public lands are critically important issues that 
must be addressed by the Department. At the same time, land acquisition 
is a long-term investment that is part of a balanced approach intended 
to protect our natural and cultural treasures. By acquiring land 
strategically, the Department is able to join with partners to conserve 
significant landscapes before they require more expensive efforts to 
sustain them, resolve conflict, and reduce landscape fragmentation. 
Accordingly, land acquisition can make it more efficient to protect 
wildlife habitat, respond to wildfires and other natural disasters, and 
to improve access to recreational opportunities.
    Question 19. The BLM has a multiple use mission as set forth in the 
Federal Land Policy and Management Act of 1976 to manage public land 
resources for a variety of uses, such as energy development, livestock 
grazing, recreation, and timber harvesting. If confirmed, what actions 
are you going to take to ensure the BLM meets this statutory multiple 
use mandate?
    Answer. I believe that multiple use is best achieved when we manage 
our public lands in a manner that helps ensure balanced use. Regardless 
of whether public land use involves hunters or anglers, mountain 
bikers, OHVers, oil and gas development companies, or others, it is 
important to get people to the table to work together to find common 
ground. If confirmed, I commit to pursuing cooperative efforts grounded 
in a fundamental recognition of the legitimate interests of affected 
stakeholders and to working to achieve certainty and clarity on 
resource management issues.
    Question 20. I have introduced the Grazing Improvement Act. The Act 
would extend the term of Federal grazing permits from 10 to 20 years 
and streamline the renewal process for grazing permits. It also 
restores the BLM's the ability to use categorical exclusions.
    Do you view livestock grazing as primarily a commodity use of 
public lands or a tool for the proper management of these lands?
    Do you support giving the BLM the ability to utilize categorical 
exclusions?
    Answer. Like Secretary Jewell, I believe strongly that livestock 
operations on public lands are important to the economic well-being and 
cultural identity of Western communities, and that at the right levels 
and timing, grazing can serve as an important vegetation management 
tool in maintaining rangeland health and meeting rangeland health 
standards. While I am not familiar with the specifics of categorical 
exclusions in the management of grazing, I am aware that the engagement 
of the public through the environmental review process is a crucial 
component in the BLM's multiple-use management of public lands. As I 
stated in my confirmation hearing, I am committed to providing 
stakeholders on public lands with certainty and clarity on resource 
management issues.
    Question 21. How will you strive to improve the relationship 
between the agency and stakeholders who hold grazing permits on public 
lands?
    Answer. Throughout my tenure as Commissioner of the Bureau of 
Reclamation, I have been committed to bringing people together to find 
common ground and solutions to difficult issues. As I pointed out in my 
confirmation hearing, Secretary Jewell has charted the right course 
with her substantive engagement on the challenging issues we face and 
her clear commitment to ensuring that the Department will be guided by 
transparency and integrity in carrying out its mission. If confirmed, I 
will work with stakeholders, including ranchers, to ensure that the 
public lands are sustainably managed for multiple uses, including 
livestock grazing.
    Question 22. The Interior department is running out of options to 
deal with excessive wild horses on BLM land and feral horses in Indian 
Country. The long and short term holding facilities are full, fertility 
control is too extensive and ineffective, and horses are overgrazing 
riparian areas and destroying wildlife habitat. What BLM administrative 
or policy changes do you believe would improve the implementation of 
the 1971 Wild Horse and Burro Act to reduce cost and improve compliance 
with Appropriate Management Levels in the west to avoid severe 
overgrazing?
    Answer. Although I am not familiar with the details of the BLM's 
holding facilities or ongoing fertility control efforts, I am aware 
that wild horses and burros pose unique on-the-range management 
challenges. I understand the BLM is continuing to develop and implement 
a targeted strategy informed by the National Academy of Sciences' 
recent review, while also working to find ways to make the program more 
effective and sustainable within the existing statutory framework. If 
confirmed, I look forward to continuing a collaborative process with 
affected stakeholders to implement cost-effective and ecologically 
sustainable strategies that are informed by the best available science 
and maintain healthy public rangelands.
    Question 23. What role do you believe state and local governments 
play in defining the appropriate multiple use and sustained yield 
standard within their jurisdictions?
    Answer. I am committed to public engagement and connecting with 
state and local communities. State and local governments play a vitally 
important role here, just as tribes, stakeholders and communities do as 
well. The Department and the BLM seek and welcome input from the public 
and all our stakeholders during the land-use planning process and in 
the course of evaluating other land-use and resource management 
decisions. If confirmed, I look forward to working with state and local 
governments, as well as a variety of partners in the management of the 
nation's public lands.
    Question 24. In his State of the Union Address, President Obama 
said that his ``administration will keep cutting red tape and speeding 
up new oil and gas permits.'' If confirmed, what would you do to speed 
up oil and gas permitting on Federal public lands? Please address 
whether you would: (1) expedite the leasing process; (2) expand the use 
of categorical exclusions under NEPA; (3) eliminate the requirement for 
Master Leasing Plans; and (4) deploy ``strike teams,'' such as those 
used in North Dakota, to reduce permitting backlogs.
    Answer. Like Secretary Jewell, I understand that businesses need 
clarity, certainty, and predictability and that our oil and gas 
resources are vital to our nation's economy, but that they must be 
developed in a safe and environmentally responsible manner. If 
confirmed, I would continue to strive toward maximizing program 
efficiency to ensure that the BLM implements modern best practices to 
ensure efficient processing of pending and new permit applications 
while also promoting safety and environmental responsibility.
    Question 25. Over the last few years, the Department has expedited 
environmental impact statements under NEPA for a number of large scale 
renewable energy projects on Federal public lands. If confirmed, what 
steps, if any, would you take to expedite environmental impact 
statements for large scale coal, oil and gas, and uranium projects on 
Federal public lands?
    Answer. I would seek efficiencies to processes that save both time 
and money, and to improve processes both at the Department of the 
Interior and its bureaus as well as with other federal and state 
agencies and tribes. I understand the importance of providing certainty 
when it comes to land management decisions that affect the private 
sector and the public. In addition, I would work with and fully engage 
elected officials, industry, and the many and varied users of the 
public lands to address the need for robust domestic energy production.
    Question 26. BLM managers undertook a review of Wilderness Study 
Areas and found many of these areas unsuitable for designation as 
wilderness; however, these lands continue to be managed in a 
restrictive fashion as WSAs. With the threat and cost of fire 
suppression growing due to greater fuel load and passive management 
over the last three decades, many of these areas are a severe wildfire 
waiting to happen. Such wildfires hurt wildlife habitat, increase 
erosion, pollute waterways, and create water quality problems and costs 
for communities. Would you support the clear direction and 
recommendations of BLM officials to release these areas to allow for 
suitable management to prevent wildfires?
    Answer. If confirmed, I would welcome the opportunity to work with 
Congress to resolve issues of wilderness designation and WSA release. 
Prevention of wildfires is an important component of the Department's 
Wildland Fire Management Program. My understanding is that the 
Department's fuels reduction efforts prioritize projects in areas that 
result in the mitigation of risks to communities and their values.
    Question 27. The LWCF Act will be up for reauthorization in 2015. 
Will you pledge to work with Congress and state and local parks and 
recreation officials to make appropriate changes to the Act to restore 
the original intent of the fund?
    Answer. I support the Administration's commitment to full funding 
of the Land and Water Conservation Fund, which will provide needed 
stability for agencies and States to make strategic, long-term 
investments in our natural infrastructure and outdoor economy to 
support jobs, preserve natural and cultural resources, bolster outdoor 
recreation opportunities, and protect wildlife. If confirmed, I look 
forward to working with the Congress and other stakeholders to explore 
opportunities to address this issue.
    Question 28. How effective do you believe the Endangered Species 
Act (ESA) has been over the past few decades? Do you think there are 
improvements that are needed to modernize it for current society and 
ecological needs?
    Answer. I believe that the Endangered Species Act (ESA) has been 
effective in achieving its primary objective: to prevent the extinction 
of plants and animals in the U.S. At the same time, there is always a 
need to improve implementation to be more responsive to both the needs 
of species and to the ideas and concerns of citizens. I know that the 
Department, along with the Department of Commerce, has identified 
several administrative improvements to the regulations implementing the 
ESA as priorities to undertake in response to Executive Order 13563 on 
``Improving Regulation and Regulatory Review.'' If confirmed, I look 
forward to supporting these and other administrative efforts to improve 
and modernize implementation of the ESA.
    Question 29. As you know, in 2011, there was a closed-door 
settlement agreement between the Fish & Wildlife Service (FWS) and two 
environmental groups that led to a six-year listing work plan for the 
FWS to review and potentially list more than 250 species. Many of these 
species have potential habitat that combined covers most of the Western 
States. However, none of the affected states or communities were a 
party to the agreement. Do you believe that is an open and transparent 
way to make public policy that significantly impacts Americans?
    Answer. I have been advised that the MDL settlements committed the 
FWS to make listing determinations required by the ESA for 251 species 
on a workable and publicly available schedule. The settlements did not 
commit the FWS to add these species to the list; rather, they committed 
the FWS to make a determination by a date certain as to whether listing 
was still warranted and, if so, to publish a proposed rule--subject to 
public notice and comment--to initiate the rulemaking process of adding 
a species to the list. The settlement agreements enable stakeholders to 
know in advance when the FWS will be reviewing these candidates to 
determine whether a listing proposal is still warranted.
    I believe that sustained engagement with partners and the public 
will best serve improved and innovative ways to conserve and recover 
imperiled species. If confirmed, I will work to ensure that the ESA is 
implemented in a manner that is responsive to both the needs of 
imperiled resources and the concerns of local communities.
    Question 30. What are your thoughts on administrative or policy 
improvements to the implementation of the ESA? Can and should changes 
be made to reduce legal challenges?
    Answer. As I stated in response to a previous question, I am aware 
of planned administrative and policy improvements to the ESA that the 
Department has identified as priorities in response to Executive Order 
13563, ``Improving Regulation and Regulatory Review.'' I support 
efforts like these and, if confirmed, would support similar efforts in 
the future.
    With regard to legal challenges, I realize that lawsuits can 
sometimes frustrate agency objectives in allocating limited resources 
to accomplish conservation goals. My understanding is that this 
Administration has succeeded in dramatically reducing the amount of ESA 
litigation in recent years. If confirmed, I look forward to working 
with you and the Committee to discuss implementation of the ESA and 
ways to improve it.
    Question 31. The Endangered Species Act (ESA) has been one of the 
most abused federal Acts in recent memory. Special interest 
organizations have broken the financial back of the Fish and Wildlife 
Service (FSW) by filing petitions to list thousands of species knowing 
that it would be impossible for the FWS to respond under the required 
deadlines. Even worse these litigants continue the onslaught by suing 
the FWS for failing to meet arbitrary deadlines. The net result is less 
federal funding for conservation, and millions of dollars in attorney 
fees to these litigants. And with the ESA only having a 1 percent 
success rate of delistings, it only stands to reason that these 
litigants have further crippled the ability for conservation success. 
Would you support amending the ESA to give the FWS more discretion to 
respond to these mass litigants and reduce government dollars being 
wasted on abusive litigation?
    Answer. As I noted in response to the previous question, I realize 
that lawsuits can sometimes frustrate agency objectives in allocating 
limited resources to accomplish conservation goals. My understanding is 
that this Administration has succeeded in dramatically reducing the 
amount of ESA litigation in recent years. If confirmed, I look forward 
to working with you and the Committee to discuss implementation of the 
ESA and ways to improve it.
    Question 32. Currently, wealthy non-profits that file process-based 
lawsuits against the government concerning ESA listing decisions, 
grazing permit renewals and other DOI decisions have access to taxpayer 
dollars. Do you believe this should occur for organizations worth tens 
of millions of dollars?
    Answer. I understand that the ESA's citizen suit provisions and the 
Equal Access to Justice Act provide mechanisms for parties that sue the 
Government to challenge decisions or inaction and prevail to recover 
reasonable attorney fees. I would defer to the Department of Justice on 
whether a means test could be built into those authorities and still be 
fair and equitable. I am generally concerned about the costs of 
litigation and if confirmed will work to reduce those costs.
    Question 33. How can the administration facilitate the NEPA process 
in a manner that reduces opportunities for lawsuits from extreme groups 
opposed to multiple use?
    Answer. Each year federal agencies conduct hundreds of thousands of 
actions, yet I understand that the amount of litigation on these is 
relatively small. Modernizing NEPA to better assist federal agencies to 
meet the goals of NEPA, enhance the quality of public involvement in 
governmental decisions, ensure compliance in a more timely fashion, 
increase transparency, and improve its implementation is a priority of 
the Administration. If confirmed, I will support this effort as it 
applies to the multiple uses of our public lands and other activities 
of the Department.
    Question 34. Do you believe we can predict what the weather will be 
in Wyoming or any other State 10, 20 or 50 years from now with any 
accuracy, and what the impact will be to the landscape from that 
weather?
    If you cannot predict with any accuracy, how will U.S. taxpayer 
investments today to protect species decades from now based on 
inaccurate computer models guarantee any success?
    Answer. As Secretary Jewell noted in response to a similar question 
during her confirmation, while we cannot predict with certainty either 
day-to-day weather or its impact on the landscape in 5, 10, or 50 
years, the consensus in the scientific community is that climate change 
is a reality. As the manager and steward of 20 percent of the nation's 
lands, thousands of miles of coastline, and nearly two billion acres on 
the Outer Continental Shelf, as well as water, fish, wildlife, and 
other natural resources, the Department has to make management 
decisions today based on the best scientific information available and 
consistent with applicable law. The Department will continue to manage 
the public's lands to increase their resiliency in a changing climate.
    Question 35. In your opinion, what is the difference between the 
terms ``extreme weather'' and anthropogenic, man-made ``climate 
change''?
    Answer. While I am not a climate scientist, I would describe 
``extreme weather'' as short-term regional climate phenomena and 
``climate change'' as a more long-term trend.
    Question 36. Water is the lifeblood of western states, with the 
Bureau of Reclamation providing much of that water to our communities. 
My home State of Wyoming alone has a series of proposed water storage 
projects that will need to go through the currently lengthy and 
burdensome permitting process. Will you commit to expedite the approval 
of new water storage projects in the West to provide for rural 
communities that are in need?
    Answer. There are roughly three dozen Reclamation dam projects, 
project features or other storage facilities across the West that were 
authorized by Congress but, were never funded or constructed. The 
situations vary, but the most frequent causes center around 
questionable economics or an inadequate potential water market, making 
the required repayment obligation prohibitive for the potential 
beneficiaries. In addition, new societal priorities and scientific 
advancements have brought increased focus on efficient management, 
wastewater reclamation, and conservation to meet communities' needs. In 
addition to operating and maintaining our existing projects, these 
priorities have become central parts of the Reclamation mission today, 
and some of them yield significant quantities of new water supply in a 
very cost efficient manner. New storage projects will also be needed to 
address the water supply challenges facing the West. If confirmed, I 
will work with the Congress to expedite any projects that provide net 
economic benefits, are fiscally sound and can be constructed and 
operated consistent with existing environmental laws.
    Question 37. As part of the Cobell v. Salazar settlement agreement, 
approximately $1.9 billion was funded for the fractionated Indian land 
purchase program. This program provides an opportunity for meaningful 
tribal participation and input into the buy-back decisions and program 
implementation.
    If confirmed, what type of active role will you take in this 
program in working with Indian tribes to address their concerns of 
participation and input to the fullest extent practicable in light of 
the settlement agreement and the Claims Resolution Act of 2010?
    Answer. If confirmed, I will take an active role in the buy-back 
program. The Department's intent is for the implementation plan to be 
flexible and continually updated to reflect lessons-learned, best 
practices, and tribal involvement. I have been advised that an initial 
plan was published last year, and the program is currently drafting an 
updated implementation plan that responds to comments and concerns 
received during government-to-government consultations from January to 
March 2013, among other things.
    Question 38a. There are a number of different water delivery-
related projects administered by the Bureau of Indian Affairs, 
including the Wind River Irrigation Project (WRIP) on the Wind River 
Indian reservation in Wyoming. According to a 2006 Government 
Accountability Office (GAO) report entitled, ``Indian Irrigation 
Projects: Numerous Issues Need to Be Addressed to Improve Project 
Management and Financial Sustainability,'' Report No. GAO-06-314, there 
is a significant backlog in irrigation project repair and maintenance 
for many of these projects.
    At a prior Committee hearing, ``To Receive the Views of Ken 
Salazar, Secretary of the Interior, on Matters of Indian Affairs,'' in 
February 12, 2009, Secretary Salazar committed to review these 
irrigation issues. At the Committee hearing, ``To Receive the Views and 
Priorities of Interior Secretary Jewell with Regard to Matters of 
Indian Affairs,'' on May 15, 2013, Secretary Jewell also committed to 
have Department officials work to figure out how to address these 
issues.
    If confirmed, will addressing these deferred maintenance problems 
identified in the 2006 GAO Report be a priority?
    Answer. My understanding is that the current deferred maintenance 
estimate of $609 million reflects the results of completed condition 
assessments at 12 Projects of the 16 irrigation projects, and a partial 
study completion at Navajo Indian Irrigation Projects (NIIP). As the 
final condition assessments at Wapato, San Carlos Irrigation Project 
(SCIP) Indian Works, SCIP-Joint Works, and NIIP are finalized, the 
deferred maintenance estimate will improve even further. The challenge 
within the BIA is the strong need for funding in all of our programs, 
such as law enforcement, education, and social services. Funding 
reductions to existing programs to pay for irrigation improvements may 
not align with competing priorities among the Tribes we serve. I will 
work closely with BIA leadership and the Congress to examine potential 
approaches through new funding sources.
    Question 39b. If confirmed, how will you provide leadership in 
developing a more comprehensive plan of action for the future of the 
Bureau of Indian Affairs irrigation projects?
    Answer. If confirmed, I will meet with BIA leadership to assess 
their work to date and be actively involved in developing a plan of 
action for the future of their irrigation projects. I would be pleased 
to provide briefings to you and your staff as we move forward.
    Question 39. High crime rates, emerging prescription drug abuse, 
lack of detention facilities, insufficient funding, high declination 
rates for Federal prosecutions, and recidivism remain challenges for 
Indian Country law enforcement, detention, and tribal courts. Congress 
passed the Tribal Law and Order Act to begin addressing these issues. 
In addition, Congress funded the High Priority Performance Goal pilot 
program through the Bureau of Indian Affairs, with one of the four 
initial sites located on the Wind River Indian Reservation.
    If confirmed, how do you plan to continue implementing this pilot 
program on the Wind River Indian Reservation?
    Answer. BIA has informed me that, as part of the FY 2010 pilot 
program, the recurring base of BIA public safety resources supporting 
the Wind River Indian Reservation was increased by 133 percent over the 
FY 2009 funding level. This higher funding level has continued, and 
will continue in the future so that all three components of the Wind 
River public safety system can continue to address the unique and 
significant public safety challenges on the reservation.
    If confirmed, how do you plan to coordinate more effectively with 
the Department of Justice to address crimes rates on Indian lands?
    Answer. I have been informed that in April of 2013, the Bureau of 
Indian Affairs--Office of Justice Services and the Department of 
Justice--Office of Tribal Justice entered into a MOU regarding placing 
an OJS employee within the OTJ to serve at a liaison between the two 
offices. It is my understanding that the intent of this MOU is to 
facilitate and coordinate information sharing between the Department of 
Justice and the Department of the Interior concerning public safety 
matters in Indian Country. If confirmed, I will see to it that the 
Department continues to be fully engaged with its partners and seek new 
opportunities to reduce the crime rates in Indian Country.
    Question 40. There is significant potential for energy development 
on American Indian and Alaska Native lands. The Energy Policy Act of 
2005 authorized Tribal Energy Resource Agreements (TERAs) to facilitate 
energy development on tribal trust lands and to bypass cumbersome 
bureaucracy.
    Please explain your views on how the Department can best assist 
Indian tribes that wish to develop their trust energy resources in 
achieving their goals.
    Answer. I was personally involved in developing the TERA provisions 
of the Energy Policy Act of 2005 and therefore fully understand that 
facilitating the development of tribal energy resources is a key way to 
spur economic development in Indian Country. I am aware that the Office 
of Indian Energy and Economic Development assists Tribes in the 
development of energy resources in furtherance of the goal of Indian 
Self-Determination, and accomplishes this by providing technical 
assistance to build the technical and managerial capabilities of Tribes 
over the development of their energy resources. I understand that IEED 
also meets with Tribes to improve how it can best assist Tribes that 
wish to develop their energy resources. To further improve this 
process, the Department will consider compiling best practices, 
identifying model energy policies and codes, and providing additional 
training and other assistance to Tribes. If I am confirmed, I look 
forward to learning more about this issue and the ways that the 
Department's bureaus can help Tribest that wish to develop their energy 
resources.
    Question 41. The justification for the costly Moose Wilson Road EIS 
is the presence of grizzly bears in the area which Grand Teton National 
Park says were not present before 2010.
    If grizzly bear presence would limit use on a 150 year established 
road corridor that predates the park establishment, doesn't that 
potentially affect many uses in addition-- limiting hiking, biking, 
horseback riding and pedestrian uses throughout federal lands where a 
grizzly bear population is present?
    If that is the case, recreational users across this country need to 
take note of the unusual precedent GTNP is trying to establish with 
NEPA.
    Answer. Although I am not familiar with the specifics of this 
issue, I understand that the NPS considers the increased presence and 
frequency of grizzly bears in the Moose--Wilson Corridor of Grand Teton 
National Park to be a changed circumstance, and important in evaluating 
how that area of the park should be managed and the resulting 
environmental impacts. I also understand that the NPS and other federal 
agencies have for decades regulated the use of lands where grizzly 
bears are present, such as through food storage requirements and other 
measures. Consequently, this planning effort would not set a new 
precedent for other federal lands.
    Question 42. What was the total cost of the 2007 transportation 
FEIS in Grand Teton National Park?
    Do you believe a new EIS less than 6 years from a comprehensive 
FEIS that fully analyzed the same 8 miles is necessary?
    In this case do you believe an environmental assessment is more 
appropriate to study the road corridor?
    Answer. I understand that the cost of the Grand Teton National Park 
Transportation Plan/Environmental Impact Statement, completed in 2007, 
was approximately $1 million. I also understand that, to expedite the 
environmental review process and to limit costs, the NPS has decided to 
conduct an EIS on the Moose-Wilson Road Corridor because the 2007 
Transportation Plan did not evaluate that corridor in a comprehensive 
manner, nor did it evaluate the issues that have emerged since 2007. I 
support compliance with the National Environmental Policy Act in a 
timely, transparent, and cost-effective fashion, and if confirmed I 
will learn more about this issue.
    Question 43. In 2012, Grand Teton National Park announced that the 
Park would be closing the Moose-Wilson Road to one-way traffic without 
any input from the gateway community. While this decision was 
ultimately delayed by the Park Service, our small businesses and park 
visitors still have public access concerns with the Park Service's 
efforts to close the road. In 1977, at the request of the U.S. 
government, Laurance S. Rockefeller granted an easement and right-of-
way for the Moose-Wilson Road for ``public and governmental use.''
    Can you provide assurances that the Park Service will abide by this 
easement to ensure that this road remains open for public access as Mr. 
Rockefeller intended?
    Answer. As I mentioned in my response above, I am unfamiliar with 
the specifics of this issue. However, I appreciate the importance of 
the local community's desire for public access, and believe that 
community engagement is a necessary part of addressing this issue. I 
understand that, regardless of actions that may be implemented in the 
future as a result of the upcoming planning effort, the NPS intends 
that its management of the Moose-Wilson Road will be consistent with 
any legal requirements. If confirmed, I look forward to learning more 
about this important issue.
    Question 44. Mr. Connor, if confirmed as Deputy Secretary you would 
be in a position to manage the various interests of the respective 
agencies with the Department of the Interior. With your current 
position in mind, how would you manage the different interests and 
sometimes competing missions of the sister agencies within the 
Department when making policy decisions? For example, in your view, 
what role or influence should the National Park Service have as a 
cooperating agency when the Bureau of Land Management is developing a 
resource management plan for BLM lands?
    Answer. With regard to use of the public lands, it is important to 
get all interested stakeholders to the table to try and find common 
ground. As I noted at my hearing, I believe we should take a balanced 
approach to all the multiple uses of our public lands. I understand the 
idea behind the cooperating agency role is to improve communication. I 
believe such coordination is key to good decision-making, but it is 
important to make clear the roles of cooperating agencies and the 
various statutory and regulatory requirements applicable to the 
process.

    Response of Michael L. Connor to Question From Senator Cantwell

    Question 45. Commissioner Connor, this year the State of Washington 
committed $137 million towards the Yakima Basin Water Enhancement Plan/
Yakima Basin Water Enhancement Project. This Plan was endorsed by the 
Bureau of Reclamation in a Record of Decision issued earlier this year. 
This project is very important to Washington State. Yakima Basin has 
suffered two severe droughts since 2001 that resulted in $335 million 
of economic damage as well as damage to fish and wildlife. The Basin is 
home to an agriculture industry that generates more than $1 billion in 
value and supports tens of thousands of jobs across Washington, from 
fields to ports.
    Can you commit, that if confirmed, you will work as hard as 
possible to take the first step towards matching Washington State's 
commitment to this project by significantly increasing the Departments 
FY15 budget request for the Yakima River Basin Water Enhancement 
Project?
    Answer. The Yakima Basin Integrated Water Resource Management Plan 
is a basin-wide restoration plan collaboratively developed by diverse 
stakeholders to benefit fish and improve water reliability. To date, 
the Department has provided $3.8 million for Integrated Plan 
activities. If FY 2014 appropriations are enacted consistent with the 
President's request, the Integrated Plan and the Yakima River Basin 
Water Enhancement Project will receive a total of $8 million in federal 
funding in 2014, of which $1 million is targeted toward the Integrated 
Plan. It is my understanding that the State legislation contemplates 
matching funds compiled from local, private, and federal sources. 
Reclamation's involvement in advancing many of the Integrated Plan 
activities, including those that address additional surface water 
storage, structural changes, and providing for downstream fish passage 
at Cle Elum, would be dependent on legislation to provide authority 
and/or additional cost ceiling. If confirmed, I will continue the 
cooperative relationship with the State to collaboratively further the 
goals of the Integrated Plan.

     Responses of Michael L. Connor to Questions From Senator Flake

    Question 46. Do you believe the Department of the Interior should 
hold a public hearing in Arizona on the proposed Mexican wolf 
rulemakings before the close of the current public comment period on 
October 28?
    Answer. Public involvement is an essential part of the rulemaking 
process, helping to inform both the agency and the affected public. I 
understand that the Fish and Wildlife Service has received several 
requests to hold a public hearing in Arizona and is considering when 
and where it might be able to do so.
    Question 47. During the hearing you stated that water leasing is 
one of the most critical tools available to address water resource 
issues in the West, as it could be used to ``maintain certainty and 
reliability'' with respect to water use and power generation. Water, 
however, is unlike other commodities; it plays a critical role in 
essential human functions, while also serving as an important component 
for agricultural and industrial uses. As such, it seems that any sort 
of water marketing scheme would require minimum procedural safeguards. 
What procedural safeguards should be considered when creating a water 
market?
    Answer. There are a number of procedural safeguards that currently 
exist with respect to water leasing. For example, state water rights 
systems generally govern the timing, place and type of use of water, 
and govern changes to the use of water rights arising under state law 
to ensure that other water rights are not adversely affected. With 
respect to Indian water rights settlements, federal statutory 
safeguards exist. In addition, general Reclamation law, project-
specific statutes, and policy provide terms and conditions for water 
leasing. For example, a 1920 statute provides authority to lease water 
for various purposes and requires the current water users to approve 
the lease. The existing array of federal and state law and policy 
provides for the most part both the flexibility and necessary 
protections to address water leasing. An example of a vibrant water 
market is in northeastern Colorado, where the Northern Colorado Water 
Conservancy District, the operating entity for Reclamation's Colorado-
Big Thompson Project, operates a water market with project water.
    Question 48. Should the leasing of water rights be limited to use 
within the watershed or basin of origin?
    Answer. Numerous Reclamation projects provide for movement of water 
from one watershed or basin to the next. This has been accomplished by 
the stakeholders, the Department of the Interior, and Congress coming 
together to reach consensus on when, and under what conditions, water 
should move between watersheds and basins. State and federal law and 
policy provide a framework that examines the specifics of a leasing 
proposal to determine the feasibility of the proposal and any 
protections that should be imposed to ensure that other interests are 
not adversely affected.
    Question 49. Should leasing of water rights only be permitted to 
the extent that such rights have previously been beneficially used by 
the water right holder and actual water use is verifiably reduced by 
the water right holder (e.g., requiring fallowing or non-development 
agreements)?
    Answer. Protections appropriate for the specific project and 
leasing arrangements normally are conditions of such leasing and are 
determined pursuant to state and federal law, regulations and policy.
    Question 50. Should a water marketing scheme differ depending on 
the type or nature of the water right being marketed (e.g., surface 
water, reserved rights, decreed rights, riparian water rights states, 
prior appropriation rights, interstate transfers, etc.)?
    Answer. As I noted in response to a previous question, appropriate 
terms and conditions normally are included in water marketing/leasing 
proposals to address specific issues and requirements of such 
proposals, including compliance with applicable state and federal laws.
    Question 51. If the marketed water right has a federal component 
(e.g., Indian water rights) what role should the Secretary of the 
Interior play in approving a water rights lease?
    Answer. State and federal laws, regulations and policies govern the 
Secretary's role in water leasing. The majority of the congressionally 
approved Indian water rights settlements contain leasing provisions, 
which often define the role of the Secretary of the Interior. However, 
each marketing provision is unique, tailored to the agreements 
negotiated among the parties on a case-by-case basis.
    Question 52. What is the status of the Department of the Interior's 
current effort to resolve the water rights dispute in the Bill Williams 
watershed?
    Answer. The current discussions regarding the Bill Williams 
watershed have been occurring within the framework of an Indian water 
rights settlement process among the United States, the Hualapai Tribe, 
and Freeport-McMoRan due to its copper mining operations at Bagdad, 
Arizona. As committed to by Secretary Jewell during her confirmation 
process, the Department is providing high-level leadership and 
resources in all aspects of continuing negotiations to bring the 
settlement to closure. If confirmed, I will continue to work with 
Congress to resolve Indian water rights claims, including those related 
to the Bill Williams watershed.
    Question 53. While the Bill Williams negotiations are progressing, 
are there any actions that can be taken at the local level to preserve 
the anticipated environmental benefits without adding costs to the 
multi-species conservation program?
    Answer. The Lower Colorado River Multi-Species Conservation Program 
(LCR MSCP) is a multi-stakeholder program, including local entities, 
which provides Endangered Species Act coverage for Reclamation's 
ongoing and future river operations on the lower Colorado River. As the 
implementing agency, Recreation is implementing the Habitat 
Conservation Plan, which requires the establishment of over 8,100 acres 
of riparian and aquatic habitat. Reclamation has been involved in the 
Bill Williams River negotiations in the hope of securing Planet Ranch, 
a property owned by Freeport-McMoRan, for LCR MSCP purposes. 
Reclamation will continue to support the ongoing Bill Williams 
negotiations and other LCR MSCP activities to meet remaining HCP 
habitat requirements. If confirmed, I will continue to support 
Reclamation's activities, which include working with local entities, to 
implement this important HCP.

    Responses of Michael L. Connor to Questions From Senator Schatz

    Question 54. Mr. Connor, as you know, the Department of Interior is 
pursuing a policy of fast-tracking the permitting of renewable energy 
projects on public lands. The development of a clean energy economy and 
deployment of renewable energy is a priority to me, and I am encouraged 
to see the work being done at the Interior Department on this issue.
    In federal waters as well, Interior has been moving in the right 
direction, with the announcement two weeks ago of the completion of the 
second competitive lease sale for renewable energy in public waters.
    I would like to encourage you, in your new role, to build on this 
good work, and to also ensure that proper permitting and environmental 
oversight is not sacrificed as this fast-track process continues. I 
would like to hear your thoughts on how the Department will balance the 
benefits of increased renewable energy on public lands with the need to 
maintain strict environmental oversight of these important resources.
    Answer. I strongly support the President's vision for increasing 
the generation of clean energy through responsible development of 
renewable energy on the public lands and in federal waters. I also 
understand the importance of mitigating adverse impacts associated with 
renewable energy development. If confirmed, I will strongly support 
ongoing efforts by the bureaus within the Department to promote the 
environmentally-sound development of renewable energy, which will 
continue to create new jobs, increase access to clean energy, and 
reduce greenhouse gas emissions.
    Question 55. There has been a steady decline in the number of USGS 
stream gauges in Hawaii over recent years. The number of active USGS 
STREAM gauges in Hawai`i decreased from almost 200 in the late 1960s to 
fewer than 50 in 2010. And according to the USGS web site, additional 
gauges in Hawaii are threatened with closure. Maintaining a robust 
stream gauge network in Hawaii is important due to many of the unique 
aspects of our state, its hydrology, geography and our ongoing efforts 
to monitor and assess impacts of climate change. As impacts of climate 
variability and change are observed, long-term records of land and 
ocean variables can help us identify shifts between average conditions 
of the past and potential future condition. Long-term, reliable, global 
and local observations of variables such as air temperature, 
precipitation, sea-surface temperature, streamflow, and groundwater 
supply are critical to understand the evolving state of the Earth's 
climate. Having long term and high-quality scientific data is critical 
not only for understanding the dynamics of natural processes but also 
for ensuring the accuracy of models that simulate potential future 
impacts of climate change and variability. Continuous data collection 
and stewardship must be maintained to ensure that governments, 
researchers, and the public have access to reliable, high-quality data. 
Streams and rivers can flood very quickly in Hawaii, because when the 
rain falls in the mountains, it often has to flow through cities and 
populated areas to get to the ocean. The reduction in stream gauges 
makes it harder for us to predict and react to such flooding. In 
addition, numerous studies have shown declines in rainfall in Hawaii 
over the last 100 years, with the trend accelerating in the last 30 
years. Fresh water availability is a major issue in our state. Because 
of Hawaii's geographic isolation, we do not have the option of piping 
potable water in if we experience shortages. We need more monitoring 
and data about our fresh water flows, not less. Will you commit to work 
with me to reverse the decline in stream gauges in Hawaii and restore 
some of the gauges that have closed in recent decades?
    Answer. I agree with the importance of long-term records and the 
value of USGS streamgaging for assessing flood hazards and water 
availability in Hawaii. I am told that the USGS National Streamflow 
Information Program has identified 21 streamgages in Hawaii to be 
included in the federal-needs national streamgage network and has 
increased the funding for these streamgages by over 21 percent from 
2009 to 2012. Increasing the number of streamgages is a high priority 
for the USGS, particularly those useful for observing long-term trends 
related to climate change. I look forward to working with you to 
explore possibilities for restoring recently discontinued USGS 
streamgages in Hawaii so that water-resource managers have the 
streamflow information they need to make informed decisions.
    Question 56. There are several Bureau of Reclamation programs where 
it is unclear based on available information whether these programs are 
authorized for Reclamation states and territories under 43 U.S.C. 
Sec. 391, only for states within Reclamation's service area, or for all 
states. Examples of programs where eligibility is unclear include the 
Cooperative Watershed Management Program, the Shared Investment Water 
Innovation Program, and the Desalination and Water Purification 
Research Program. Is Hawaii eligible for funding under these programs? 
If eligibility for these programs is a matter of discretion for the 
Interior Department, will you make Hawaii an eligible state?
    Answer. Entities located in Hawaii are eligible to participate in 
the Desalination and Water Purification Research Program and have 
received at least one research grant in the past. Reclamation plans to 
implement the Shared Investment Water Innovation Program, which is 
proposed for funding for the first time in FY 2014, to include 
applicants for research funding located across the United States. 
Funding available for Reclamation's participation in the Cooperative 
Watershed Management Program has been used to implement the first phase 
of the program--to provide Reclamation funding for establishment or 
expansion of watershed groups. Funding has been limited to the states 
and territories identified under 43 U.S.C. Sec.  391, similar to 
existing WaterSMART Grants funding opportunity announcements. If 
confirmed I would be glad to work with the Committee to explore ways to 
apply the use of the Department's resources and expertise to projects 
in Hawaii.

     Responses of Michael L. Connor to Questions From Senator Scott

    Question 57. The Department of the Interior's current five-year 
plan keeps 87 percent of our offshore acreage off limits to exploration 
and production including areas off the coast of South Carolina. In 
testimony before this Committee, when I asked Secretary Jewell about 
Atlantic access and seismic she stated that Interior would consider 
areas in the Atlantic for exploration activities if the data shows some 
promise for resources. At the same time, Interior continues to delay 
the process for getting the seismic data that will feed into the 
leasing program. The process for approving seismic activity to gather 
this data began in January 2009 and Interior has still not completed 
its analysis nor made a decision, let alone issued a permit for seismic 
research. What will you do to ensure these delays end and Interior 
moves forward with permitting Atlantic seismic?
    Answer. I am fully committed to working with the Bureau of Ocean 
Energy Management and others to ensure that the Department actively 
seeks and considers coastal states' interests as we analyze our leasing 
decisions under the Outer Continental Shelf Lands Act. I know that BOEM 
has made significant progress in updating its resource estimates as 
reflected in their 2011 National Resource Assessment. BOEM is 
proceeding with a region-specific strategy in the area that focuses on 
the need to update data in order to inform future decisions about 
whether and, if so, where leasing would be appropriate.
    Question 58. The recommendations adopted by the National Ocean 
Policy Executive Order state that effective implementation will require 
``clear and easily understood requirements and regulations, where 
appropriate, that include enforcement as a critical component.'' In 
addition, the Executive Order requires federal entities including DOI 
to implement the policy to the fullest extent possible. At the same 
time, the National Ocean Council has stated that the National Policy 
``does not establish any new regulations or restrict any ocean uses or 
activities'' What if any commitment can you make that DOI and its 
affiliates will not issue any regulations or take any actions under the 
National Ocean Policy (including coastal and marine spatial planning) 
that could have a regulatory impact?
    Question 59. If confirmed, can you pledge that DOI will comply with 
the will and intent of Congress and not use the agency's human or 
financial resources to further coastal and marine spatial planning?
    Question 60. If confirmed, what will your role be in implementing 
the National Ocean Policy?
    Question 61. If confirmed, how many DOI and agency resources will 
you dedicate to the National Ocean Policy?
    Answer. To 58-61: It is my understanding that neither the National 
Ocean Policy nor marine planning creates or changes regulations or 
authorities. The final Implementation Plan was developed with extensive 
stakeholder input and describes specific actions federal agencies will 
take to address key ocean challenges, give states and communities 
greater input in federal decisions, streamline federal operations, save 
taxpayer dollars, and promote economic growth. The Implementation Plan 
supports voluntary regional marine planning, which brings together 
ocean users to share information to plan how we use, sustain and better 
understand our ocean resources.
    Interior manages vast coastal and ocean resources, which serve as a 
foundation of our economy generating over $100 billion in economic 
activity and supporting over two million jobs. If confirmed, I look 
forward to working with Secretary Jewell and the team at Interior, to 
implementing the NOP, and to better understanding this country's 
challenges and opportunities relative to ocean resources across all 
major sectors and uses. As the Department continues to support this 
Administration's efforts to protect, maintain, and restore the health 
of ocean, coastal and Great Lakes ecosystems, I commit to promoting 
coordination among agencies, sustained stakeholder engagement and 
cooperation with this committee. I will work in partnership with the 
Committee to ensure that any actions taken by the bureaus within 
Interior are supported by sound science and transparency in our 
decision-making. If confirmed, I will adhere to the Department's 
commitment to implementing the President's Plan and I will keep you 
fully informed as implementation progresses.

    Responses of Michael L. Connor to Questions From Senator Manchin

    Question 62. Do you think the Administration was correct in asking 
a court to vacate the 2008 Stream Buffer rule, which was developed over 
several years, with input from both industry and the environmental 
community? If so, what do you think a new rule should look like?
    Answer. I am not familiar with the specific history of this issue, 
but I know it is an issue that is important to you. If confirmed, I 
commit to learning more about it, and I would welcome the opportunity 
to discuss the issue with you.
    Question 63. In your opinion, what is the proper balance between 
state and federal regulations?
    Answer. In the context of the Department and its missions, the 
proper balance between state, tribal, and federal regulations is one 
that meets the interests of states, local communities, tribes, and 
territories as well as the public owners of our federal resources and 
the need for the Department and its bureaus to comply with statutory 
mandates. I believe that this balance can be achieved through ongoing 
dialogue with interested stakeholders and governments.
                                 ______
                                 
    [Responses to the following questions were not received. 
The nomination of Ronald J. Binz to be a Member of the Federal 
Energy Regulatory Commission for the term expiring June 30, 
2018 was withdrawn by the President from further consideration 
by the Senate on October 28, 2013].

           Questions for Ronald J. Binz From Senator Manchin

    Question 1. During the confirmation hearing I heard Chairman Wyden 
express several times that the Federal Energy Regulatory Commission 
(FERC) does not have authority to influence or dictate which fuels are 
used to generate electricity and that the Commission has very limited 
jurisdiction over electric generation. I believe you concurred. But are 
there ways the FERC could establish transmission policies that would 
afford preferences to one type of generation over another? For example, 
could FERC policies allow for preference in using the grid or favorable 
interconnection agreements for renewable energy?
    Question 2. If confirmed, would you commit to policies that keep 
the grid ``fuel neutral'', in line with the Chairman's assertion that 
FERC should not pursue policies that dictate the fuel mix of 
electricity generation or provide incentives for one source of energy 
over another? Do you agree that FERC's principal concern should be to 
ensure reliability of the grid regardless of the source of electrons 
moving on it?
    Question 3. If confirmed, do you intend to pursue policies that 
would socialize the cost of transmission investments to favor renewable 
energy projects, for example those in Renewable Energy Zones?
    Question 4. In response to my statement that West Virginia is 
getting the living daylights beaten out of it by anti-coal policies and 
that you strongly favor renewables over other energy sources, you 
stated at that ``I approved the largest coal plant that was ever built 
in Colorado.'' Xcel Energy's Comanche 3 unit is the largest coal plant 
in Colorado. That unit was approved by the Colorado Public Utilities 
Commission in 2004, according to Xcel's website. You were not a member 
of the Colorado PUC until 2007, according to your biography. In light 
of questions that arose during the hearing about the accuracy of your 
statements, I'd like to give you the opportunity to correct your 
comments. The PUC approved a rate plan for the plant while you were on 
the commission, but it is not accurate to say that you approved the 
largest coal plant ever built in Colorado. Is that correct?
    You described natural gas as ``the near perfect fuel for the next 
couple of decades and if we perfect capture and sequestration of 
carbon, it will be a permanently good fuel for this country's use.''
    Is it then your view that carbon capture and sequestration is not 
ready today for widespread deployment?
    If we ``perfect'' carbon capture and sequestration, is coal ``a 
permanently good fuel for this country's use?''
    Question 5. When you were Chair of the Colorado Public Utility 
Commission (PUC) you promoted a ``Clean Air, Clean Jobs'' act that 
offered incentives for shutting down coal-fired power plants in favor 
of natural gas generation. Xcel Energy reported that the total cost of 
implementing the PUC plan was about $1 billion over seven years, 
between building new natural gas plants, adding pollution controls to 
some of the coal-fired plants, and shutting down six of the coal-fired 
plants.
    But from what I understand, this legislation was a bad deal for 
consumers: it required greater reductions in emissions of NOX than even 
what EPA regulations require--making it too expensive for coal plants 
to possibly retrofit--and doesn't account for the potential for 
increases in natural gas prices. It's projected to cost at least $1 
billion over seven years, plus potentially more in fuel costs.
    Isn't this just fuel-switching to natural gas, putting customers at 
risk to higher prices by putting all of our eggs in one basket? 
Wouldn't it have been possible to achieve reasonable reductions in 
emissions while keeping fuel diversity, such as Utah did?
    Question 6. I know that the ``Clean Air, Clean Jobs'' act was only 
expected to increase residential electricity costs by 2% (not 
accounting for natural gas price variability). However, it was 
projected to increase prices for industrial electricity consumers by 
12%.
    Are you concerned about how policies such as this will affect our 
nation's economic competitiveness?
    Question 7. I recently met with FERC Commissioner Philip Moeller, 
and he described himself as ``source neutral, not reliability 
neutral.'' I've heard in the news and from colleagues that you've said 
that ``natural gas is a dead end fuel'' and your record in Colorado 
points to you promoting the move away from coal. Would you promote 
moving away from these fuels at the expense of reliability? Do you 
expect that the increased use of intermittent fuels like solar and wind 
are going to impact reliability?
    Question 8. You have said--on multiple occasions-that with the 
right regulatory policies in place it is possible to increase 
renewables to 80% of total energy usage by 2050. You have also 
suggested that this country should pursue this 80% regardless of cost. 
I support coal. Coal is inexpensive and reliable; renewables are costly 
and less reliable.
    a. Do you plan to push for 80% renewables by 2050 through your 
position as a FERC Commissioner?
    b. We don't have a federal renewable portfolio standard. Congress 
hasn't enacted one. Shouldn't the generation mix be left to the market 
unless Congress intervenes?
    c. What limits should there be on impacts of this goal on costs or 
other impacts to consumers and the economy?
    Question 9. The Denver Post of February 19, 2011 says you are ``on 
record as favoring steadily rising rates as a vital feature of the New 
Energy Economy.'' Is this true? Is your view that higher rates from 
renewable energy are better than lower rates from coal? Subject to what 
limits, if any?
    Question 10. What role do you see for base load generating units 
such as coal and nuclear units? Should they receive any special 
emphasis in our policy since they are essential to reliability?
    Question 11. What role do coal, natural gas, and nuclear power have 
in America's energy future?

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
